<html>
<title> - PIRACY ON THE HIGH SEAS: PROTECTING OUR SHIPS, CREWS, AND PASSENGERS</title>
<body><pre>[Senate Hearing 111-427]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-427
 
  PIRACY ON THE HIGH SEAS: PROTECTING OUR SHIPS, CREWS, AND PASSENGERS

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON SURFACE TRANSPORTATION
                  AND MERCHANT MARINE INFRASTRUCTURE,
                          SAFETY, AND SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 5, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                  U.S. GOVERNMENT PRINTING OFFICE
51-472                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             SAM BROWNBACK, Kansas
TOM UDALL, New Mexico                MEL MARTINEZ, Florida
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON SURFACE TRANSPORTATION AND MERCHANT MARINE 
                  INFRASTRUCTURE, SAFETY, AND SECURITY

FRANK R. LAUTENBERG, New Jersey,     JOHN THUNE, South Dakota, Ranking 
    Chairman                             Member
DANIEL K. INOUYE, Hawaii             OLYMPIA J. SNOWE, Maine
JOHN F. KERRY, Massachusetts         JOHN ENSIGN, Nevada
BYRON L. DORGAN, North Dakota        JIM DeMINT, South Carolina
BARBARA BOXER, California            ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           JOHNNY ISAKSON, Georgia
MARK PRYOR, Arkansas                 DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 5, 2009......................................     1
Statement of Senator Lautenberg..................................     1
Statement of Senator Udall.......................................    35
    Prepared statement...........................................    35
Statement of Senator Thune.......................................    37

                               Witnesses

Philip J. Shapiro, President and CEO, Liberty Maritime 
  Corporation....................................................     3
    Prepared statement...........................................     5
Captain Richard Phillips, Master, MAERSK ALABAMA.................     8
    Prepared statement...........................................    11
Michael A. Perry, Chief Engineer, MAERSK ALABAMA.................    13
    Prepared statement...........................................    14
Hon. Roy Kienitz, Under Secretary of Policy, U.S. Department of 
  Transportation.................................................    16
    Prepared statement...........................................    18
Rear Admiral Brian M. Salerno, Assistant Commandant for Marine 
  Safety, Security, and Stewardship, United States Coast Guard, 
  U.S. Department of Homeland Security...........................    22
    Prepared statement...........................................    23
Theresa Whelan, Deputy Assistant Secretary of Defense for African 
  Affairs........................................................    28
    Prepared statement...........................................    30

                                Appendix

Hon. John D. Rockefeller IV, U.S. Senator from West Virginia, 
  prepared statement.............................................    47
Daniel K. Inouye, U.S. Senator from Hawaii, prepared statement...    48
American Maritime Officers, International Organization of 
  Masters, Mates and Pilots, Marine Engineers' Beneficial 
  Association and Seafarers International Union, prepared 
  statement......................................................    48
Response to written questions submitted by Hon. Frank R. 
  Lautenberg to:
    Philip J. Shapiro............................................    50
    Hon. Roy Kienitz.............................................    51
    Rear Admiral Brian M. Salerno................................    52
Response to written questions submitted to Rear Admiral Brian M. 
  Salerno by:
    Hon. Tom Udall...............................................    57
    Hon. Olympia J. Snowe........................................    58
Response to written questions submitted to Theresa Whelan by:
    Hon. Frank R. Lautenberg.....................................    58
    Hon. Tom Udall...............................................    63


  PIRACY ON THE HIGH SEAS: PROTECTING OUR SHIPS, CREWS, AND PASSENGERS

                              ----------                              


                          TUESDAY, MAY 5, 2009

                               U.S. Senate,
  Subcommittee on Surface Transportation, Merchant 
       Marine Infrastructure, Safety, and Security,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3 p.m. in room 
SR-253, Russell Senate Office Building, Hon. Frank R. 
Lautenberg, Chairman of the Subcommittee, presiding.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. This is the Surface Transportation 
Subcommittee, and the subject today is ``Piracy on the High 
Seas.'' I thank all of you, those of you who are appearing as 
witnesses, for being here today, for helping us understand what 
we have got out there by way of a threat and what we do to deal 
with it.
    Many of us thought that pirates were something from the 
past, found only in history books and movies. The pirates are 
back on the high seas. And on April 8th, the U.S.-flag ship 
MAERSK ALABAMA was transporting food to hungry people in Kenya 
when it was attacked by four Somali pirates. The 20 crewmembers 
stood up to the pirates and eventually retook their ship. But 
their captain, Captain Phillips, was taken hostage.
    So we look in wonderment. I had the chance to talk to 
Captain Phillips and his wife the other night, and she assured 
me that she had all the confidence in the world, that there 
wasn't any doubt that the captain was going to stand up to 
these people and lead his ship and his crew and himself back 
home. We congratulate you for that.
    The U.S. Navy's Special Forces were called upon to secure 
the captain's release, and they succeeded. Captain Richard 
Phillips and his Chief Engineer--Michael Perry from the ALABAMA 
are with us today, and I thank you both for being here and 
commend you for your bravery at sea.
    But as the Nation focused on the ALABAMA incident, another 
attack on a U.S.-flag ship occurred. Only 5 days after the 
ALABAMA attack, Somali pirates again attacked a U.S.-flag ship, 
the LIBERTY SUN. The vessel and its crewmen were fired on by 
pirates, and they escaped by outmaneuvering them.
    We have video footage, which you will see in a couple of 
minutes, from that attack that we are going to play today. And 
while the video is not Hollywood perfect, it certainly shows 
how the crew acted decisively to ward off the attack by the 
pirates.
    Despite the LIBERTY SUN's daring escape, the ship was stuck 
at a port in Kenya as the attackers waited offshore for its 
return to the seas. They were waiting for their quarry to show 
up. It is outrageous. The LIBERTY SUN was docked in Kenya for 
nearly 3 weeks, and the ship finally left the port this past 
Sunday.
    So, today, I hope the Navy can tell us how they can ensure 
safe passage in the future. In 2008, just last year, there were 
111 pirate attacks off the Horn of Africa, almost double the 
number in 2007. And this year alone, there have already been 86 
attacks.
    As a result of these attacks, nearly 300 non-U.S. 
crewmembers are being held prisoner by Somali pirates. Pirates 
are now attacking ships over more than 2 million square miles 
of ocean, more than half the size of the United States. In 
addition to the lives they threaten, these pirates threaten 
supplies for American troops who are serving abroad, 
humanitarian relief bound for East Africa, and commercial 
shipping across the world.
    These bandits have to be stopped. Violence and lawlessness 
will not be tolerated, whether on land, in the sky, or at sea. 
We have a duty to protect the ships that proudly fly America's 
flag, and our Nation's military is our partner in fulfilling 
that duty, and we are going to talk about that in just a little 
bit.
    A timid approach, an agreement, acquiescence will not do 
it. We need to take bold action to keep our seas and our ship 
crews safe. And I understand that the Coast Guard is in the 
process of updating their security policies for commercial 
ships in the program known as the MARSEC security directive. 
This is long overdue, and it needs to be completed.
    And the international community needs to have a strong, 
united front against these bandits of the sea. The 
International Maritime Organization has 168 member nations. 
They must all join together to prosecute and stop piracy in 
this region.
    Now I look forward to hearing from our witnesses so that we 
can learn what appropriate steps we can take to eliminate these 
threats to our passengers, the ships, the crew, the cargo, and 
we are delighted to have you here. I just want to make mention 
of all of those who are here with us.
    Mr. Philip Shapiro, who we will hear from first, president 
and CEO of Liberty Maritime Corporation, whose ship, the 
LIBERTY SUN, was attacked by pirates on April 14, 2009.
    Captain Richard Phillips of the MAERSK ALABAMA, and his 
colleague Michael Perry, the Chief Engineer of the MAERSK 
ALABAMA. And we thank you both for showing us the way to get 
out of a situation like that.
    Both the captain and the engineer--Captain Phillips and Mr. 
Perry--faced incredibly trying circumstances. I commend you for 
your leadership, your courage, and your commitment to your 
crew. The career of a merchant mariner is often 
underappreciated, but these incidents remind us of the role 
that you play in our Nation's security and commerce.
    And Mr. Roy Kienitz, Under Secretary of Transportation for 
Policy at the U.S. Department of Transportation, is here. We 
welcome you.
    And Rear Admiral Brian Salerno, Assistant Commandant for 
Marine Safety, Security, and Stewardship at the U.S. Coast 
Guard.
    We have Ms. Theresa Whelan, who is the Deputy Assistant 
Secretary of Defense for African Affairs.
    Now we are going to try and keep the testimony to 5 
minutes. If you run over a little bit, you have a tolerant 
Chairman here, but not too much. And first, what we would like 
to do is hear from Mr. Shapiro.
    And Mr. Shapiro also has a film that he is going to show us 
when he finishes his remarks, and it will not be charged to 
your time at the table.

      STATEMENT OF PHILIP J. SHAPIRO, PRESIDENT AND CEO, 
                  LIBERTY MARITIME CORPORATION

    Mr. Shapiro. Thank you, Mr. Chairman.
    Mr. Chairman, thank you for the opportunity to testify on 
the important issue of piracy. As you know, one of our vessels, 
the LIBERTY SUN, was attacked by pirates off the coast of 
Somalia on April 14, just 2 days after the incredible rescue of 
Captain Phillips of the MAERSK ALABAMA.
    Thankfully, no one on the crew of the SUN was injured, 
despite the vessel having been hit by four rocket-propelled 
grenades and automatic weapons fire, and the SUN arrived safely 
in Mombasa, Kenya, on April 15.
    The LIBERTY SUN was on a mission of mercy to deliver much-
needed food aid to East Africa. The vessel carried 47,000 tons 
of food as a gift from the American people. The SUN's cargo 
alone is enough to feed more than a quarter of a million people 
for a year in several African countries, including Somalia.
    Without revealing the operational details, for fear of 
assisting the pirates, I can say that one of our vessels is 
almost always in or near the danger area at any given time. And 
so, we take the threat of piracy very, very seriously. Our 
company and our crew implemented enhanced precautions to make 
our vessels difficult pirate targets prior to the recent 
incidents.
    Captain Don Grosse and the rest of the crew followed the 
company's security plan and kept their cool under fire. No 
boarding occurred, and the crew did everything that could 
reasonably be asked of them.
    We also wish to thank the U.S. Navy for their prompt and 
effective response to the incident. We are especially grateful 
to General Duncan McNabb and Vice Admiral Ann Rondeau of U.S. 
TRANSCOM, as well as Deputy Secretary of Transportation Admiral 
Tom Barrett and Admiral Thad Allen, the Commandant of the Coast 
Guard.
    With your permission, Mr. Chairman, at this point, I would 
like to introduce and show a short video of the attack on the 
LIBERTY SUN, taken by the chief mate, Bill Kenneweg.
    [Video begins.]
    Mr. Shapiro. You can see here the skiff containing the 
boatload of pirates that is off the starboard side.
    That was the first RPG hitting.
    At this point, the vessel security plan is in effect. The 
crew is being mustered in the steering gear room and the engine 
control room, and the captain and some of the mates are staying 
on the bridge.
    The captain tells one of the mates to go down to the secure 
room, and he says, ``No, I am staying here with you.'' And they 
begin an evasive course. And they are yelling over a voice-
activated phone to the engine control room, where the vessel is 
being steered from.
    Commanding the movement of the rudders to begin the evasive 
maneuvering.
    Saying, ``stay on the phone so you hear the orders,'' if we 
have to move.
    ``Stay on the phone.''
    ``Left 15,'' he is commanding a rudder movement.
    At this point, they have already been hit by the four RPGs. 
They have been signaled by the pirates to stop, and they 
continue sailing and ignore them.
    Now they see a second pirate boat that they hadn't seen.
    [Video ends.]
    Mr. Shapiro. Well, initially, you saw one of the skiffs, 
and the second one appears later in the video. As you can see, 
Mr. Chairman, pirate attacks come out of nowhere and end just 
as suddenly. The video is dramatic and showcases the type of 
risk our crewmen face every day when delivering food aid in 
this part of the world.
    It also demonstrates the preparation, training, and courage 
of our crew in responding to lethal fire. The only thing they 
could not do was shoot back, Mr. Chairman.
    And so, with the balance of my time, I would like to 
address what I regard as the pressing U.S.-flag piracy issues. 
First, we have heard some suggestions that U.S.-flag ship 
owners have not done enough to protect their vessels. That 
view, with all due respect, sir, is flat wrong.
    Our company adopted every measure recommended by the 
International Maritime Organization and required by the Coast 
Guard's approved security plan for making the vessel a 
difficult piracy target and more. And the fact is, they did not 
board our vessel.
    For example, the crew of the SUN had rigged fire hoses to 
cover the stern of the vessel to create a virtual floodwall of 
water coming off the ship. When the BAINBRIDGE arrived, their 
crew informed Captain Grosse that none of them had ever seen so 
much water coming off a vessel.
    Critics have also charged that U.S.-flag vessels should 
carry firearms for the crew or private security teams. Please 
let me address this issue directly. Merchant vessels simply do 
not routinely carry firearms in this day and age. In my view, 
however, the MAERSK ALABAMA incident constitutes a game changer 
in this regard.
    After the incident, self-proclaimed pirate leaders issued 
direct threats of violence against American merchant mariners. 
It is true that U.S.-flag vessels and their crews have an 
unquestioned right of self-defense under a United States 
statute dating back to 1819. However, more recently enacted 
State Department arms export regulations effectively prohibit 
the arming of vessels.
    Additionally, ship owners risk being second-guessed in both 
U.S. and foreign courts for self-defensive measures that were 
common in 1819.
    In light of the recent threats to U.S. merchant mariners, 
we respectfully request that Congress consider clearing the 
obstacles that currently block ship owners from arming our 
vessels in self-defense to protect our crews when it is 
appropriate.
    I believe that U.S.-flag ship owners have done all they can 
within the law to protect their crews. I look forward to 
working together with you, sir, and other members of the 
Committee and other Congressional leaders to bring U.S. law up 
to date and give us the legal framework we need to be able to 
protect ourselves.
    I also hope that we can come to an understanding that 
private industry cannot switch from a no firearms regime to an 
armed protection regime overnight. Our ships need protection 
now, not months from now.
    In the interim, we will need either naval escorts or 
Government security teams for U.S.-flag vessels on high-risk 
transits. And in that regard, we are grateful to both the 
Department of Defense and the European Union for their 
cooperation, which we have received to date.
    The piracy problem has correctly been described as an 
international problem that needs an international solution. But 
we should not let the complexity of that problem deter us from 
addressing what we can do in the United States right now to 
protect American merchant mariners on U.S.-flag vessels.
    Thank you again, sir, for inviting me to appear here today, 
and I would be pleased to answer any questions you may have.
    Thank you.
    [The prepared statement of Mr. Shapiro follows:]

      Prepared Statement of Philip J. Shapiro, President and CEO, 
                      Liberty Maritime Corporation

    Mr. Chairman, thank you for the opportunity to testify before this 
Subcommittee on the important and pressing issue of piracy. As you 
know, one of our vessels--the LIBERTY SUN--was attacked by pirates off 
the coast of Somalia on April 14, just 2 days after the incredible 
rescue of Captain Phillips of the MAERSK ALABAMA. Thankfully, no one on 
the crew of the LIBERTY SUN was injured, despite the vessel being hit 
by four rocket propelled grenades (RPGs) and automatic weapons fire, 
and the SUN arrived safely in Mombasa, Kenya on April 15.
    I am also very pleased to be in the company of the other 
distinguished guests on this panel and most especially Captain, 
Phillips and Michael Perry, the Master and Chief Engineer of the MAERSK 
ALABAMA. I look forward to their remarks as they and the other crew 
members of these ships are the true heroes in these incidents.
    The LIBERTY SUN--like many other U.S.-flag vessels which transit 
the pirate danger zone--was on a mission of mercy--a mission to deliver 
much needed food aid to alleviate famine in East Africa. The LIBERTY 
SUN carried 47,000 metric tons of food as a gift from the American 
people to be distributed by the U.N. World Food Programme and other 
relief agencies. The SUN's cargo alone is enough to feed more than 
250,000 people for a year in several African countries including 
Somalia.
    Our company has five other U.S.-flag vessels that were specifically 
built to transport U.S. Government international food aid as 
efficiently and economically as possible. Without revealing operational 
details for fear of assisting the pirates, I can say that we almost 
always have one of our vessels in or near the danger area at any given 
time and so we take the threat of piracy very, very seriously.
    In this whole incident, we are most proud of our U.S. citizen crew. 
In the case of the LIBERTY SUN, we had a typical geographically diverse 
crew with members hailing from Lynn, Massachusetts--Tracy City, 
Tennessee--Plano, Texas--Denham Springs, Louisiana and many places in 
between. Capt. Don Grosse and Chief Mate Bill Kenneweg, whom you will 
see in a short video, are from Williamsburg, Virginia and Port 
Townsend, Washington, respectively.
    These men and women are all trained to the highest levels of 
seamanship and technical skill by our country's service and maritime 
academies and by the continuing education systems of their unions--the 
Marine Engineers Beneficial Association or MEBA and the Seafarers 
International Union or SIU. Our 20-member crew performed exceptionally 
during the incident and in the highest traditions of the long and 
illustrious history of the U.S. merchant marine.
    Our company and our crew implemented enhanced precautions to make 
our vessels difficult pirate targets prior to the recent incidents. 
Indeed, Liberty went well beyond the best management practices 
recommended by a consensus group of international ship owners' 
associations representing virtually the entire world's fleet.
    Captain Don Grosse and the rest of the crew followed the company's 
security plan and kept their cool under fire. We don't know if those 
actions deterred a boarding. But we do know that no boarding occurred 
and the crew did everything that could reasonably be asked of them 
before, during and after the attack.
    We also wish to thank the U.S. Navy for their prompt and effective 
response to the incident. We are especially grateful to General Duncan 
McNabb and Vice Admiral Ann Rondeau of the U.S. Transportation Command 
as well as Deputy Secretary of Transportation, Adm. Torn Barrett, who 
have been very supportive throughout this incident and in its 
aftermath. Many other leaders in government, like Adm. Thad Allen, the 
Commandant of the U.S. Coast Guard, have focused their time and 
attention to solving this serious problem and we thank them as well.
    I could go on with many more thank you's and with my own 
description of what happened on the LIBERTY SUN. But a picture is worth 
a thousand words and video tells a tale that no words can tell. So, 
with your permission, Mr. Chairman, at this point I would like to 
introduce and show a short video of the attack on the LIBERTY SUN taken 
by the Chief Mate, Bill Kenneweg.
    Initially, you will see one of the pirate skiffs from which rocket 
propelled grenades and automatic weapons were fired at the ship. And 
you will see the aftermath of one of the RPGs fired at the vessel. The 
voices you will hear in the video are those of Captain Don Gross, Chief 
Mate Bill Kenneweg and Lee Hall on the bridge or command center of the 
LIBERTY SUN.
    You will note that Capt. Gross asks Kenneweg to join the rest of 
the crew in the designated safe area of the ship and that Bill tells 
the Capt. that he is staying by his side.
    Then you will hear the two talking about maneuvering the vessel to 
make it more difficult for the pirates to board the vessel. Those 
instructions are in turn transmitted by phone to the engine room 
because control has been transferred there in accordance with the 
vessel's security plan.
    I hope you will forgive some of the language which I understand may 
have been bleeped out in any event--even our highly trained crews are 
after all, sailors. Please also forgive some of the camera pointing--
it's not easy for a crew member who is not a professional war 
photographer to get good camera angles when he is being shot at!
    [show video]
    As you can see, Mr. Chairman, pirate attacks can come suddenly and 
end just as suddenly. The consequences of that incident and the one 
aboard the MAERSK ALABAMA are, however, still with us.
    So, Mr. Chairman, with the balance of my time I would like to 
address what I regard as the pressing issues facing U.S.-flag vessels 
with regard to piracy.
    First, we have heard some suggestions since the incident that U.S.-
flag ship owners have not done enough to protect their vessels. That 
view--with all due respect, Sir,--is flat wrong. Our company adopted 
every measure recommended by international organizations and required 
by the U.S. Coast Guard's approved security plan for making the vessel 
a difficult piracy target and more.
    For example, the crew of the LIBERTY SUN had rigged fire hoses to 
cover the stern of the vessel where many boardings in fact occur to 
create a virtual flood wall of water coming off the vessel. When the 
BAINBRIDGE arrived, their crew informed Capt. Grosse that they had 
never seen so much water coming off of a vessel. For this and other 
reasons, Coast Guard Admiral Baumgartner praised our crew's execution 
of the security plan in testimony before a House Committee last week.
    There has also been criticism in some quarters of the government to 
the effect that U.S.-flag vessels should carry fire arms for the crews 
or armed private security teams. Please let me address this issue 
directly.
    Merchant vessels simply do not routinely carry fire arms in this 
day and age. Many key ports, like Singapore, bar weapons on board 
vessels as do many canals. The International Maritime Organization and 
ship owning associations all actively discourage the carriage of arms 
for fear that they will escalate violence and put crews at increased 
risk of injury or death. The overwhelming weight of professional 
opinion has been, for better or worse, against arming crews or hiring 
private security detachments. Thus, given the threat as it existed 
before the MAERSK ALABAMA incident, the judgment of virtually all ship 
owners around the world was that carrying arms was counter productive 
because the risk of violent escalation far outweighed the deterrence or 
protective value of firearms.
    In my view, however, the MAERSK ALABAMA incident constitutes a game 
changer in this regard. After the incident, self-proclaimed pirate 
leaders issued direct threats of violence against American merchant 
mariners. Indeed, the attack on the M/V LIBERTY SUN may very well have 
been an act of revenge for the killing of the three pirates in the 
ALABAMA incident.
    Moreover, the U.S. Government has publicly announced that it will 
neither pay nor will it permit U.S. companies to pay ransoms. Although 
we understand and respect this policy, it may well mean that American 
merchant mariners face a greater risk of violence if they are seized as 
hostages as the MAERSK ALABAMA incident indicates.
    Given these conditions, our company and other U.S.-flag companies, 
have renewed our focus on the issue of fire arms and the use of 
specially trained security personnel whether employed by the U.S. 
Government or by private contractors. Since the LIBERTY SUN incident, 
our company has been engaged in intense discussions with the U.S. 
Transportation Command, the Navy, DOT, the Coast Guard and other 
governmental agencies about how to achieve better protection for our 
crews from pirates. In that process, it has become obvious that 
prohibitions contained in U.S. and foreign laws and existing legal 
liability make arming crew members or having armed private security in 
the near term very difficult if we are to abide by current law.
    I have also heard it said that there should be no issue because the 
vessel and its crew have an unquestioned right of self-defense. And, 
indeed, we agree. Vessels and crews have that right. However, the right 
of self defense cannot be exercised with the benefit of fire arms under 
existing law.
    Today's U.S. legal framework actually prevents ship owners from 
arming their vessels for self-defense. While the maritime right of self 
defense is enshrined in U.S. law in a statute dating from 1817, more 
recently enacted State Department arms export regulations effectively 
prohibit the arming of vessels. Additionally, ship owners risk being 
second-guessed in U.S. courts for self defensive measures that were 
common in 1817. Mr. Chairman, in light of the recent threats to U.S. 
merchant mariners, we respectfully request that Congress consider 
clearing the obstacles that block ship owners from arming our vessels 
in self-defense to protect our crews when it is appropriate.
    Mr. Chairman, I believe that U.S.-flag ship owners have done all 
they can within the law to protect their crews. The safety of our crews 
is paramount. We need to work together--private industry and 
government--to give those crews all of the protection they deserve.
    I hope that we can work together with you, Senator Rockefeller, 
Senator Hutchison, Senator Thune and the members of this Committee and 
other Congressional leaders to bring U.S. law up to date and give us 
the legal framework we need to be able to protect ourselves.
    I also hope that we all can come to an understanding that private 
industry cannot switch from a no-firearms regime to an armed protection 
regime overnight. Our ships need protection now--not 6 or 9 months from 
now. In the interim, we will need either naval vessel escorts or 
government security teams for U.S.-flag vessels on high risk transits. 
And in that regard, we are very grateful to both DOD and NATO for the 
cooperation we have received with regard to protecting the LIBERTY SUN 
when it leaves Mombasa and for other Liberty vessels entering the 
region.
    Mr. Chairman and members of the Committee, we all have some work to 
do--but we can achieve much together. The piracy problem is, of course, 
much bigger than just protecting U.S. crews on the high seas. It has 
correctly been described as an international problem that needs an 
international solution. But we should not let the complexity of the 
international problem deter us from addressing what can be done in the 
United States right now to protect American merchant mariners on U.S.-
flag vessels.
    Thank you again for inviting me to appear here today. We greatly 
appreciate the opportunity to discuss these matters with you and I 
would be pleased to answer any questions you or your colleagues may 
have now or after the rest of the panel has make their statements.

    Senator Lautenberg. Thank you very much, Mr. Shapiro.
    I won't start the questions right now, but just to say the 
observation that one makes in seeing this video is that the 
pirates kept changing course and accelerating speed. And I 
assume that the LIBERTY SUN was able to outrun these people, 
even though they were in a light skiff that usually has plenty 
of power to accelerate rapidly.
    Mr. Shapiro. Absolutely, sir. They were able to outrun it. 
The skiff is faster than the boat, the ship. The boat is much 
faster than a ship.
    However, with the freeboard that we had, having discharged 
17,000 tons in Port Sudan before we headed down to Mombasa, we 
had 32,000 tons still in the vessel. But this is a large bulk 
carrier, and there was 26 feet of freeboard. That is the 
distance between the water and the deck.
    And with the water going over the sides from the water 
cannons and fire hoses, with the evasive maneuvering, we were 
not an easy target to board at that point, sir.
    Senator Lautenberg. Very good. Well, thank you very much 
for your testimony and for bringing us that video.
    And now I welcome Captain Phillips. We ask you to give your 
testimony and, again, try and keep it within the time limit--I 
will be the watchman here. But I won't be too harsh, I promise. 
Please.

 STATEMENT OF CAPTAIN RICHARD PHILLIPS, MASTER, MAERSK ALABAMA

    Captain Phillips. OK. Mr. Chairman and members of the 
Subcommittee, I am Captain Richard Phillips. I am a graduate of 
the Massachusetts Maritime Academy----
    Senator Lautenberg. Pull that microphone a little closer, 
please.
    Captain Phillips.--OK--a member of the International 
Organization of Masters, Mates, and Pilots, and a licensed 
American merchant mariner. I was the Captain of the MAERSK 
ALABAMA when it was attacked by pirates off the coast of 
Somalia on April 8.
    Thankfully, that episode ended with the successful return 
of the ship, its cargo of U.S. food aid for Africa, and, most 
importantly, my crew. All of us have returned home safely, and 
for that, we all appreciate the actions taken by the 
Administration, the Department of Defense, and, most 
especially, the U.S. Navy, the Navy SEALs, and the crew aboard 
the USS BAINBRIDGE.
    I want to thank the management of Maersk and Waterman 
Steamship Corporation, who handled the situation, the crew, and 
our families with great care and concern. Equally important, I 
want to commend the officers and crew aboard the MAERSK 
ALABAMA, who responded with their typical professionalism in 
response to this incident.
    The deck officers who are members of the Masters, Mates, 
and Pilots Union; the deck officers and engineers who are 
members of the Marine Engineers Beneficial Association; and the 
unlicensed crew who belong to the Seafarers International Union 
are dedicated, well-trained merchant mariners who acted to 
protect the interests of our country.
    In fact, I want to make sure that everyone understands that 
due to the quick response by the crew, led by the Chief 
Engineer, Mike Perry and Chief Mate, Shane Murphy, the pirates 
never took control of the MAERSK ALABAMA. Chief Engineer Perry, 
Chief Mate Murphy, and the entire licensed and unlicensed crew 
of the MAERSK ALABAMA did what American mariners are always 
ready to do--put themselves at risk to protect the vessel and 
its cargo.
    I am honored to come before you and your Subcommittee, Mr. 
Chairman, to discuss my views on making commercial shipping 
safer and worldwide sea lanes more secure from the threat of 
piracy. I cannot, however, discuss various specific details of 
the MAERSK ALABAMA incident because it is itself an ongoing 
investigation and pending legal action against one of the 
pirates.
    Therefore, the focus of my comments will be my beliefs 
based on my years of experience at sea as to what can or should 
be done to respond to piracy and to protect American vessels 
and crews.
    I believe that the best solution for protecting U.S. and 
foreign vessels from the threat of piracy is to end piracy 
itself. I know that this will require an intensive 
international effort to address the root causes of piracy 
within Somalia. But unless the root causes of piracy are 
addressed, piracy will continue to expand and evolve into an 
even greater threat for American and foreign seamen.
    I also ask that Congress consider what steps should be 
taken to address the issues of piracy. You remember that there 
are almost 300 foreign mariners who are still being held 
captive by pirates. Like the crew of the MAERSK ALABAMA, these 
merchant seamen were simply trying to do their jobs, but their 
families, unlike ours, are still living with the stress and 
pain of not knowing if or when their loved ones will be 
returned home safely.
    Our Government should use every resource at its disposal to 
encourage the international maritime community to come together 
in a strong showing of support of international response to 
piracy. In this way, all mariners, American and foreign, will 
have the same protections and an equal chance to do their jobs 
in peace.
    Of course, there is an immediate need to protect American 
vessels and their crews. This need to protect U.S.-flagged 
vessels, which are, by definition, an extension of the United 
States, should be met first and foremost by our Government. I 
believe that the most desirable and appropriate response to 
piracy is for the U.S. Government to provide protection through 
military escorts and/or military detachments aboard U.S. 
vessels.
    That said, I am well aware that there may be a limit to any 
Government resources, even America's. In fact, due to the 
vastness of the area to be covered--and the areas of threat are 
continually growing larger--our Navy and a coalition of other 
navies currently positioned in the Gulf of Aden region may 
simply not have the resources to provide all the protection 
necessary to prevent and stop the attacks.
    So what other things can be done? In my opinion, the 
targets--that is, the vessels--can be hardened to make them 
even more structurally resistant to pirates. In addition, more 
can be done to develop anti-piracy procedures. Tools and 
training for American crews beyond the up-to-date training they 
already receive at their educational training facilities 
jointly run by the maritime unions and shipping companies.
    As for armed security details aboard vessels, I believe 
that this could be an effective deterrent. My preference would 
be Government protection forces. But as long as they are 
adequately trained, I would not be opposed to private security 
onboard. Of course, I realize that very clear protocols would 
have to be established and followed.
    For example, as a captain, I am responsible for the vessel, 
cargo, and crew at all times, and I am not comfortable giving 
up command authority to others, including the commander of a 
protection force. In the heat of an attack, there can only be 
one final decisionmaker. So command is only one of many issues 
that would have to be worked out for security forces to operate 
effectively.
    Finally, I have heard a suggestion that all we have to do 
to counter piracy is just arm the crews. In my opinion, arming 
the crews cannot and should not be viewed as the final and only 
solution to this problem. Rather, arming the crew should be 
viewed as only one component of a comprehensive plan and 
approach to combat piracy.
    It would be my personal preference that only a limited 
number of individuals aboard the vessel have access to 
effective weaponry and that these individuals receive special 
training on a regular basis. I realize that even this limited 
approach to arming the crew opens up a very thorny set of 
issues. I will let others sort out the legal and liability 
issues. However, we all must understand that having weapons 
onboard merchant ships fundamentally changes the model of 
commercial shipping, and we must be very cautious about how it 
is done.
    While there is much discussion going on about how to deal 
with piracy, I would respectfully ask the Subcommittee to be 
mindful that seafarers I have met and worked with over my 
career are resourceful, hard working, adventurous, courageous, 
patriotic, and independent. There are a great many other 
masters, mates, engineers, and crew who have the knowledge and 
insight to help this Subcommittee and the Congress address the 
issue of piracy.
    In fact, I am pleased to let you know that one such 
individual, Captain James Staples, is with me today and is 
available to answer some committee questions. Captain Staples 
is the master of an American-flagged commercial vessel, and he 
has the seafaring and command experience and perspective that 
the Committee may find useful.
    Merchant mariners appreciate whatever help you can offer to 
make the sea lanes more secure and our work environment safer. 
But we realize that while preparation is absolutely critical, 
not every situation can be anticipated. And as merchant 
mariners, we accept this as a part of the seafarer's life.
    So I will just close with a request for you to please 
continue to include us in your discussions and debates.
    Thank you for this opportunity to speak, and I look 
forward, as does Captain Staples, to answering your questions.
    [The prepared statement of Captain Phillips follows:]

        Prepared Statement of Captain Richard Phillips, Master, 

                             MAERSK ALABAMA

    Mr. Chairman and Members of the Subcommittee:
    I am Captain Richard Phillips. I am a graduate of the Massachusetts 
Maritime Academy, I have been a member of the International 
Organization of Masters, Mates & Pilots Union since 1979, and I am a 
licensed American merchant mariner. I was the captain of the MAERSK 
ALABAMA when it was attacked by pirates off the coast of Somalia on 
April 8. Thankfully, that episode ended with the successful return of 
the ship, its cargo of U.S. food aid for Africa and, most importantly, 
my crew. All of us have returned home safely and for that my entire 
crew and I are deeply appreciative of the actions taken by the 
Administration, the Department of Defense and, most especially, the 
U.S. Navy, the Navy SEALS and the crew aboard the USS BAINBRIDGE. All 
of the U.S. military and government personnel who were involved in this 
situation are clearly highly trained and motivated professionals. I 
want to use this opportunity to again say ``thank you'' to everyone 
involved in our safe return.
    I want to thank the management of Maersk and Waterman Steamship 
Corp. who handled the situation, the crew and our families with great 
care and concern.
    Equally important, I want to publicly commend all the officers and 
crew aboard the MAERSK ALABAMA who acted with their typical 
professionalism in response to this incident. The Deck Officers who are 
members of the Masters, Mates & Pilots Union, the Deck Officer and 
Engineers who are members of the Marine Engineers' Beneficial 
Association, and the unlicensed crew who belong to the Seafarers 
International Union are dedicated merchant mariners. They are typical 
of America's merchant seamen who are well-trained and ready to act to 
protect the interests of our country.
    In fact, I want to make sure that everyone understands that due to 
the quick response by the crew, led by Chief Engineer Mike Perry and 
Chief Mate Shane Murphy, the pirates never--I repeat, never--took 
control of the MAERSK ALABAMA. The entire crew did what American 
mariners are always ready to do--put themselves at risk to protect 
their vessel and its cargo. Chief Engineer Perry, Chief Mate Murphy and 
the entire licensed and unlicensed crew of the MAERSK ALABAMA deserve 
our thanks and praise.
    I am honored to come before you and your Subcommittee, Mr. 
Chairman, to discuss my views on making commercial shipping safer, and 
worldwide sea lanes more secure from the threat of piracy. Under your 
leadership, this Subcommittee can play a key role in focusing attention 
on this issue and in developing solutions to the problem of piracy.
    I need to make clear at the outset that I am unable to discuss 
various specific details of the incident itself because of the ongoing 
investigation and pending legal action against one of the pirates. But 
I've had a lot of time to think about the difficult and complex issues 
of protecting vessel, cargo and crew in crime-ridden waters. Therefore, 
the focus of my comments will be my beliefs, based on my years of 
experience at sea, as to what can or should be done to respond to 
piracy and to protect American vessels and crews.
    I should also say at the outset that my personal opinions may 
differ in some ways from other recommendations you have heard before 
and may hear from others. Nevertheless, I do believe that all of us in 
the maritime industry agree that we must work together to address this 
complex problem, and that we must keep the crew, cargo and vessel safe.
    I believe for example that most people agree that the best solution 
to protecting U.S. and foreign vessels from the threat of piracy is to 
end piracy itself. This will require an intensive international effort 
to address the root causes of piracy within Somalia and that this 
effort will undoubtedly be long and difficult. But unless the root 
causes of piracy are addressed, it will continue to expand and to 
evolve into a greater and greater threat for American and foreign 
seamen.
    Along these same lines, as Congress considers what steps should be 
taken to protect American vessels and crews, I would ask that you 
remember the approximately 300 foreign mariners who are still being 
held captive by pirates. Like the crew of the MAERSK ALABAMA, these 
merchant seamen were simply trying to do their job but unlike our 
families, their families are still living with the stress and the pain 
of not knowing if or when their loved ones will be returned home 
safely.
    Unlike most nations of the world, the United States has the 
capability to protect its vessels and their crews from piracy. And our 
government should do so. But at the same time, we should use every 
resource at our disposal to encourage the international maritime 
community to come together in support of a strong international 
response to piracy. In this way, all mariners, American and foreign, 
will have the same protection and a better chance of being able to do 
their jobs in peace.
    Of course, until there is an international agreement to combat 
piracy or we get to the day when the threat of piracy no longer exists, 
there is an immediate need to protect American vessels and their crews. 
This need should first and foremost be met by our government because I 
believe it is the responsibility of our government to protect U.S.-flag 
vessels which are, by definition, an extension of the United States. 
So, it follows that the most desirable and appropriate response to 
piracy is for the U.S. Government to provide protection, through 
military escorts and/or military detachments aboard U.S. vessels. That 
said, I am well aware that some will argue that there is a limit to any 
government's resources--even America's. In fact, due to the vastness of 
the area to be covered--and the areas of threat are continually growing 
larger--our Navy and the coalition of other navies currently positioned 
in the Gulf of Aden region may simply not have the resources to provide 
all the protection necessary to prevent and stop the attacks.
    So what other things can be done?
    In my opinion, the targets--that is, the vessels--can be 
``hardened'' even beyond what's being done today to make them even more 
structurally resistant to pirates. In addition, more can be done in 
terms of developing anti-piracy procedures, tools and training for 
American crews. I do however want to emphasize that contrary to some 
reports that I've heard recently, American mariners are highly trained 
and do receive up-to-date training and upgrading at the private 
educational training facilities jointly run by the maritime unions and 
their contracted shipping companies. I believe that discussions are 
underway now between the industry and government on the details of 
specific proposals to harden the vessels (the specifics of which should 
remain secret) and I am confident that we will soon have additional 
methods for protecting vessel and crew. And while they will be an 
improvement, there is no way they can be foolproof.
    As for armed security details put aboard vessels, I believe that 
this idea could certainly be developed into an effective deterrent. My 
preference would be government protection forces. However, as long as 
they are adequately trained I would not be opposed to private security 
on board. Of course, I realize that very clear protocols would have to 
be established and followed. For example, as a captain, I am 
responsible for the vessel, cargo and crew at all times. And I am not 
comfortable giving up command authority to others . . . including the 
commander of a protection force. In the heat of an attack, there can be 
only one final decisionmaker. So command is only one of many issues 
that would have to be worked out in for security forces to operate 
effectively.
    Finally, I've also heard the suggestion that all we have to do to 
counter piracy is ``just arm the crews.'' In my opinion, arming the 
crew cannot and should not be viewed as the final and only solution to 
this problem. Rather, arming the crew should be viewed as only one 
component of a comprehensive plan and approach to combat piracy. To the 
extent we go forward in this direction, it would be my personal 
preference that only a limited number of individuals aboard the vessel 
have access to effective weaponry and that these individuals receive 
special training on a regular basis. I realize that even this limited 
approach to arming the crew opens up a very thorny set of issues. I'll 
let others sort out the legal and liability issues. However, we all 
must understand that having weapons on board merchant ships 
fundamentally changes the model of commercial shipping and we must be 
very cautious about how it is done. Nevertheless, I do believe that 
arming the crew, as part of an overall strategy, could provide an 
effective deterrent under certain circumstances. I believe that a 
measured capability in this respect should be part of the overall 
debate about how to defend ourselves against criminals on the sea.
    While there are many new ideas and much discussion going on about 
how to deal with piracy, I would respectfully ask the Subcommittee to 
be mindful that the seafarers I've met and worked with over my career 
are resourceful, hardworking, adventurous, courageous, patriotic and 
independent. There are in fact a great many other Masters, Mates, 
Engineers and crew who have the knowledge and insight to help this 
Subcommittee and the Congress address the issue of piracy. In fact, I 
am pleased to let you know that one such individual, Captain James 
Staples, is with me today and is available to answer the Committee's 
questions. Captain Staples is also the Master of an American flag 
commercial vessel and he has the seafaring and command experience and 
perspective that the Committee may find helpful.
    In closing, I would say again that no one person has all the 
answers. Merchant mariners want whatever help you can offer to make the 
sea lanes more secure and our work environment safer. But we realize 
that while preparation is absolutely critical, not every situation can 
be anticipated. And, as merchant mariners, we accept this as a part of 
the seafarer's life. So, I will just close with a request for you to 
please continue to include us in your discussions and debates.
    Thank you for this opportunity to speak and I look forward, as does 
Captain Staples, to answering your questions.

    Senator Lautenberg. Thank you. I deliberately wanted to let 
you continue to give your statement.
    [Laughter.]
    Senator Lautenberg.--And now we have the Chief Engineer, 
Michael Perry, who was also on the crew of the MAERSK. Please 
proceed.

 STATEMENT OF MICHAEL A. PERRY, CHIEF ENGINEER, MAERSK ALABAMA

    Mr. Perry. I appreciate the opportunity to come before you 
to discuss measures that will protect our ships, crews, and 
passengers. My name is Michael Anthony Perry, and I was the 
Chief Engineer onboard the MAERSK ALABAMA on April 8, when it 
was attacked by pirates off the coast of Somalia.
    I am the last in a long line of proud U.S. mariners. My 
grandfather was a sailor in the U.S. Navy. My father was a U.S. 
Merchant Marine throughout World War II. Attaining the rank of 
Lieutenant Commander, I served in the United States Navy for 23 
years, receiving a meritorious commission in 1989. I am a 
member of the Marine Engineers Beneficial Association and have 
been a licensed U.S. Merchant Marine since 1995.
    First and foremost, I would like to extend my gratitude 
toward my colleagues aboard the MAERSK ALABAMA, including my 
fellow licensed engineers, deck officers, and crew. The skills 
in training, and bravery were integral in maintaining the 
highest possible level of safety and security.
    Further, the leadership and determination demonstrated by 
Captain Phillips attest to his strong character. Second, the 
personnel at Maersk and Waterman Steamship Corporation handed 
the situation with the highest level of class and 
professionalism. From the moment they knew the vessel had been 
boarded to the moment I arrived at home, I knew that me, my 
fellow crewmembers, and our families were their top priorities.
    Finally, it goes without saying that the Administration, 
the Department of the Defense, and the U.S. Navy operated with 
skill, expertise that they have proven to possess time after 
time.
    The views that I express in my testimony are my own, and I 
hope that all sectors of the industry will be considered and 
included when forming a comprehensive policy to address the 
issues of piracy.
    As demonstrated by the incident involving the MAERSK 
ALABAMA, when called to action, U.S. Government military 
personnel are the best equipped and most able to provide 
security to U.S.-flagged vessels. They possess the training, 
the weaponry, and authority to provide the security needed in 
order to address the immediate threat.
    Further, it is the obligation of the American Government to 
protect the vessels that fly the U.S. flag, carry U.S. 
mariners, and transport U.S. cargo. Military escorts or 
detachments should be implemented as part of a comprehensive 
international plan to combat piracy.
    Unfortunately, we have seen that the pirates? methods have 
become more sophisticated and unpredictable. This, coupled with 
the increase in pirate attack, has made the issue more urgent. 
Our Government must step up and act now to ensure that the 
U.S.-flag vessels that operate in these waters have the force 
resources necessary to protect the vessel, its cargo, and crew.
    As demonstrated by the attack on the LIBERTY SUN, the 
pirates are no longer solely interested in financial 
transaction. They are willing to use deadly weapons, and that 
put the crew, cargo, and vessels in immediate danger.
    I recommend that straightforward procedures be put in 
place. A well-trained watch team can spot danger far in 
advance, which, coupled with strengthened piracy procedures, 
would help to minimize the risk to the vessel, cargo, and, most 
importantly, the crew.
    The long-term comprehensive solution calls for a response 
both at sea and ashore. The root cause of piracy must be 
addressed internationally. There are hundreds of mariners being 
held hostage aboard pirated vessels across the world, and the 
U.S. Government's resources alone are not enough to fix the 
problem.
    I am very proud of my colleagues onboard the MAERSK 
ALABAMA. Although the crew was able to survive the incident 
relatively unscathed, the threat posed by the armed pirates was 
very real. In fact, Captain Phillips was taken hostage and 
spent 5 days aboard the lifeboat with an AK-47 in his back. Due 
to the heroic actions of the entire crew, however, the pirates 
were at no point in control of the vessel.
    Although the U.S. Government threw the last punch in the 
fight, the battle was won much earlier by the combined efforts 
of the crew. I would like to express my gratitude to them. 
Overcoming extreme fatigue due to heat exhaustion, they 
willingly carried out their duties in order to rescue their 
shipmates throughout this 33-hour ordeal.
    Thank you again for the opportunity to share my thoughts 
with you, and I look forward to answering any questions you may 
have.
    [The prepared statement of Mr. Perry follows:]

        Prepared Statement of Michael A. Perry, Chief Engineer, 

                             MAERSK ALABAMA

    Chairman Lautenberg, Ranking Member Thune, and Members of the 
Subcommittee:
    I appreciate the opportunity to come before you to discuss measures 
that will protect our ships, crews, and passengers. My name is Michael 
Anthony Perry and I was the Chief Engineer on board the MAERSK ALABAMA 
on April 8th, 2009 when it was attacked by pirates off the coast of 
Somalia. I am the latest in a long line of proud U.S. Mariners. My 
grandfather was a Sailor in the U.S. Navy and my father was U.S. 
Merchant Marine throughout World War II. Attaining the rank of 
Lieutenant Commander, I served in the U.S. Navy for 23 years and 
received a meritorious commissioning in 1989. I am a member of the 
Marine Engineers' Beneficial Association (MEBA) and have been a 
licensed U.S. Merchant Marine since 1995.
    First and foremost, I would like to extend my gratitude toward my 
fellow colleagues aboard the MAERSK ALABAMA including my fellow 
licensed engineers, deck officers, and crews. Their skills, training, 
and bravery were integral in maintaining the highest possible level of 
safety and security. Further, the leadership and determination 
demonstrated by Captain Phillips attests to his strong character. 
Second, the personnel at Maersk and Waterman Steamship Corp. handled 
the situation with the highest level of class and professionalism. From 
the moment they knew the vessel had been boarded to the moment I 
arrived home, I knew that me, my fellow crew members, and our families 
were their top priority. Finally, it goes without saying that the 
Administration, the Department of Defense, and the U.S. Navy operated 
with the skill and expertise that they have proven to possess time 
after time.
    The views that I express in my testimony are my own and I hope that 
all sectors of the industry will be considered and included when 
forming a comprehensive policy to address the issue of piracy. Through 
my years of service at sea, I hope to offer a firsthand account for you 
to take into consideration.
    As demonstrated by the incident involving the MAERSK ALABAMA, when 
called into action, U.S. Government military personnel are the best 
equipped and most able to provide security to U.S.-flag vessels. They 
possess the training, weaponry, and authority to provide the security 
needed in order to address an immediate threat. Further, it is the 
obligation of the American government to protect the vessels that fly 
the U.S.-flag, carry U.S. mariners, and transport U.S. cargo. Military 
escorts or detachments should be implemented as part of a comprehensive 
international plan to combat piracy.
    Unfortunately, we have seen that the pirates' methods have become 
more sophisticated and unpredictable. This, coupled with the increase 
in pirate attacks, has made the issue more urgent. Having a large 
freeboard and maintaining speeds above 15 knots is no longer sufficient 
to ward off attacks. Also, the utility of traditional ``hardening'' 
measures such as fire hoses has decreased due to advancing techniques 
used by the pirates. Rather, our government must step up and act now to 
ensure that the U.S.-flag vessels that operate in these waters have the 
force protection necessary to protect the vessel, its cargo, and crew. 
As demonstrated by the attack on the LIBERTY SUN, the pirates are no 
longer solely interested a financial transaction. They are willing to 
use deadly weapons and that put the crews, cargo, and vessels in 
immediate danger. On Friday, May 1, a Portuguese warship reported 
stopping a pirate attack against an oil tanker involving explosives. 
This type of attack would be disastrous. The pirates have clearly 
raised the stakes.
    While carriers are implementing new, advanced hardening measures 
more must be done in order to minimize or eliminate the threat posed by 
piracy. I recommend that straightforward procedures be put in place 
should the pirates be able to board a vessel in the future. A well-
trained watch team can spot danger far in advance which, coupled with 
strengthened piracy procedures, would help to minimize the risk to the 
vessel, the cargo, and, most importantly, the crew.
    The crews aboard U.S.-flag vessels are highly trained and have 
specific roles and responsibilities when at sea. Simply ``arming the 
crew'' would place an undue physical, mental, legal, and moral burden 
on the crew. Arming the crew should only be considered as part of a 
larger comprehensive strategy and only then as a last resort.
    I am very proud of my colleagues aboard the MAERSK ALABAMA. 
Although the crew was able to survive the incident relatively 
unscathed, the threat posed by armed pirates was very real. In fact, 
Captain Phillips was taken hostage and spent 5 days aboard a life boat 
with an AK-47 in his back. Due to the heroic actions of the entire crew 
however, the pirates were at no point in control of the vessel. Going 
forward, strong preventative measures must be enacted in order to 
protect the lives of U.S. Merchant Mariners. In the short term, this 
can best be accomplished through military escorts and/or detachments.
    The long-term comprehensive solution calls for a response both at 
sea and ashore. The root causes of piracy must be addressed 
internationally. There are hundreds of mariners being held hostage 
aboard pirated vessels across the world and the U.S. Government's 
resources alone are not enough to fix the problem.
    Every mariner aboard the MAERSK ALABAMA deserves credit for the 
safe return of the ship and crew and I look forward to sailing with 
each and every one of them in the future.
    Thank you again for the opportunity to share my thoughts with you 
and I look forward to answering any questions you may have.

    Senator Lautenberg. Thank you very much.
    We will hear now from the Honorable Roy Kienitz, who is the 
Under Secretary of Transportation for Policy from the U.S. 
Department of Transportation.
    Mr. Kienitz, thank you.

STATEMENT OF HON. ROY KIENITZ, UNDER SECRETARY OF POLICY, U.S. 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Kienitz. Thank you, Mr. Chairman, Senators.
    Once again, a pleasure to be here today to add what we can 
to this.
    The Department of Transportation is involved in these 
matters principally through the U.S. Maritime Administration, 
which is an agency that has liaison with and regulates in 
certain ways commercial--U.S.-flagged commercial shipping. And 
so, in my testimony today, I think I am principally going to 
reference the work that the Department of Transportation has 
done to help promulgate management practices throughout the 
industry for U.S.-flag vessels and at the international level 
to try to make commercial vessels resistant to piracy to the 
greatest degree possible.
    Obviously, this problem right now, the worst place in the 
world is in the Gulf of Aden, which is one of the busiest 
shipping lanes in the world. On a given day, there might be 50 
commercial vessels in this area. A very small percentage of 
these vessels are U.S.-flag vessels, but there still may be 
approximately one per day in the area.
    Over the course of last year, our data show that we had 
probably about 55 United States ships pass through that area 
for a total of several hundred transits one way or another. 
Currently, at least 18 commercial ships are being held hostage 
in this region, and there were, I believe, 2 more successful 
ship takings this weekend, in the last several days. So that 
number may be higher now.
    Ransom-taking obviously has been traditionally the economic 
model that the pirates are pursuing here, and we believe that 
that is what primarily motivates them.
    Data we have looked at from this busy period has shown 
several things, the first of which was mentioned briefly. The 
ships most vulnerable to attack are those with low top speeds, 
both proceeding slowly through the highest-risk areas and 
unable to accelerate to a high rate of speed, which both--
doesn't necessarily allow them to outrun the vessels but allows 
for aggressive maneuvering when attempts to board are 
occurring.
    The second thing was also referenced by the gentleman, 
which is ships that are low to the water, with a low freeboard, 
make boarding over the side easier. So in the case of ships 
that have both of those characteristics, which is to say speeds 
under, say, 18 knots and low to the water, that is where we see 
the greatest success rate in pirate attacks.
    Estimates are that it is perhaps one-third of one percent 
of the ships transiting through this area that are subject to 
attacks, but the effects are serious, nonetheless. Obviously, 
ship owners and captains and crew experience great risks.
    There are also costs involved both due to increased 
staffing costs, increased insurance costs, and in some cases, 
some ship owners are diverting ships to avoid the region, 
including diverting around the southern end of Africa, which 
adds many days to the transit going that direction. And that 
can have a significant cost.
    To address these challenges, the U.S., acting through our 
sort of commercial shipping arrangements, has been part of the 
leadership of the international effort to promulgate best 
management practices, and that is something that we have done 
by virtue of the U.N. process involving 25 other nations. And I 
might, for a moment, go through what some of those best 
management practices are.
    For example, they fall into several categories. Number one, 
there are recommended defensive preparations for ships before 
they get anywhere near a high-risk area, and that includes 
putting together security plans, making sure the members of the 
crew are properly trained about what to do in a certain 
situation, making sure the proper communications channels are 
known to everyone onboard.
    Second, there are protocols for proper communications with 
naval forces, both several days out from the highest-risk areas 
and while in the region. There are navies of at least 12 
nations operating in this zone right now, and so there is 
obviously a significant coordination challenge that occurs 
there. And so, relatively streamlined procedures have been made 
available to ships of various nationalities in order to 
communicate their position and plans so the various navies are 
aware of them.
    Obviously, there are operational practices that have been 
recommended while in high-risk areas--things like whether it is 
having the fire hoses prepared and to eject water over the 
side, extra manning for watches, particularly during dawn and 
dusk when attacks might be more difficult to detect, 
maneuvering during an attack, things like that.
    Obviously, contingency plans about what to do if attacked 
or boarded. And finally, what are the protocols for personnel 
onboard ship if military action ensues as a result of a pirate 
attack?
    Much of this activity is created through international 
institutions--the Maritime Security Center for the Gulf of 
Aden, which is located in the United Kingdom, as well as the 
United States Navy presence in Bahrain and the UK maritime 
office in Dubai.
    Obviously, one potential set of security measures that has 
received significant attention, including here today, has been 
the presence of armed security onboard ships, whether provided 
by a government or a ship owner, or the arming of crews. 
Obviously, with the arming of crews, I think some of the 
obvious issues have been raised. Among those including many 
foreign ports don't allow vessels with armed crews to enter 
into their territorial waters, and so that could be a real 
hampering effect.
    With private security forces, some ship owners have chosen 
voluntarily to embark armed security. And we saw an example of 
that with an Italian ship about 10 days ago. But that obviously 
raises issues. There are liability issues for the ship owners. 
There are liability issues for the masters, training issues.
    And so, I think it is the job of the government here to try 
to provide guidance as best as possible to ship owners at a 
minimum about what the best practices are for deploying persons 
like this. I will leave questions of our diplomatic and 
military responses to the folks who know more about that.
    Thank you, sir.
    [The prepared statement of Mr. Kienitz follows:]

  Prepared Statement of Hon. Roy Kienitz, Under Secretary of Policy, 
                   U.S. Department of Transportation

    Chairman Lautenberg, Ranking Member Thune, and Members of the 
Subcommittee:
    I am pleased to have the opportunity to appear before you today to 
discuss the serious threat stemming from the ongoing piracy problem on 
the high seas.
    Throughout 2008 and continuing into 2009, the global piracy 
situation has grown substantially worse--particularly in an ever-
expanding area off the coast of Somalia, where more than 20,000 vessels 
transit the region each year. The impact of piracy has been very 
significant but the American public has only recently been made more 
aware of the situation with the attacks on two American flag vessels, 
the MAERSK ALABAMA and the LIBERTY SUN (both of which were carrying 
food aid for Somalia).
    Acts of piracy threaten freedom of navigation and the flow of 
commerce. Pirates frequently demand millions of dollars in ransom for 
the release of hostages, ships and cargoes. Press reports indicate that 
in 2008, pirates received an estimated $30 million dollars in ransoms 
for the release of pirated vessels. In 2008, 42 vessels were seized by 
pirates operating off the coast of Somalia. Globally, 889 mariners were 
held hostage by pirates (815 in Somalia) as part of ransom demands. The 
International Maritime Bureau (IMB) reports that in 2008, globally, 11 
mariners were murdered by pirates and another 21 are missing and 
presumed dead. The IMB also reported that during the same period, off 
the Horn of Africa, four mariners were killed and 14 are missing and 
presumed dead.
    The vessels most vulnerable to piracy attacks are those traveling 
slowly (with limited speed capabilities) and with low freeboard--that 
is to say, there is not much height between the water and the deck 
level. At any given time during the past 9 months, more than a dozen 
vessels and their crews have been held hostage off the Somali coast. 
Currently, 18 commercial ships are being held for ransom by pirates in 
Somalia, along with more than 300 crewmembers. One reason for the 
success of piracy and ransom taking is that the government in Somalia 
is ineffective and this has enabled pirates to operate with virtual 
impunity.
    The Gulf of Aden, which links the Mediterranean Sea and the Suez 
Canal with the Indian Ocean, is one of the busiest shipping choke 
points in the world. On average, 50 commercial vessels transit the Gulf 
daily. Many of these vessels are potential targets. More than 3.3 
million barrels of oil pass through the Gulf of Aden every day, 
representing 4 percent of the world's total daily production and 12 
percent of all the oil transported by water daily around the world by 
sea. In addition, numerous other cargoes and container freight pass 
through the Gulf daily.
    Approximately 80 percent of the vessels transiting the Gulf of Aden 
carry cargo destined to and from Europe, East Africa, South Asia, and 
the Far East. However, a significant portion of cargoes is also 
destined to or from the United States. In addition, U.S. citizens serve 
as crew or are passengers on vessels transiting the area.
    On average, at least one U.S. commercial vessel transits the area 
each day. Many of these U.S.-flag vessels carry Department of Defense 
cargo bound for Operations Iraqi and Enduring Freedom. U.S.-flag 
vessels transiting the region also carry humanitarian cargoes generated 
by the U.S. Agency for International Development (USAID) or 
international organizations to the Horn of Africa, including Djibouti 
and, Somalia and to other countries in East Africa or South Asia.
    As mentioned, piracy off the Horn of Africa significantly increased 
through 2008 and into 2009, with more than 150 attacks and 55 
successful piracies. The cost and disruption to the flow of commerce 
overall are significant. Press reports indicate that, in addition to 
merchant mariners killed or presumed dead, hundreds, including American 
mariners, have been traumatized by being attacked and held hostage, and 
even by the uncertainties generated by the growing instability of the 
region.
    Ship owners and operators are also adversely affected by rising 
daily operating costs, due to increased insurance premiums and 
operational delays caused by longer transit times or diversions to 
avoid the area. In many cases, there are additional costs related to 
transiting or circumventing the higher risk area. This is particularly 
true where vessels are diverted around the Cape of Good Hope in an 
effort to avoid the Gulf of Aden altogether, which increases labor 
costs, fuel consumption and the carbon footprint of marine 
transportation. Higher shipping costs also raise the costs of 
commodities for local populations.
    The United States has been a leader in promoting collaborative 
international action to combat the current piracy crisis. Historically, 
it has been our Nation's long-standing policy to support freedom of the 
seas. In July 2008, the United States took a leadership role in the 
United Nations fight against piracy. This resulted in United Nations 
(UN) Security Council Resolution 1816, which authorized countries 
cooperating with the Transitional Federal Government (TFG) of Somalia, 
for which advance notification has been provided to the Secretary-
General, to enter Somali territorial waters to repress piracy. This was 
followed by additional Security Council Resolutions 1838 and 1846 in 
the fall of 2008. In December 2008, the United States drafted U.N. 
Security Council Resolution 1851, which authorizes countries 
cooperating with the TFG of Somalia to enter Somali territory to 
repress piracy. The Security Council subsequently, adopted this 
resolution.
    U.N. Security Council Resolution 1851, also encouraged the 
establishment of an international cooperation mechanism--known now as 
the Contact Group on Piracy off the Coast of Somalia (CGPCS). The CGPCS 
has 28 nations as members, 6 international organization observers, with 
7 additional countries pending requests to participate.\1\ The 
Department of State leads the United States participation in the CGPCS. 
The CGPCS acts as a common point of contact between and among states, 
regional and international organizations on all aspects of combating 
piracy and armed robbery at sea off Somalia's coast, and specifically 
includes outreach to the commercial maritime industry. The CGPCS held 
plenary meetings in January at the United Nations in New York City and 
in Cairo in mid-March. The CGPCS will meet again on May 29 in New York 
City.
---------------------------------------------------------------------------
    \1\ The Contact Group for Piracy off the coast of Somali was 
created in New York City on January 14, 2009 and currently numbers 28 
nations (Australia, Belgium, China, Denmark, Djibouti, Egypt, France, 
Germany, Greece, India, Italy, Japan, Kenya, republic of Korea, The 
Netherlands, Norway, Oman Portugal, Russia, Saudi Arabia, Somalia TFG, 
Sweden, Spain, Turkey, United Arab Emirates, United Kingdom, United 
States, Yemen) and 6 international organizations (African Union, Arab 
League, European Union, North Atlantic Treaty Organization, United 
Nations Secretariat, International Maritime Organization) with 7 
additional countries (Canada, Cyprus, Liberia, Nigeria, Malaysia, 
Panama, Singapore) pending requests to participate.
---------------------------------------------------------------------------
    The CGPCS established four working groups that are providing 
recommendations to the CGPCS. Working Group #1 is addressing activities 
related to military and operational coordination and is chaired by the 
United Kingdom. Working Group #2 is addressing judicial aspects of 
piracy and is chaired by Denmark. The United States has the lead for 
Working Group #3, which focuses on shipping self-awareness and 
interaction with industry. The Department of Transportation's Maritime 
Administration (MARAD) and the Department of Homeland Security's U.S. 
Coast Guard have been co-leading efforts with this Working Group. 
Working Group #4 is tasked to offer recommendations to improve 
diplomatic and public information efforts and is chaired by Egypt. The 
U.S. will propose on May 29, the creation of Working Group #5 to 
explore the feasibility of tracking and freezing the assets of pirates 
and those who support them.
    The U.N. Security Council resolutions called for greater 
cooperation between governments and industry to reduce the incidence of 
piracy. In January 2009, former Secretary of State Rice stated that, 
``Once a hostage situation develops, the stakes in military operations 
increase. Consequently, an important part of counter-piracy efforts 
must be measured in enhancing self-defense capabilities of commercial 
vessels, increasing the odds of success against pirates until warships 
arrive.'' This sentiment certainly still holds true today and we saw 
evidence of this in the highjacking of the MAERSK ALABAMA.
    Because of its specialized knowledge, such as operation of our 
mobility sealift vessels, and established relationships with U.S. and 
international shipping, maritime unions, the marine insurance community 
and global maritime industry associations, MARAD has considerable 
experience in dealing with the diverse interests of the global maritime 
industry and is actively involved in the fight against piracy. MARAD 
operates a fleet of Ready Reserve Force (RRF) vessels which have 
transited the Gulf of Aden region in support of Operations Iraqi and 
Enduring Freedom (OIF/OEF). As OIF winds down, RRF vessels may be 
called upon to play a significant role again in support of the 
demobilization of forces, with a consequence of exposing the vessels 
and crews to threats from pirate attacks.
    Further, many vessels supported by MARAD's Maritime Security 
Program (MSP), participate in the Agency's Voluntary Intermodal Sealift 
Agreement (VISA) and transit the Gulf of Aden on a routine basis. The 
MAERSK ALABAMA is one of the 60 vessels enrolled in the MSP. MARAD also 
has oversight over government cargoes transiting the region--
particularly food aid and military cargoes that are carried mainly 
aboard U.S.-flag commercial vessels transiting the Gulf. Finally, as an 
interface between U.S. maritime labor and the Federal Government, MARAD 
also has great interest in protecting the welfare of U.S. mariners who 
sail aboard vessels in the region.
    MARAD provides operational advice to U.S.-flag owners and 
operators, including counter-piracy measures and awareness, on a 
regular basis through MARAD Advisories, through a comprehensive and 
frequently updated website, and through MARAD's electronic ``MARVIEW'' 
system which is available to registered users. We also play a key role 
in the training of merchant mariners through the development of 
International Maritime Organization (IMO) maritime security courses and 
workforce development. Working with the Coast Guard and IMO, Vessel 
Security Officer, Company Security Officer, and Facility Security 
Officer, courses were developed by the United States Merchant Marine 
Academy (USMMA). MARAD continues to certify maritime security training 
providers who meet the criteria established by the Coast Guard. To 
date, more than 50 training providers have been certified across the 
country. Efforts are also being made to include anti-piracy and 
security training in the academic programs at USMMA and the state 
maritime schools.
    In late December 2008, the Department of State asked MARAD to 
assist with the CGPCS Industry Outreach Working Group. To this end, 
MARAD has met on numerous occasions with industry to help shape best 
management practices to counter piracy and to share industry concerns 
with U.S. Government agencies. In late December, the National Security 
Council published an action plan entitled, ``Countering Piracy off the 
Horn of Africa: Partnership & Action Plan'' (CPAP). MARAD was actively 
involved in developing this plan, and posted the CPAP on its website 
for the benefit of industry.
    MARAD strongly supported the Military Sealift Command's proposal to 
create and implement ``Anti-Piracy Assessment Teams'' for commercial 
vessels. These teams consist of personnel from the Naval Criminal 
Investigative Service, and MARAD. On a voluntary basis, these teams 
board U.S.-flag vessels and offer recommendations on how to improve a 
vessel's physical defenses against piracy, and review security tactics, 
techniques and procedures. To date, a number of successful Anti-Piracy 
Assessment Team vessel assessments and recommendations have been 
completed. We expect this process to be embraced by the international 
community for similar implementation.
    MARAD's continuing outreach to the maritime industry on the piracy 
issue has taken many forms. In addition to leading informal meetings 
and participating in international forums, MARAD has hosted several 
collaborative meetings with both the American and international 
maritime industry community and appropriate Federal agencies. For 
example, in October and November 2008, MARAD and the Department of 
State sponsored meetings with representatives from the maritime 
industry to specifically discuss piracy in the Gulf of Aden. 
Participants included company security officers from major U.S. flag 
carriers, including American President Lines (APL), Horizon Lines, 
Maersk, Intermarine, Interamerican Ocean Shipping, American Roll On/
Roll Off, Crowley, American Overseas Marine, and Ocean Shipholdings. 
Flag states with U.S.-owned vessels or with vessels serving strategic 
U.S. interests also participated, including representatives from 
Denmark, Marshall Islands, Liberia and Panama. The U.S. Navy's Maritime 
Liaison Office Bahrain and the United Kingdom's Maritime Transport 
Office were also included. Topics specifically addressed at these 
meetings were maneuvering and speed, illumination, communication, 
duress terminology, armed force protection, and self- defense devices 
which may be used to deter piracy.
    At the request of the maritime industry, MARAD facilitated 
extensive discussions on piracy with the Department of State, 
Department of Defense, Federal Bureau of Investigation (FBI), and the 
Department of Homeland Security's Transportation Security 
Administration (TSA) and Coast Guard. In November 2008, MARAD 
participated in a public hearing hosted by the Coast Guard, focused on 
piracy initiatives being considered by the International Maritime 
Organization's Maritime Safety Committee (MSC). In December 2008, MARAD 
staff played an instrumental role in several other international 
planning events related to piracy. MARAD participated in the NATO 
Senior Civil Emergency Planning Committee (SCEPC) meeting held in 
Brussels, Belgium, which included piracy as an agenda item. MARAD 
chairs the NATO Planning Board on Ocean Shipping, which reports to the 
SCEPC.
    On December 2, 2008, MARAD hosted a Piracy Round Table meeting to 
discuss industry ``self-help'' and best practices to counter piracy. 
This meeting brought U.S. Government agencies together with the 
maritime industry to develop a mutual understanding of the problem and 
to develop best practices recommendations. Members of the industry 
included shipping associations, registries, carriers, marine insurance 
companies and representatives from the European Union. U.S. Government 
representatives included personnel from the Coast Guard, Department of 
State, Department of Defense, Office of Naval Intelligence, USAID, the 
National Security Council, and the Homeland Security Council. MARAD 
established an Anti-Piracy portal on the Agency's website, which is 
continuously updated. MARAD Advisories are posted on this site as are 
any recent developments and key contact information.
    MARAD hosted an international maritime industry Piracy Summit on 
December 11, 2008, with representatives from more than 50 industry 
associations, insurers, shipping companies, and labor to encourage them 
to further develop best management practices to combat piracy and to 
implement these strategies. Representatives from government included 
the Department of State, the Coast Guard, U.S. Transportation Command, 
Office of Naval Intelligence and Military Sealift Command.
    In late December, MARAD joined the Department of State for 
discussions in London between representatives of European Union navies 
and maritime trade associations. The purpose of these discussions was 
to further develop and implement best management practices and to 
improve communication between maritime companies and military forces in 
the Gulf of Aden region. MARAD continues to meet with industry to 
finalize best management practices and share industry concerns with 
government agencies.
    In early 2009, MARAD intensified its efforts in the fight against 
piracy to further improve coordination between industry and the various 
navies participating in the Gulf of Aden, to provide voluntary 
assessments of security on U.S. vessels, and to further establish best 
management practices to prevent piracy and to bring industry's 
perspectives and ideas to the interagency. Additional industry 
meetings, U.N. meetings, meetings hosted by the Baltic International 
Maritime Council (BIMCO) and a counter-piracy meeting held in Dubai and 
hosted by the Maritime Liaison Office in Bahrain, have all pursued 
these objectives. Since maritime labor is uniquely vulnerable to pirate 
attacks, with mariners having been killed or held hostage as part of 
ransom demands, MARAD has included maritime labor in many of the 
discussions and meetings.
    The Maritime Administration led the U.S. delegation of Working 
Group #3 at the meeting of the Contact Group on Piracy off the Coast of 
Somalia in March of 2009 and presented the international industry 
developed (and MARAD facilitated) ``Best Management Practices'' (BMPs) 
to counter piracy. MARAD also supported the dissemination of counter 
piracy guidance and supported better coordination between military and 
civilian operators in the region.
    MARAD has further developed its electronic information system 
``MARVIEW'' and contributed to the Maritime Safety and Security 
Information System (MSSIS) for the purposes of providing more efficient 
piracy related data. MARAD is providing U.S. flag projected schedules 
in the waters off Somalia to the National Maritime Intelligence Center 
(NMIC) and vessel tracking information on U.S. flag carriers to 
appropriate military authorities.
    Given limited military resources available to fully protect 
commercial shipping in the waters off Somalia, there is an increasing 
focus on the issue of shipping companies hiring private armed security 
personnel to protect their vessels while transiting the waters off 
Somalia. There are many complicated factors which must be addressed 
before the industry, as a whole, can adopt this recommendation. These 
include the need to develop appropriate standards for armed security 
providers, compliance with port state restrictions on arms aboard 
merchant vessel entering many ports in the world, and consideration of 
potential escalation of violence due to the presence of arms onboard 
commercial vessels, issues of safety for the crew and vessel, rules on 
the use of force, design constraints of vessels to carry additional 
personnel, union contract issues, insurance and liability issues and 
many other related factors. We recognize that in appropriate 
circumstances, on certain vessels determined to be at high risk, 
properly screened and certified third-party security providers with 
firearms, operating in compliance with applicable coastal, port and 
flag state laws can be an effective deterrent to pirate attacks.
    The Government is examining the options of recommending, or 
possibly directing U.S.-flagged vessels to use armed security teams 
while transiting near Somalia. Some U.S.-flagged owners and operators 
have used armed security teams while transiting near Somalia and have 
found it to be an effective anti-piracy tool.
    Most recently, MARAD has engaged the marine insurance industry to 
determine the effects of the piracy situation on insurance rates and to 
determine the effects on insurance if vessels carry armed security 
personnel aboard. MARAD will continue to work with industry to 
determine whether and to what extent armed security might be used 
aboard commercial vessels in certain circumstances.
    It is clear that combating international piracy is no small effort, 
evidenced by its long history. Much work has already taken place, but 
much remains to be done, before international piracy can be eliminated. 
Due to its unique and positive relationship with U.S.-flag and 
international vessel owners, MARAD has maintained a vital role in the 
development of U.S. anti-piracy policy. Additionally, through its 
training role, MARAD provides a valuable service to the commercial 
fleet.
    Mr. Chairman, the Department of Transportation stands ready to 
assist in any way possible to address piracy and any other issue that 
threatens the national and economic security of the United States and 
our allies.
    Thanks you again for holding this hearing today. I will be happy to 
answer any questions you might have.

    Senator Lautenberg. Thank you. Thank you very much.
    Admiral Salerno, we anxiously await your testimony because 
the challenges have been raised on all sides here.

          STATEMENT OF REAR ADMIRAL BRIAN M. SALERNO, 
     ASSISTANT COMMANDANT FOR MARINE SAFETY, SECURITY, AND 
            STEWARDSHIP, UNITED STATES COAST GUARD, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Admiral Salerno. Thank you, sir.
    Good afternoon, Mr. Chairman, distinguished Members of the 
Committee. I appreciate the opportunity to appear before you to 
discuss maritime piracy and the Coast Guard's role in 
addressing this threat to freedom of the seas and to the safety 
of shipping and, most importantly, to the mariners themselves.
    In response to the threat of piracy off the Horn of Africa, 
the U.S. Coast Guard has been working very closely with our 
Government and industry partners, with the International 
Maritime Organization, and through the international Contact 
Group on Piracy off the Coast of Somalia to strengthen 
protective measures for merchant ships and to develop 
international regimes for the prosecution of apprehended 
pirates.
    We have also been involved operationally by providing 
forces to U.S. Central Command, which have, in turn, been 
assigned to unseen counterpiracy efforts.
    Although many nations have provided naval forces to the 
region to counter the threat of piracy, it remains equally 
important for merchant vessels to take appropriate measures to 
reduce their vulnerability to attacks. To best identify 
realistic measures, particularly in light of evolving pirate 
tactics, the Coast Guard has been working closely with the 
domestic and the international maritime industry, leveraging 
longstanding relationships forged in our transportation, 
safety, and security roles.
    As new security guidance is developed, the Coast Guard 
updates its requirements for U.S.-flag vessels to modify their 
vessel security plans, plans which are required by the Maritime 
Transportation Security Act. The mechanism by which we convey 
specific anti-piracy planning requirements is the Maritime 
Security Directive.
    The most recent directive pertaining to anti-piracy 
measures was issued approximately one year ago. We are 
presently updating that directive with new information and 
anticipate releasing it in the very near future.
    It is important to note that the MAERSK ALABAMA and the 
LIBERTY SUN each had self-protective procedures and plans in 
place. Their crews were prepared, and they took the appropriate 
actions. It exemplifies the type of pre-planning that we want 
all U.S. ships to undertake.
    Internationally, the International Maritime Organization 
has been very active on this issue. As head of the U.S. 
delegation to IMO, the Coast Guard has been deeply involved 
with other flag states and industry NGO's to revise anti-piracy 
guidance applicable to the international merchant fleet.
    The Coast Guard has also actively participated in IMO-
sponsored regional initiatives to improve international 
governance, including the development of the Djibouti code for 
regional cooperation. We have assisted the State Department in 
the development of bilateral agreement with Kenya for the 
prosecution of apprehended pirates, and we have been heavily 
engaged in the Contact Group on Piracy off the Coast of 
Somalia.
    In this latter effort, we co-led with the U.S. Maritime 
Administration a working group focused specifically on the 
industry's self-protection measures. Many of the details were 
just relayed by Under Secretary Kienitz.
    When piracy events do occur, swift communication among 
involved U.S. Government agencies is extremely important. The 
mechanism for doing this is the Maritime Operational Threat 
Response protocol, or MOTR. MOTR has been used in over 600 
cases since it was first established in 2005. However, the 
recent MAERSK ALABAMA and LIBERTY SUN cases were the first ones 
related to piracy.
    Post-incident debriefs with the interagency indicate the 
process worked extremely well. It ensured complete coordination 
among multiple agencies having direct responsibilities for 
different aspects of the Government's response.
    As mentioned earlier, the Coast Guard has forces in the 
region under the operational control of Central Command. Coast 
Guard law enforcement detachments have been specifically 
assigned to Combined Task Force 151, where they augment U.S. 
Navy vessel-boarding teams. These teams have been directly 
involved in the apprehension of pirates in several recent 
cases.
    Our experience in law enforcement boardings--in particular, 
collecting evidence, providing witness statements, and handling 
suspects--has been an asset to CENTCOM. Coast Guard Activities 
Europe, a parent command located in Rotterdam, is responsible 
for the safety and security compliance of U.S.-flag vessels 
operating in Europe, the Middle East, and Africa.
    Marine inspectors and investigators from this unit 
routinely interact with vessels operating in the region. This 
extends to performing immediate post incident interviews with 
the crews.
    In closing, I would like to assure you that the Coast Guard 
is committed to fulfilling its statutory responsibilities for 
the safety of U.S. merchant vessels and crews.
    Thank you for the opportunity to be here. I look forward to 
your questions.
    [The prepared statement of Admiral Salerno follows:]

    Prepared Statement of Rear Admiral Brian M. Salerno, Assistant 
Commandant for Marine Safety, Security, and Stewardship, United States 
           Coast Guard, U.S. Department of Homeland Security

    Good afternoon, Mr. Chairman and distinguished Members of the 
Committee. It is a pleasure to appear before you today to discuss 
piracy on the high seas.
    Counter-piracy operations are primarily a maritime law enforcement 
activity that the Coast Guard is trained and equipped to support. We 
are the competent authority for the U.S. Government on more than 30 
bilateral agreements with foreign partners. These agreements underpin a 
wide range of Coast Guard operations including counter-drug, migrant 
interdiction, fisheries enforcement, and Proliferation Security 
Initiative missions. The Coast Guard understands the domestic and 
international legal frameworks and the associated boarding and 
enforcement requirements necessary to ensure the successful negotiation 
and implementation of agreements to facilitate counter-piracy 
operations on the water and the delivery of legal consequences to the 
pirates ashore. The Coast Guard's international training teams and 
deployable law enforcement detachments offer tailored maritime law 
enforcement training that can be easily integrated in regional capacity 
building initiatives, and which is tied directly to at- sea operations. 
Domestically the Coast Guard works with and regulates the U.S. merchant 
fleet to reduce its vulnerability to acts of piracy.
    Maritime piracy is a universal crime under international law 
because it places the lives of seafarers in jeopardy and affects the 
shared economic interests of all nations. In addition to placing the 
lives and safety of seafarers in jeopardy, a single piratical attack 
affects the interests of numerous countries, including the flag State 
of the vessel, various States of nationality of the seafarers taken 
hostage, regional coastal States, owners' States, and cargo shipment 
and transshipment States. In the case of Somalia-based piracy, 
increasingly brazen attacks in 2.5 million square miles of ocean from 
land-based enclaves along an under-governed and economically devastated 
2,300-mile coast pose a threat to global shipping. Eliminating piracy 
and other transnational threats requires stronger law enforcement 
capacity and rule of law in Somalia.
    Beyond disrupting shipping activities, these threats come at a 
great economic and human cost. In 2008 there were 293 incidents of 
piracy against ships worldwide--an increase of 11 percent from the 
previous year. As of mid-April, 16 ships and almost 200 mariners were 
being held captive by pirates in the Horn of Africa region where 
piratical attacks have tripled in recent years. As piratical activities 
increase, so do insurance costs for vessels transiting in high risk 
areas. The alternatives, however, are not inexpensive either. According 
to Lloyd's List, ships that elect to transit around the Cape of Good 
Hope to avoid piracy in the Horn of Africa will incur an additional 
$250,000 in fuel costs per trip and an additional seven to 10 days of 
transit time. While these expenses are high, they may become 
sufficiently attractive to shipping companies to justify as the cost of 
doing business.
    Small vessels are the vehicle of choice for pirates to conduct 
their attacks. These vessels are fast, readily available, relatively 
inexpensive, and blend in well with other small vessels commonly 
operating in the area. The Coast Guard recognizes the vulnerabilities 
these vessels present and therefore requires vessel operators to 
address tactical methods for avoiding small vessel attack in their 
Vessel Security Plan.
    In addition to developing tactical plans to deter and respond to 
piracy, the Coast Guard uses its statutory authorities to address the 
piracy threat. This involves a two pronged approach that relies on both 
domestic and international law. Domestically, the Maritime 
Transportation Security Act of 2002 provides the legal authority for 
the Coast Guard to regulate safety and security of cargo, ships, and 
most importantly seafarers. Under this authority, the Coast Guard 
developed regulations that require U.S. ship owners and operators to 
assess and plan for a wide range of security threats, including threats 
of piracy. This plan, known as a Vessel Security Plan, is received and 
approved by the Coast Guard.
    When the Coast Guard determines that additional security measures 
are necessary to deal with a specific threat, it can issue a Maritime 
Security, or MARSEC, Directive. MARSEC Directives can be global or 
regional in scope. In April 2008, the Coast Guard issued MARSEC 
Directive 104-6 Rev. 1. This Directive provides direction to Company 
Security Officers of U.S. vessels that engage in international voyages 
to, or through, areas at risk for terrorism, piracy and armed robbery 
against ships. The Coast Guard, in consultation with industry, is 
currently increasing this designated high risk area to extend further 
offshore.
    Title 18, Section 1651 of the U.S. Code also makes piracy a crime. 
Consistent with international law, any vessel engaged in piracy may be 
subject to the jurisdiction of the United States regardless of whether 
the vessel is foreign flagged. The United States Department of Justice 
(DOJ) is currently using this statute to prosecute a Somali pirate for 
his alleged participation in the recent attack upon the MAERSK ALABAMA. 
Operating at all times as a military service and maritime law 
enforcement agency, the Coast Guard has authority to conduct counter-
piracy operations against any vessel engaged in piratical acts, 
including conducting boardings, searches, seizures and arrests.
    In addition to being the subject of domestic legal regimes, piracy 
is a crime of universal jurisdiction under conventional and customary 
international law. Accordingly, every nation has the legal authority to 
establish jurisdiction and punish the offenders, regardless of 
nationality of the perpetrator or the victims, or of the vessels 
involved.\1\ This has been a basic tenet of customary international law 
for centuries, and is also enshrined in treaties such as the 1958 
Geneva Convention on the High Seas and the 1982 United Nations 
Convention on Law of the Sea. United Nations Security Council 
Resolutions 1846 and 1851, issued in December 2008, have provided 
Chapter VII authorities to certain states and international 
organizations, for which advance notification has been provided by the 
Somalia Transitional Federal Government to the U.N. Secretary-General, 
to enter Somali waters and territory to repress piracy.
---------------------------------------------------------------------------
    \1\  See 1982 United Nations Convention on the Law of the Sea, 
arts. 100-107
---------------------------------------------------------------------------
    Yet many nations do not have sufficient legal structures in place 
to adjudicate piratical acts and punish offenders. The Coast Guard has 
been actively engaged in supporting the development of legal frameworks 
to facilitate the prosecution of suspected pirates. This work included 
facilitating development of the U.S./Kenya Memorandum of Understanding 
(MOU), the Djibouti Code [for regional cooperation], the Contact Group 
on Piracy off the Coast of Somalia, and a number of International 
Maritime Organization initiatives.
    Of course, legal authority alone does not ensure success. Victim 
states must have the political will to prosecute. Furthermore, 
combating the threat of piracy requires well-coordinated interagency 
and international use of the lawful authority in operations that 
account for the unique problems presented by the logistics and 
geography of the region, as well as the vast expanse of ocean on which 
pirate attacks have taken place. The coordinated application of legal 
authorities must also address the complex challenges of evidence 
collection and potential prosecutions under differing legal regimes. 
and the dangers to innocent seafarers and hostages inherent in any 
response actions intended to wrest control of a victim ship from 
pirates.
    The International Maritime Organization (IMO) continues to lead 
international efforts to combat the Somali-piracy threat. By delegation 
from the State Department, the Coast Guard provides the Head of the 
United States (U.S.) Delegation for IMO meetings and activities. The 
IMO has passed resolutions establishing a framework for international 
cooperation, updated counter-piracy guidance to industry, and, perhaps 
most importantly, promoted judicial consequence delivery mechanisms so 
that pirates, once caught, face meaningful and just punishment under 
the rule of law. United Nations (U.N.) Security Council Resolution 1851 
specifically encourages nations to employ the operative provisions of 
the Suppression of Unlawful Acts against the Safety of Maritime 
Navigation (SUA) Convention, to which the United States is a Party. All 
of the States within a 1,000 nautical mile radius of the Gulf of Aden 
are signatories to the Suppression of Unlawful Acts (SUA) Convention, 
with the notable exceptions of Somalia, Eritrea, and Ethiopia.
    In December 2008, the National Security Council released the 
National Strategy for Countering Piracy off the Horn of Africa: 
Partnership and Action Plan. The Plan lays out operational objectives 
for responding to the threat of piracy in three lines of action: (1) 
prevent pirate attacks by reducing the vulnerability of the maritime 
domain to piracy; (2) interrupt and terminate acts of piracy consistent 
with international law and the rights and responsibilities of coastal 
and flag States; and (3) ensure that those who commits acts of piracy 
are held accountable for their actions by facilitating prosecution of 
the suspected pirates in a just forum. Accomplishing the objectives of 
this Plan requires a coordinated government approach that integrates 
military, law enforcement, judicial, diplomatic, and commercial 
interests in and beyond the affected region.
    Several elements are critical to the success of an effective and 
lawful consequence delivery plan: (1) ensuring that victim states 
exercise jurisdiction under the 1988 Convention for the Suppression of 
Unlawful Acts against the Safety of Maritime Navigation (SUA 
Convention); (2) supporting and encouraging the use of other applicable 
international instruments and customary international law; (3) securing 
agreements and arrangements with regional partners to formalize custody 
and prosecution arrangements for cases in which victim states cannot 
establish jurisdiction; and (4) enhancing capabilities of regional 
states to accept suspected pirates for prosecution, extradition, and 
incarceration in these limited cases. The Coast Guard is actively 
engaged with the White House and other agencies in ongoing efforts to 
support each of these elements.
    The Coast Guard was instrumental in facilitating broad 
international support for using the SUA Convention as a mechanism for 
effective consequence delivery. Under international law, an act of 
piracy is defined as a criminal act of violence, detention, or 
depredation committed for private ends by the crew or the passengers of 
a private ship in or over international waters against another ship or 
persons and property on board. The SUA Convention applies more broadly 
to acts of violence against ships regardless of the motive of the 
actor, but covers acts of piracy. It is designed to ensure appropriate 
action is taken against persons committing unlawful acts against ships, 
including, the seizure of ships by force; acts of violence against 
persons onboard ships; and the placing of devices on board a ship which 
are likely to destroy or damage it. Most importantly, though, the SUA 
Convention establishes a framework whereby masters of ships may deliver 
suspected offenders to a coastal State that is party to the SUA 
Convention. The coastal State is then obliged under the SUA Convention, 
with few exceptions, to accept custody and either extradite the 
suspected offender or submit the case to their competent authorities 
for the purpose of prosecution.
    In support of the United States' objectives, the Coast Guard is 
contributing to ongoing efforts to secure arrangements with regional 
partners to facilitate the expeditious investigation, prosecution and, 
as appropriate, punishment of apprehended pirates. On January 16, 2009, 
the United States, and the Government of Kenya completed a MOU 
concerning the conditions of transfer of suspected pirates, armed 
robbers, and seized property in the western Indian Ocean, the Gulf of 
Aden, and the Red Sea. The United Kingdom and European Union have 
concluded similar MOUs with the Government of Kenya.
    In March 2009, under the terms of this MOU, the Government of Kenya 
accepted custody of seven of the pirates after their alleged attack on 
the MN POLARIS, a Marshall Islands flagged vessel. The pirates were 
apprehended by a joint Coast Guard and Navy vessel boarding search and 
seizure team embarked on the USS VELLA GULF. Kenya agreed to prosecute 
all seven pirates under its national criminal laws. The United States 
hopes to conclude similar arrangements with other countries in the 
region to ensure that no single country bears the burden of 
prosecution.
    Additionally, in January 2009, the Coast Guard led the U.S. 
Delegation to observe final negotiations in Djibouti on regional 
cooperation to combat piracy.The meeting resulted in adoption of the 
Djibouti Code of Conduct, which provides a legal framework for the 
interdiction and prosecution of pirates. The Code also contains 
practical law enforcement measures, including a shiprider program to 
share scarce patrol resources and information sharing and operational 
coordination mechanisms. Nine of the twenty-one regional nations signed 
the agreement in Djibouti, allowing the Code to immediately enter into 
force. Each signatory intends to review its national legislation with a 
view toward ensuring there are laws in place to criminalize piracy, and 
adequate guidelines for the exercise of jurisdiction, conduct of 
investigations, and prosecution of alleged offenders.
    With regard to our current forces in the Gulf of Aden region, the 
Coast Guard is operating off the Horn of Africa through two 
organizational structures. Coast Guard forces (patrol boats and 
boarding teams) are operating in support of U.S. Central Command 
(CENTCOM) based on a Request For Forces. CENTCOM has operational 
control of these forces and has directed they conduct operations with 
Combined Task Force 151 (CTF 151). Second, Coast Guard Activities 
Europe is responsible for a number of marine safety and security 
functions across Europe, the Middle East, and Africa.
    CENTCOM established Combined Task Force 151 to conduct counter-
piracy operations in response to the growing threat in January 2009. 
CTF 151's mission is to ``Deter, disrupt, and suppress piracy in order 
to support U.N. Security Council resolutions, protect global maritime 
commerce, prevent future attacks, enhance maritime security, and secure 
freedom of navigation for the benefit of all nations.'' The Task Force 
considers this mission to be law enforcement related. Coast Guard Law 
Enforcement Detachments (LEDETS) currently operate in support of CTF 
151 since establishment. LEDETS augment Navy Visit Board Search and 
Seizure (VBSS) teams near the Horn of Africa and provide training in 
maritime laws, boarding policies and procedures, evidence collection 
and preparation, and tactical procedures. It is important to note that 
both the Coast Guard and Navy have independent authority to conduct 
counter-piracy operations against any vessel engaged in piratical acts, 
including conducting boardings, searches, and seizures.
    The integration of Coast Guard boarding team personnel with Navy 
VBSS teams takes advantage of the unique competencies, capabilities, 
and authorities of our two services in a manner that offers a 
comprehensive boarding capability that is ready to address a broad 
spectrum of threats in the maritime domain. Coast Guard/Navy 
cooperation in counter-piracy operations is an example of how our two 
services are working together to ensure interoperability and readiness 
to operate as an effective force to address the international issue of 
piracy.
    The second structure through which the Coast Guard is involved off 
Africa is through our office in Europe. Coast Guard Activities Europe 
is a 26 person unit located in Rotterdam, Netherlands. It is 
responsible for marine safety and security functions in Europe. the 
Middle East, and Africa. Marine Inspectors from this office conduct 
incident investigations and inspect U.S.-flag merchant ships. Marine 
inspectors are critical in the event a U.S.-flag and Coast Guard-
certificated vessel intends to implement hardening techniques that 
improve the vessels ability to mitigate pirate attacks. The Coast Guard 
must ensure that the security techniques do not impede safety of life 
at sea, interfere with the use or deployment of safety equipment, or 
otherwise impose a detriment to maritime safety. Additionally, 
Activities Europe provides International Port Security Liaison Officers 
who work with the U.S. Embassy, foreign government officials, and port 
representatives to share information and enhance port security.
    Following the MAERSK ALABAMA and LIBERTY SUN incidents, a team of 
U.S. Coast Guard personnel studied the incidents with interested 
parties, including the Federal Bureau of Investigation, Navy Criminal 
Investigative Service (NCIS), vessel owners and operators, shipping 
agencies, and others acting on behalf of owners and operators. Our team 
also visited the vessels in Mombasa, Kenya to verify the material 
condition, status of safety equipment, effectiveness of the vessel 
security plan, and to conduct an incident investigation.
    Counter-piracy forces must be informed and have as complete an 
operational picture as possible. As the piracy cases off Somalia have 
illustrated, there is a continuing need for maritime domain awareness--
the ability to detect, classify, and identify vessels at sea. We need 
greater awareness of maritime activities around the world, as well as 
along our coastlines, for both safety and security purposes. We also 
need better integration of systems and operations among maritime 
partners. Specifically, we need to continue to employ a layered 
approach to maritime domain awareness, using complementary systems to 
increase overall capability. We need to accelerate deployment of a net-
centric tactical system that implements Department enterprise standards 
for the sharing of situation data and services across multiple 
interagency domains and Coast Guard systems.
    The Coast Guard currently uses correlation technology that is 
continuously evaluating data received from multiple sources including, 
but certainly not limited to, position reports, radar tracks, Automatic 
Identification System (AIS) and Long Range Identification and Tracking 
(LRIT) positions, and other external and internally collected data 
feeds, to correlate and best detect, classify and identify vessels at 
sea. The correlation capability in the Coast Guard's Common Operational 
Picture provides a comprehensive display of tracks which is a vital 
piece of the Coast Guard's maritime domain awareness capability, a 
capability that is shared with the Navy and other homeland and national 
security partners.
    The Maritime Transportation Security Act (MTSA) authorizes the 
Secretary of Homeland Security to develop and implement a long-range 
automated vessel tracking system, so MTSA provides the Coast Guard with 
authority to implement the IMO's LRIT system. The United States has 
successfully completed testing on and is receiving position data from 
153 U.S.-flag ships with LRIT. Approximately 600 U.S. flag ships fall 
under the LRIT regulation and will be tracked by the end of Current 
Year (CY) 09. The quicker vessels are equipped with this secure means 
of position reporting, the quicker this capability will be available to 
enhance maritime domain awareness in areas like the Gulf of Aden and 
Horn of Africa.
    Maritime threats, including piracy and the use of small vessels to 
conduct attacks can be mitigated through greater maritime domain 
awareness. Coordination among U.S. Government agencies and with our 
international partners is exceptionally important in our anti-piracy 
efforts. The United States' Maritime Operational Threat Response (MOTR) 
process was established to address the full spectrum of 21st Century 
maritime security and defense threats to, or directed against, the 
United States and its interests globally. The MOTR Plan establishes an 
integrated network of national-level maritime command centers to 
achieve coordinated, unified, timely, and effective planning and 
mission accomplishment by the U.S. Government, and to ensure a 
coordinated response consistent with desired national outcomes. The 
Plan sets forth lead and supporting Federal agency roles and 
responsibilities for MOTR based on existing law; desired U.S. 
Government outcome; greatest potential magnitude of the threat; the 
response capabilities required; asset availability; and authority to 
act. The MOTR Plan also directs clear operational coordination 
requirements and sets forth protocols for interagency coordination, 
consultation, and assessment throughout MOTR execution.
    The national interagency successfully employed the MOTR Plan nearly 
in over 600 maritime cases since 2005. These cases include drug 
interdiction, migrant interdiction, fisheries violations, violence at 
sea, bomb threats, radiation/nuclear alarm resolution, piracy, and 
complex multi-disciplinary events.
    During the recent MAERSK ALABAMA piracy case, the Coast Guard 
participated in interagency coordination via the Maritime Operational 
Threat Response (MOTR) process and was the lead agency responsible for 
industry outreach. The post incident debriefs with MAERSK and our MOTR 
partners indicate that the MOTR process worked very well.
    To strengthen international coordination as called for by U.N. 
Security Council Resolution 1851 and to fulfill a key objective of the 
national counter-piracy Plan, the United States created an 
international Contact Group on Piracy off the Coast of Somalia to 
coordinate international counter-piracy efforts. The participants 
agreed to establish four working groups to address the following focus 
areas: (1) activities related to military and operational coordination 
and information sharing; (2) judicial aspects of piracy (chaired by 
Denmark); (3) measures to strengthen shipping self-awareness and other 
capabilities (chaired by the United States Coast Guard and the Maritime 
Administration); and (4) improvement of diplomatic and public 
information efforts on all aspects of piracy (chaired by Egypt).
    In addition to co-chairing a working group, the Coast Guard has 
participated in plenary sessions of the Contact Group, and all of the 
Working Groups. Through this mechanism, we have worked in concert with 
the shipping industry to develop preventative measures that reduce 
their vulnerability to attack. There are numerous examples of these 
measures succeeding in thwarting piratical attacks in the Gulf of Aden 
and Horn of Africa region. While we are still examining the attacks on 
the U.S. vessels, MAERSK ALABAMA and LIBERTY SUN, I can tell you that 
the preventative measures they took before the events in accordance 
with their vessel security plans and industry best practices 
contributed greatly to a successful resolution in both cases.
    The threats that piracy poses to the United States, our 
international partners, and the industry and seafarers who make their 
living on the last global commons are multi-faceted. The response to 
these threats requires a broad array of legal authorities, operational 
capabilities, skills and competencies, and the support and expertise of 
numerous U.S. Government, international, and commercial entities. The 
Coast Guard has a unique role to play, and remains committed to working 
with our military, government, and industry partners to bring these 
criminals to justice and forge long-term solutions for regional 
maritime safety and security.
    Thank you for the opportunity to address you today and for your 
attention. I look forward to your questions.

    Senator Lautenberg. Thank you very much, Admiral Salerno.
    And now, Ms. Whelan, who is the Deputy Assistant Secretary 
of Defense for African Affairs. We look forward to your 
testimony.

  STATEMENT OF THERESA WHELAN, DEPUTY ASSISTANT SECRETARY OF 
                  DEFENSE FOR AFRICAN AFFAIRS

    Ms. Whelan. Thank you, Mr. Chairman and Members of the 
Committee.
    I appreciate this opportunity to testify about the growing 
problem of piracy on the high seas. Reducing incidents of 
piracy is important both to the United States and to the 
international community. As a general matter, freedom of the 
seas is critical to our national security and international 
commerce, and it is also a core principle of international law, 
one that all nations have a stake in supporting.
    Piracy endangers innocent mariners, disrupts commerce, and 
can cause severe economic damage to shipping companies and 
contribute to instability ashore. Recent pirate attacks in the 
Gulf of Aden and along Somalia's east coast have targeted U.S. 
and U.S.-supported ships transporting food aid and other 
humanitarian supplies to Somalia and other vulnerable 
societies, disrupting the flow of aid to those who need it 
most.
    Recent incidents, including the dramatic rescue of Captain 
Phillips by the U.S. Navy, have increased public and 
international attention to piracy, and resolve has grown for 
finding durable solutions to this problem.
    At the Department of Defense, we are working closely with 
other agencies and departments to develop comprehensive 
counterpiracy strategies, and the United States is not alone in 
this effort. Already more than 28 other nations are conducting 
counterpiracy operations off the coast of Somalia.
    From a Department of Defense perspective, our strategic 
goals with regard to Somalia piracy include deterrence, 
disruption, interdiction, and prosecution. Achieving these 
goals will be challenging for several reasons.
    First, the geographic area affected is vast. The pirates 
operate in a total sea space of more than 1 million square 
nautical miles, making it difficult for naval or law 
enforcement ships and other assets to reach the scene of a 
pirate attack quickly enough to make a difference. In that vast 
expanse of ocean, tracking a few dozen low-tech pirate skiffs 
and intervening to stop attacks that can last only a few 
minutes is exceptionally difficult.
    When they are not actively engaged in piracy, pirate 
vessels easily blend in with ordinary shipping. When they 
return to land, pirates become still more difficult to locate.
    Second, there is no effective and reliable central 
governing authority or capacity in Somalia. Consequently, 
pirates can operate with impunity from coastal fishing villages 
as long as they have support of the local Somali clan 
leadership.
    Third, even when pirates are captured, serious gaps remain 
in the international community's ability to prosecute them for 
their crimes and thus create an effective legal deterrent. 
Although all states may exercise jurisdiction over pirates as a 
matter of international law, some states still lack the 
appropriate domestic laws to prosecute pirates in their own 
courts when the act of piracy occurred on the high seas. Other 
states have appropriate domestic legal frameworks but lack the 
prosecutorial and judicial capacity to effectively hold pirates 
accountable.
    These varied and complex challenges should make it clear 
that there will be no simple solution to the growing problem of 
piracy off the Somali coast. That said, a few statistics help 
keep the problem of piracy in perspective.
    Each year, more than 33,000 vessels transit the Gulf of 
Aden, and in 2008, there were 122 attempted pirate attacks, of 
which only 42 were successful. In other words, pirates attack 
less than 0.5 percent of the shipping in the Gulf of Aden, and 
their attacks have succeeded only about a third of the time.
    While it is important that we find effective ways to 
address the growing problem of piracy, with particular 
attention to preventing piracy from becoming a funding source 
for violent extremist groups, we need to ensure that 
effectively addressing piracy does not come at the expense of 
other ongoing critical defense commitments. We believe that 
this can be done.
    Already we are taking effective steps to address the 
challenges outlined above. Through the creation of the Combined 
Task Force 151, which focuses exclusively on counterpiracy, we 
are actively seeking engagement from other states, and we are 
pleased that so many states are beginning to play a role in 
counterpiracy efforts.
    Denmark, Singapore, South Korea, Turkey, and the United 
Kingdom have joined our efforts in CTF-151. Others have 
indicated they will do so as well. Canada, France, Germany, 
Greece, Italy, Japan, Malaysia, the Netherlands, the People's 
Republic of China, the Russian Federation, Saudi Arabia, Yemen, 
and others have all contributed forces, either individually or 
through NATO or the European Union.
    Most important in the short run, we are actively working 
with merchant shipping lines to help ensure that all vessels 
take appropriate measures to protect themselves from pirates. 
Here again, some statistics are instructive.
    When we look at patterns of pirate attacks in the region, 
we see that of the unsuccessful pirate attacks, a full 78 
percent were thwarted simply by effective action taken by the 
crews of the ships under attack. Only in 22 percent of 
unsuccessful attacks were military or law enforcement 
interventions related to the positive outcome.
    This highlights the fact that the single most-effective 
short-term response to piracy will be working with merchant 
shipping lines to ensure that vessels in the region take 
appropriate security measures themselves.
    In so vast an expanse of ocean and with so many other 
critical national security priorities, it is not possible for 
our military to prevent or intervene in each and every pirate 
attack. But with the appropriate onboard security measures in 
place, the vast majority of pirate attacks can be thwarted 
without any need for military intervention.
    We will continue to be prepared to respond as appropriate 
when U.S.-flag vessels and U.S. citizens are involved, but the 
context in which our actions will be most effective exist when 
private partners take proactive measures themselves.
    Most pirates are opportunistic criminals. When possible, 
they will focus on the easy target and avoid the difficult 
targets. Our main task is to assist commercial carriers in 
making their ships hard targets.
    Thank you for offering me this opportunity to testify, and 
I welcome your questions or comments.
    [The prepared statement of Ms. Whelan follows:]

  Prepared Statement of Theresa Whelan, Deputy Assistant Secretary of 
                      Defense for African Affairs

    Mr. Chairman and Members of the Committee, we appreciate this 
opportunity to testify about the growing problem of piracy on the high 
seas.
    Piracy is a growing problem, but not a new one. Since humans first 
began to travel and move valuables by ship, there have been pirates. 
Julius Caesar himself was seized by pirates in 75 B.C., and released 
after ransom was paid. Piracy on the high seas was also a major 
preoccupation of the early American republic; by 1800, the young United 
States was paying about 20 percent of total Federal revenues to the 
Barbary States, as ransom and tribute.
    International efforts to combat piracy also have an ancient 
pedigree. Since Roman times, pirates have been deemed hostes humani 
generis: the enemies of all humankind. As a matter of customary 
international law, piracy is the classic crime of ``universal 
jurisdiction,'' meaning that every state has the right to capture and 
prosecute piracy on the high seas, even if its own ships or nationals 
are not involved.
    In the modern era, piracy has become a relatively unusual crime, 
dropping to only 100 to 200 reported incidents annually during the 
1970s and 1980s. In the 1990s, however, piracy began to increase, and 
we are now seeing a dramatic and sudden upswing in reported pirate 
attacks worldwide, as well as geographic shifts in areas of high pirate 
activity. As recently as 2007, the Gulf of Guinea was the most active 
part of the world for piracy, but pirate activity is increasingly now 
found along the Somali coast. In the first quarter of 2009, 102 
incidents of piracy were reported to the International Maritime Bureau, 
nearly double the number of incidents reported during the same period 
in 2008. And nearly all of that increase appears to stem from increased 
pirate activity off the coast of Somalia.
    Reducing incidents of piracy is important both to the United States 
and to the international community. As a general matter, freedom of the 
seas is critical to our national security and international commerce, 
and it is also a core principle of international law, one that all 
nations have a stake in supporting. Piracy endangers innocent mariners, 
disrupts commerce, can cause severe economic damage to shipping 
companies and contribute to instability ashore. Recent pirate attacks 
in the Gulf of Aden and along Somalia's East Coast have targeted U.S. 
and U.S.-supported ships transporting food aid and other humanitarian 
supplies to Somalia and other vulnerable societies, disrupting the flow 
of aid to those who need it most.
    Recent incidents--including the dramatic rescue of the captain of 
the MAERSK ALABAMA by the U.S. Navy--have increased public and 
international attention to piracy, and resolve has grown for finding 
durable solutions to this problem. At the Department of Defense, we are 
working closely with other Agencies and Departments to develop 
comprehensive counter-piracy strategies. And the United States is not 
alone in this effort: already, more than 28 other nations are 
conducting counter-piracy operations off Somalia, as are international 
organizations such as NATO and the EU.
    We are seeing concrete results from our efforts: since August 2008, 
international efforts have led to the destruction or confiscation of 36 
pirate vessels and the confiscation of numerous weapons, including 
small arms and RPGs. The international community has also turned 146 
pirates over to law enforcement officials in various countries for 
prosecution.
    From a Department of Defense perspective, our strategic goals with 
regard to Somali piracy include deterrence, disruption/interdiction, 
and prosecution.
    Achieving these goals will be challenging for several reasons. 
First, the root causes of Somali piracy lie in the poverty and 
instability that continue to plague that troubled country, and 
addressing these root causes will be a lengthy, complicated and 
difficult process. At the moment, pirates can operate with impunity 
from coastal fishing villages as long as they have the support of the 
local Somali clan leadership. Though regional governments in Somaliland 
and Puntland have demonstrated some capacity to provide services, 
including law enforcement services, in most respects Somalia remains 
ungoverned, allowing pirates to use coastal villages as safe havens. 
Pirates also operate in a cash economy, making their profits difficult 
to track and interdict.
    Conflict, instability and drought have caused a humanitarian crisis 
of long duration in Somalia, where an estimated 3.2 million people now 
rely on international food assistance to survive. In an environment 
where legitimate economic opportunities are scarce, piracy and other 
forms of crime can flourish. In the long run, effectively combating 
piracy off the Somali coast will be linked to our ability to help the 
Somalis themselves increase government capacity and find appropriate 
ways to meet the population's basic needs.
    Second, the geographic area affected is vast: Somali pirates 
operate in a total sea space of more than a million square nautical 
miles, making it difficult for naval or law enforcement ships and other 
assets to reach the scene of a pirate attack quickly enough to make a 
difference. In that vast expanse of ocean, tracking a few dozen low-
tech pirate skiffs and intervening to stop attacks that can last only a 
few minutes is exceptionally difficult. When they are not actively 
engaged in piracy, pirate vessels easily blend in with ordinary 
shipping. When they return to land, pirates become still more difficult 
to locate.
    Third, even when pirates are captured, serious gaps remain in the 
international community's ability to prosecute them for their crimes 
and thus create an effective legal deterrent. Although all states may 
exercise jurisdiction over pirates as a matter of international law, 
some states still lack the appropriate domestic laws to prosecute 
pirates. Other states have appropriate domestic legal frameworks, but 
lack the prosecutorial and judicial capacity to effectively hold 
pirates accountable, or lack the political will required.
    We appreciate Kenya's role in prosecuting suspected pirates 
captured the region. But Kenya should not bear the burden for the 
international community. Other affected nations must step up and 
prosecute pirates in their domestic courts as well, just as the United 
States has when our citizens were the victims of an attack.
    Finally, although the merchant shipping industry has made 
significant improvements in on-ship security measures over the last few 
months, far more is needed. Ships from all over the world transit the 
Gulf of Aden and use the shipping lanes along the east coast of 
Somalia, but many assume unrealistically that there is no need for more 
robust shipboard security measures, because military forces will always 
be present to intervene if pirates attack. As a result, many in the 
industry have so far been unwilling to invest in the basic security 
measures that would render them less vulnerable to attack.
    These varied and complex challenges should make it clear that there 
will be no simple solution to the growing problem of piracy off the 
Somali coast. That said, a few statistics help keep the problem of 
Somali piracy in perspective. Each year, more than 33,000 vessels 
transit the Gulf of Aden, and in 2008, there were 122 attempted pirate 
attacks, of which only 42 were successful. In other words: pirates 
attack less than one half of one percent of shipping in the Gulf of 
Aden, and their attacks have succeeded only about a third of the time.
    That does not mean that we can ignore piracy in the region, of 
course. To safeguard the principles of maritime freedom and the lives 
of innocent mariners, the U.S. Government is taking action to address 
the problem of piracy--particularly at a moment when attacks have been 
increasing, both in numbers and in ambition.
    At the moment, Somali piracy appears to be motivated solely by 
money, not by ideology, and we do not see meaningful links between 
pirates and organized violent extremist groups, inside or outside 
Somalia. Nonetheless, we know that in other contexts, narcotics 
production and other forms of criminal activity are sometimes ``taxed'' 
by extremist groups, as in Afghanistan. We need to ensure that piracy 
does not evolve into a funding source for violent extremist 
organizations.
    The relatively low incidence of pirate attacks has implications for 
how we allocate military assets. As the members of this Committee know, 
the Department of Defense has urgent priorities around the globe. We 
face two ongoing wars in Iraq and Afghanistan, and we continue multi-
faceted overseas contingency operations against violent extremism. In 
the Horn of Africa, our existing and planned counterterrorism 
activities remain vital to that global struggle against extremism. Many 
of resources most in demand for counter-piracy activities, such as 
intelligence, surveillance and reconnaissance assets, are the same 
assets that are urgently required elsewhere.
    While it is important that we find effective ways to address the 
growing problem of piracy--with particular attention to preventing 
piracy from becoming a funding source for violent extremist groups--we 
need to ensure that effectively addressing piracy does not come at the 
expense of other ongoing, critical military commitments.
    We believe that this can be done. Already, we are taking effective 
steps to address the four challenges outlined above. Through the 
creation of Combined Task Force 151 (CTF 151), which focuses 
exclusively on counter-piracy, we are actively seeking engagement from 
other states, and we are pleased that so many states are beginning to 
play a role in joint counter-piracy efforts. Denmark, Singapore, South 
Korea, Turkey and the United Kingdom have joined our efforts; others 
have indicated that they will do so as well. In fact, Turkey has taken 
command over CTF 151 aboard USS GETTYSBURG. Canada, France, Germany, 
Greece, Italy, Japan, Malaysia, Netherlands, the People's Republic of 
China, the Russian Federation, Saudi Arabia, Yemen and others have all 
contributed forces--either individually, or through NATO or the 
European Union.
    Although not without challenges, coordination between allies and 
the merchant ships that transit the area has been impressive, with 
outstanding communications between industry and the EU's Maritime 
Security Center for the Horn of Africa, which is based in Northwood, 
United Kingdom. The EU's Maritime Security Center plays a key role in 
relaying critical information from merchant ships to operational 
forces. Moreover, the international array of forces and their ability 
to work together has been impressive, as demonstrated by the Combined 
Maritime Forces monthly Shared Awareness and Deconfliction (SHADE) 
meetings in Bahrain. These involve over 20 nations and ensure that our 
international responses will be as effective as possible.
    Most important in the short run, we are actively working with 
merchant shipping lines to help ensure that all vessels take 
appropriate measures to protect themselves from pirates. Here again, 
some statistics are instructive: when we look at patterns in pirate 
attacks in the region, we see that of the unsuccessful pirate attacks, 
a full 78 percent were thwarted simply by effective action taken by the 
crews of the ships under attack. Only in 22 percent of unsuccessful 
attacks were military or law enforcement interventions related to the 
positive outcome.
    This highlights the fact that the single most effective short-term 
response to piracy will be working with merchant shipping lines to 
ensure that vessels in the region take appropriate security measures 
themselves. In so vast an expanse of ocean, and with so many other 
critical national security priorities, it is not possible for our 
military to prevent or intervene in each and every pirate attack. But 
with appropriate on-board security measures in place, the vast majority 
of pirate attacks can be thwarted without any need for military 
intervention.
    Effective merchant ship security includes both passive and active 
defense measures, and we are committed to working with commercial 
carriers who operate in the region to undertake vulnerability 
assessments and disseminate best practices. Effective passive security 
measures can include developing a comprehensive security plan; 
including risk assessment; the removal of external ladders; posting 
lookouts at all times; limiting lighting; rigging barriers (such as 
barbed wire and fencing) in low freeboard areas; varying routes taken 
and avoiding high-risk areas when possible; securing hatches to limit 
access to crew and control spaces; creating ``safe rooms'' and 
maintaining good communications with maritime security authorities.
    Active defense measures can range from rigging fire hoses to repel 
boarders to maintaining professional civilian armed security teams on 
board. While there is some concern within the shipping industry about 
armed security teams, we are working with industry representatives in 
conjunction with other agencies to explore how contracted security 
teams can be a useful and viable option for highly vulnerable ships, 
such as low-freeboard and slow vessels.
    As part of this effort, it may be useful to develop incentives that 
will help encourage merchant ships to invest in security measures. 
These could range from tax credits to reduced insurance rates for ships 
with enhanced security. Ultimately, it may be appropriate to mandate 
some of these actions, beginning with passive self-defense. Regardless, 
we will continue to develop partnerships within the shipping industry 
to make sure that information on best practices is disseminated widely 
and that vessels have the information they need to adequately assess 
and mitigate risk.
    We will continue to be prepared to respond as appropriate when 
U.S.-flag vessels and U.S. citizens are involved. But this is a context 
in which our actions will be most effective when private partners take 
proactive measures themselves. Most pirates are opportunistic 
criminals: whenever possible, they will focus on the easy targets, and 
avoid the difficult targets. Our main task is to assist commercial 
carriers in making their ships hard targets.
    We will also continue to focus on longer-term efforts to prevent 
and punish piracy in the region. We will continue to work with allies 
and regional states to develop their capacity to patrol the seas and 
protect their own shipping, and we will encourage them to fill any gaps 
in their legislative frameworks, so that they can prosecute pirates in 
their own domestic systems. We will also work with regional states to 
increase prosecutorial and judicial capacity to try pirates, since 
effective and fair prosecutions are part of creating a long-term 
deterrent. And we will work when possible with local authorities in 
Somalia to address the on-shore components of piracy, tracking the on 
shore-investors and safe-havens that enable piracy on the high seas. 
Finally, the United States continues to work with the international 
community to better address the root causes of piracy that arise out of 
poverty and instability in Somalia.
    Many of these efforts dovetail with our existing development and 
counterterrorism goals in the region. While none of them will be quick 
fixes, over the long term, increasing local government and law 
enforcement capacity and fostering sustainable economic development are 
all part of reducing the threat of violent extremism, as well as 
reducing the threat of piracy.
    Mr. Chairman and Members of the Committee, we recognize that the 
problem of piracy is not just a problem of Somalia. In recent years, 
pirate activity has also occurred in the Caribbean, the South China 
Sea, and other places around the globe. Although the complete 
elimination of piracy on the high seas would be as difficult to achieve 
as the complete elimination of all robberies and assaults, we believe 
that we can, and must, reduce the likelihood of successful pirate 
attacks through deterrence, disruption, interdiction and punishment. 
This will require coordinated international action and a variety of 
innovative public-private partnership, but we are confident that 
progress can be made. Congress can help facilitate our efforts by 
encouraging and incentivizing the commercial shipping industry and 
their insurers to take appropriate passive and active measures to 
protect their ships.
    Thank you for offering us this opportunity to testify, and we 
welcome your questions and comments.

    Senator Lautenberg. Thank you very much, Ms. Whelan.
    To my colleagues, what I propose to do is to give each 
member 6 to 7 minutes, including any part of that that they 
choose to do for an opening statement.
    And what I will do is I will start off with some questions 
and then go to Senator Thune, who is the Ranking Member, and 
then Mr. Isakson and Mr. Udall.
    Ms. Whelan, we heard your comments, listened with interest, 
and when you say only a third of the time were pirates 
successful in some of these attacks, that is not very 
reassuring, I must tell you. And what I am trying to figure out 
is why the timidity to these acts of theft and brutality?
    I mean, when they are shooting those guns, they are not 
saying, ``Oh, these are only meant for the deck or for the 
bridge.'' They are out to kill people. That is what the threat 
is. And it is really hard to understand.
    We know there was an incident with the Portuguese navy when 
they prevented takeover of one of their ships, captured all of 
the pirates, and took them home to Somalia. What does that say? 
It says, ``All right, we paid the ransom. Now we gave you your 
lives back.''
    It is outrageous. They wouldn't have done the same, and we 
commend the courage and the ability of all the merchant 
mariners and all, particularly singling out those who avoided a 
takeover or responded as did the crew, the captain, and the 
engineer from the MAERSK ALABAMA.
    Now, Ms. Whelan, recent comments by General Petraeus seem 
to suggest that it is outside the U.S. military's 
responsibility to protect our U.S.-flag vessels. Now is that 
the position of the Department of Defense? Or does the U.S. 
military have a different obligation?
    Is an American-flagged ship something that resembles a 
piece of American territory, a sovereign condition, or do we 
say, as was suggested in your testimony--and I don't mean to 
add any sarcasm to it--but you said that we respond as it is 
appropriate to do so. That is not very comforting.
    And so, what is the position of the Department of Defense? 
Don't they consider that an extension of American and I will 
use the term ``territory'' is to be protected? We have sent in 
crews all over the world. Marine helicopters have landed in 
foreign lands, picked people up off of the roofs of the 
embassy, done all kinds of things to protect our citizens. Why 
here are we saying that we are like an alarm company, and you 
sound the alarm, we will get there as soon as we possibly can?
    I don't want to extend your remarks, but please give me 
your view of what it is that doesn't permit our naval forces to 
intervene or other forces, Air Force perhaps? I don't know.
    Ms. Whelan. Thank you for the question, Senator.
    Of course, the United States Navy certainly has its Title 
10 mission to advance U.S. national security interests by 
protecting and advancing and promoting freedom of the seas and 
free sea lines of communication. And certainly, under 
international law, we have the right to provide protection and 
use of proportionate force whenever necessary in order to 
protect U.S. citizens, U.S.-flag vessels, U.S. aircraft if they 
come under attack.
    And as demonstrated in the case of the MAERSK ALABAMA, we 
moved quickly and expeditiously to do so as soon as there was 
notification that the MAERSK ALABAMA was under attack. So most 
definitely, we do, when we are able to do so, move on the 
Defense Department side to protect U.S.-flag vessels.
    There are some legal issues with regard to whether or not a 
vessel is technically sovereign immune. Commercial U.S.-flag 
vessels that are not carrying U.S. Government cargo are not 
sovereign immune.
    Senator Lautenberg. Ms. Whelan, when is the Navy unable to 
provide that support? You say ``when able.'' That qualifier is 
very disturbing, I have got to tell you.
    Ms. Whelan. What I mean by ``when able,'' sir, is simply 
the physics of being in the right place at the right time in 
order to address an attack, whether the attack is in progress 
or at whatever stage. The issue with the MAERSK ALABAMA, we 
fortunately had our vessels in at least reasonable proximity so 
they could react quickly, although, unfortunately, they were 
not close enough to be able to react upon notification of the 
attack.
    Normally, we--if notified of an attack, we can deploy 
helicopters and other mechanisms to improve the speed of our 
response. But there is a physics----
    Senator Lautenberg. I hear you. And with all due respect, 
the comments by General Petraeus seem to suggest that that is 
not the Navy's responsibility, talk about being short of 
resources. I think that letting our crews know that they are 
going to be protected by all of the might that the United 
States can bring to the situation.
    And to suggest that--and by the way, the largest percentage 
of ships in those waters is material being sent by the 
Government to relieve hunger and suffering in these areas. So 
we say, ``OK, we will pay you to carry this. But listen, if it 
gets taken along the way, that is your risk.''
    I am going to defer my questions now for my colleague, 
Senator Udall from New Mexico.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Mr. Chairman.
    And I very much appreciate you, Mr. Chairman, having this 
hearing. I would like to put my full statement in the record 
and then ask a few questions and make a few comments here.
    [The prepared statement of Senator Udall follows:]

   Prepared Statement of Hon. Tom Udall, U.S. Senator from New Mexico
    Thank you, Mr. Chairman, for calling this hearing.
    I welcome the opportunity to hear testimony from two members from 
the crew of the M/V MAERSK ALABAMA, which suffered a Somali pirate 
attack last month.
    I am especially pleased that Captain Phillips is able to testify to 
this committee today. His presence may not have been possible without 
the highly skilled Navy Seals and sailors of the USS BAINBRIDGE who 
participated in his dramatic rescue off the coast of Somalia.
    I would like to state my appreciation for America's merchant 
mariners who are not often recognized for the work they do. The 
merchant marine is important to not only our economy but also our 
national defense. Although Captain Phillips was rescued, hundreds of 
those merchant seaman taken hostage in pirate attacks are still being 
help in captivity.
    I also want to express my deep gratitude for the men and women of 
the U.S. Navy. In particular, I want to thank the 2,400 sailors from 
New Mexico, one of whom currently serves on the USS BAINBRIDGE.
    Thank you.

    Senator Udall. First, let me say to Captain Phillips, I 
thank the entire panel here today for your testimony. But I 
think, Captain Phillips, one of the things your capture and 
rescue has shown to us is obviously your courage. And it has 
also shown us the courage and bravery of our naval forces and 
the USS BAINBRIDGE and the Navy SEALs that were involved in 
that.
    And so, that is something that I think we should think 
about and contemplate and understand here. I am very proud that 
there is one New Mexican serving on the USS BAINBRIDGE, and we 
have, I think, 2,400 New Mexicans serving in the United States 
Navy.
    So the issue I wanted to focus on with you has to do with 
what is--and it goes to what the Chairman is asking. What is 
the solution here? How do we get our ships protected?
    And you mention in your testimony, you probably discussed 
it a little bit earlier, the idea that some have advocated all 
you have to do is arm the crew. And you have talked about the 
corresponding responsibilities of a captain when you have an 
armed crew and the tradeoffs there and the tension that goes 
on.
    Could you talk a little further about what you think the 
solution really is in terms of this kind of shipping and 
whether you think arming the crew is the solution to the 
problem?
    Captain Phillips. Senator Udall, as I said, it is going to 
take a comprehensive, multifaceted plan to combat this. There 
is no silver bullet. There is no one way that will solve it. We 
talked about the international response that is required.
    I believe arming the crew, and by this, I think there is a 
misnomer here. This isn't the ``Wild West.'' Crews aren't 
walking around with holsters and guns in their pockets. The 
guns are under lock and key by the captain. He is the only one 
who has access to it. It is a misnomer that you can't bring 
certain weapons into these countries. I have been to these 
countries. I have done it.
    But just arming the crew is not--that is just putting the 
onus on the crew. I believe the primary step would be military 
and/or civilian if they are properly trained, as the military 
are, as chief engineer Perry has mentioned. If they are 
properly trained, they are the primary preventer.
    Armed crew would be backing them up, and by armed crew, I 
am meaning a limited number of trained crew and assets, which I 
don't want to go into, not to divulge anything.
    The third thing would be more training and hardening of the 
ship. I am a firm believer in training, and I think we can do 
more on the ship side. But to put all the onus onto the ship 
and its crew will not solve it. We have to get the nonlethal 
capabilities, an LRAD, Long Range Acoustic Device. We have to 
have--we talked about other preventive measures, fire hoses. 
MAERSK ALABAMA had fire hoses. They go to where they aren't 
there.
    We talked about speed. I think the parameters, you can 
throw them out the window. The MAERSK ALABAMA was going 18.3 
knots when we were boarded. We had a freeboard very much close 
to the LIBERTY SUN. I was 3 miles from the LIBERTY SUN when the 
Navy got there, and our freeboard was probably around 22 to 25 
foot, in that area.
    So you can throw that parameter out because they had a 
wonderful, brand-new ladder, which I questioned them frequently 
about where did they get it? And if that is the evolution, a 
brand-new ladder doesn't cost as much here in Sears as it does 
to the Somalis.
    And they are evolving, as one of the panel members said. 
They are now doing a night or what I call a ``stealth attack,'' 
which is our most vulnerable. And they have started that for 
the first time in the last few days.
    So it is evolving. There is no silver bullet. Each of these 
steps must be taken. And in unison and in concert, that will 
help--not eliminate--that will help prevent these, and it will 
be a pre-incident and not a post-incident reply.
    And I think Chief Engineer Perry or Captain Staples could 
further some of those items, but that is what I believe. There 
is not one answer. It is a comprehensive, faceted--multifaceted 
plan that will vastly, much lower than the 0.5 percent or so we 
have heard today, will make it close to zero, which I think we 
all want.
    Senator Udall. Captain Phillips, what would you say to 
other captains that are operating in the Horn of Africa and in 
the particular area today about what they should be doing, what 
precautions they should be taking? What recommendations do you 
make in that respect?
    I ask this question thinking of, you know, we saw your 
rescue. But we also know today that there are 300 people that 
are captive, that are in a situation that you could have very 
well been in, and we don't know when they are going to be 
freed. It is hard to tell.
    And I am just wondering if you would, if there is any 
preventive advice you could give to other captains or what you 
would have to say to them?
    Captain Phillips. I would never presume to tell a captain 
anything, to be honest.
    [Laughter.]
    Senator Udall. I thought you might say that. But please----
    Captain Phillips. But I will say--and Chief Engineer Perry 
and Captain Staples can say their word. But I would say the 
things that we have learned and many of the things we put in 
place, as Chief Engineer Perry can say, were done during our 
security drills, where we listened to what mariners thought. 
From the cook to the third mate to the third engineer to the 
QMED, we listened to everybody's ideas when we did our drills 
and critiqued our drills.
    And that is where a lot of the things that we came up with 
in our incident actually were derived from. It is the 
imagination, the capability as the individuality of the seamen. 
We actually came up on these ideas as a critique of our 
security drills.
    Senator Udall. Thank you very much.
    And thank you, Mr. Chairman.
    Senator Lautenberg. We establish one thing in these moments 
here is that you don't have to be in a coastal State in order 
to be concerned about the well being of our sailors and our 
vessels and our reach to do the right thing.
    With that, Senator Thune, also not from a seacoast.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. We are a long way from the coast, Mr. 
Chairman, but I appreciate you holding the hearing today.
    And I want to thank the panel for your input and your 
insights.
    This is not a new problem, of course. But I think the 
recent attack has really captured the Nation's attention and 
focus and sort of underscored the increasing violence and the 
range of Somali piracy that is operating off the Horn of 
Africa. And again, fortunately, thanks to the courageous 
efforts of Captain Phillips and his crew and the heroic actions 
of the U.S. Navy, the merchant mariners were returned safely to 
their families.
    But piracy does continue to threaten the vital shipping 
interests and the freedoms of navigation for all nations, and 
the numbers have already been alluded to here today. There are 
300 non-U.S. crewmembers on 18 hijacked vessels in Somali 
captivity currently, and the range of the pirates now expanding 
with the attacks on merchant ships taking place cover over more 
than 2.2 million square miles.
    I think we all agree that the absence of stable government 
in Somalia remains the single greatest challenge to regional 
security, but that is probably not likely to change in the near 
term. And so, I think it is appropriate for us to consider what 
steps we can take to protect against the immediate threat of 
piracy, while we work with the international community to try 
and resolve the larger humanitarian issues in the region.
    I do appreciate very much the testimony of our witnesses 
today, and I hope that you will continue to give us your best 
suggestions about how we can address the situation and further 
protect U.S. shipping interests.
    I would like to pose a couple of questions, if I could, and 
start with Admiral Salerno. The Coast Guard establishes and 
enforces requirements for vessel security plans under the 
Maritime Transportation Security Act and the International Ship 
and Port Facility Security Code. Do these security plans 
include anti-piracy measures, and how frequently are those 
plans updated or adjusted?
    Admiral Salerno. Senator, both the MTSA and ISPS 
requirements both include vessel security plans. They do not 
specifically talk about piracy, but the language in each of 
them is written broadly enough so that piracy can be included 
as a security concern.
    The way we have structured that under MTSA, the plans are 
on a regular refresh rate of every 5 years. However, when 
specific security threats are identified, the Maritime Security 
Directive can be issued, which would direct the updating of 
plans to address the specific threats.
    That is exactly what we are doing in the case of piracy so 
that with the measures that have been identified, the best 
practices, some maybe unique U.S. practices would be conveyed 
to the U.S.-flag fleet. They would be directed to update their 
security plans.
    What happens then is each company would assess their own 
ships' vulnerabilities, apply the appropriate measures, work it 
into their plans, train their crews, conduct drills, as was 
described by Captain Phillips routinely occurred on his ship. 
And that way, when a ship is entering a high-threat area, those 
measures are required to be put in place.
    That is the basic process. It is something that you don't 
just do it once and you are done because pirate tactics do 
evolve. You have to continually watch this, update the Maritime 
Security Directives as needed, and keep in constant dialogue 
with the industry, the people who are operating in the area, as 
well as naval forces and other government entities that have a 
stake in this.
    Senator Thune. So, typically, it would be every 5 years, 
but in circumstances like these, there is going to be, again, a 
continual statement?
    Admiral Salerno. That is correct, sir. That is right. It is 
done more frequently as needed.
    Senator Thune. The Coast Guard has deployed at least one 
law enforcement detachment to the U.S. task force currently 
patrolling off of the Horn of Africa, Combined Task Force 151. 
I am interested, and maybe you could explain to the Committee 
the role of the Coast Guard? How many, for example, boardings 
has it conducted? Does the Coast Guard law enforcement 
detachment function primarily as a reactionary force or as a 
protective force? And do you see the use of these teams or 
other military teams most effective as boarding teams, or could 
they be better used as protective teams onboard U.S. merchant 
vessels?
    Admiral Salerno. Senator, the Coast Guard is a force 
provider to geographic combatant commanders. So when our U.S. 
Coast Guard capabilities are in theater, they work for CENTCOM 
or, more specifically, NAVCENT. So we actually have two LEDETs 
working for NAVCENT. We have half a dozen patrol boats in the 
Northern Arabian Gulf and even have a high-endurance cutter 
currently assigned in theater.
    Their tasking for the mission assignments actually come 
from the combatant commander, not directly from the Coast 
Guard. They are basically on loan. And the reason they are over 
there is because they have certain capabilities which are 
useful to the combatant commander.
    In this case, the law enforcement detachments are located 
on U.S. Navy vessels, and they integrate with U.S. Navy VBSS 
teams. That is ``visit, board, search, and seizure'' teams. So 
when the boardings are conducted, it is a combined team of Navy 
and Coast Guard personnel.
    So far, Coast Guard personnel have been involved in four 
interdictions of pirates and have apprehended I believe it is 
28 pirates, which are pending disposition. I think some have 
actually been turned over to Kenya.
    The capabilities they provide are really drawn from their 
law enforcement expertise. This is what we do domestically in 
the drug trade in the Caribbean and the Eastern Pacific. That 
is what they are trained to do, to apprehend pirates, make sure 
that they are accorded their rights, protect evidence and chain 
of custody, and make sure that we have a good, solid package 
that can be used in prosecution. So that is the value that they 
offer, sir.
    Senator Thune. Do you see that role as protective in 
nature, or is it more reactionary?
    Admiral Salerno. Well, the way they are being used now, it 
could be either. Predominantly, they are responding to--when 
they are onboard the Navy vessel and the Navy vessel is 
responding to an incident or a potential threat, that is when 
they are being inserted. And boarding either pirate skiffs or I 
don't know if they boarded a mother ship, but that is basically 
the kind of activity that they would be used for.
    They are not there to be used as a special--like a special 
forces team that would go and try to retake a ship that has 
been overcome by pirates. That would be left to other 
capabilities within the U.S. Government.
    Senator Thune. Mr. Shapiro, beyond ransom demands, the 
Congressional Research Service reports that Lloyd's of London 
has designated the waters adjacent to the Horn of Africa a 
``war-risk zone.''
    Mr. Shapiro. That is correct, sir.
    Senator Thune. And as a result, subject to special 
insurance premiums that could cost shippers $10,000 to $20,000 
more per ship through the area. To what extent have insurance 
and operating costs for the U.S. merchant fleet operating in 
the area increased as a result of the piracy threat?
    Mr. Shapiro. Well, Senator, they have increased 
dramatically over the last few weeks. Obviously, since the 
MAERSK ALABAMA, the rates have increased.
    The problem, though, is not just related to the Gulf of 
Aden. We are now talking about the entire Indian Ocean coast of 
Africa. This is expanding well beyond the original million 
miles that they were talking about to an area much bigger.
    And I think one of the witnesses, if I can just relate 
that, talked about the difficulty of getting naval assets to 
respond in a timely fashion. But an embarked security team that 
was on each American vessel going through that area would 
protect the crew and would prevent, I believe, the hijackings 
and the attempting hijackings that are taking place.
    There is also a discussion about diverting to avoid that 
area. The problem for our company is we are bringing--our 
destination is that area. We are bringing cargo into the danger 
pirate zone to be distributed to governments there to relieve 
famine. So we don't have the ability to re-route our ships to 
another discharge port because we are bringing it to the area 
where the food is required.
    Insurance costs go up, but insurance is not--I think, from 
my perspective, I am not as concerned about the cost of 
insurance, the increase in the cost of insurance as I am the 
protection and safety of our crew. They are American citizens, 
and they are entitled to be protected.
    And I believe that fundamental to the notion of sovereignty 
is the obligation of a sovereign to protect its shipping. And 
if they can't do it, if our military can't do it, then we need 
to have the statutory framework, the legal framework in which 
we can arm our vessels with either private security or arming 
the vessels for the crew.
    Although, personally, I must tell you, we do not, as a 
company, believe that the crew should be armed. Maybe one or 
two people or a few people, a select group of the crew. The way 
to protect these vessels is to put an armed security team on.
    Mr. Kienitz spoke about the Italian cruise ship. Well, the 
Italian cruise ship had an Israeli security team on, and the 
reason it had an Israeli security team on is it is not 
encumbered by United States law, which prohibits you from 
putting on an armed security team.
    Senator Thune. Just maybe one more question, Mr. Chairman, 
if it is OK? And I direct this to Captain Phillips.
    You mentioned earlier in response to questions about having 
security teams that you can only have one captain of the ship, 
which I appreciate in terms of the chain of command.
    You are the person with ultimate responsibility for the 
vessel and its crew. As you think about the whole issue and 
others, ships are going to be moving through that area. Other 
vessels are going to be moving through that area.
    What other options are there--in terms of protecting U.S. 
mariner interest in that region?
    Captain Phillips. Well, as I said, I believe it is a 
comprehensive, multifaceted program you would have to do, and 
we have talked about many things here. There are other 
nonlethal assets that are out there, and that is why I 
encourage more people in the industry to come forward because 
they have ideas, too.
    But there is no silver bullet here, and I can't stress that 
enough. It has to be to the limit of the danger that we can use 
certain forces and assets. And I think one thing here is 
usually before an incident, you know at a certain time that you 
are in that incident. There is no question.
    There are fishermen out there. There are other boats out 
there doing legal things. But by actions that we take on, as 
any captain would take, you have identified the threat and know 
what the threat is. In our case, we knew it well over a mile 
what the threat was by certain things we did.
    So that is why I would say the thing that is most important 
is the force protection team, and this force protection team 
could be two or three people. And I think they would stop an 
incident before it ever got to even a boarding situation.
    They would have that capability and ability, and that would 
eradicate the notion of that you are actually shooting at 
people who are doing legal things. As I said, well at a mile, 
you will know. Day before we were taken, we were chased by 
three boats and pirates also, and we knew then what the 
incident was.
    So well before they get in any kind of range, you know what 
the situation is ongoing and what is happening.
    Senator Thune. And do you subscribe to the same view that 
Mr. Shapiro expressed about arming the crew?
    Captain Phillips. I subscribe to a multifaceted regime of, 
first, force protection team, two or three people, talented and 
trained; arming the crew to a certain extent. And again, it is 
not crew walking around with guns in their pockets. It is the 
captain with a much like some of us have at home, a gun 
cabinet. He unlocks the key, and there are certain--it doesn't 
have to be a lot of arms.
    I believe in deterrence. I am a firm believer in making a 
hard target. I thought we were a pretty hard target, and we 
weren't. I believe, as we have talked about, evolving. Now 
there are nighttime or stealth activities going on.
    So that is why I say there is no one silver bullet. There 
is no one answer. It has to be multifaceted to evolve with the 
danger, and the danger is out there. And I believe with some of 
the things we have talked about that it will not stop. I don't 
think anything will eradicate it, but it will prevent and lower 
the number of incidences.
    Senator Thune. Thank you.
    I am sure you are getting weary of answering all of these 
questions. So thank you for your indulgence.
    Thank you all very much.
    Thanks, Mr. Chairman.
    Senator Lautenberg. Thanks, Senator Thune.
    Captain Phillips, we all admired the courage that you and 
your chief engineer showed, and the composure that you showed 
in this circumstance. Of course, we didn't feel it and we 
didn't know what was going on in your mind, but we know the 
stories that are now legendary about you when you were in the 
water and out of the water. And fortunately, the Navy applied 
its resources, and they did one incredible job.
    Now you said that you were aware a couple of days, 3 days 
before, that this pirate activity was around. Did I understand 
what you just said?
    Captain Phillips. No. Earlier, what I had just said is the 
day before we had an incident with three boats, and it was a 
pirate situation, yes. But the activity had increased. I mean, 
I am inundated on the ship, as all captains in that area are, 
with report, many-paged report. And to be honest, I can't even 
read them all. There are so many reports about incidences, 
everything that is happening, reported some mother ships.
    Senator Lautenberg. Do you dial 911?
    Captain Phillips. I wish we had 911. We talked about that 
at the other committee, and there is no direct call to the 
Navy. I basically had to call UKMTO, United Kingdom Maritime 
Transportation----
    Senator Lautenberg. Good thing you paid your cell phone 
bill, huh?
    Captain Phillips. Well, the company paid that bill, yes.
    [Laughter.]
    Senator Lautenberg. Because I don't get it. I mean, we now 
know that there is all kinds of radar attachment to aircraft to 
tell them when they are getting too close on the ground, too 
close in the air and so forth. And I don't know whether that 
kind of basic equipment is available for ships to say, ``Hey, 
these guys are getting too close, and we ought to take a second 
look.''
    But it is odd to me. We have air marshals--everybody knows 
it, there is no secret--who carry guns. They are welcome on an 
airplane. Heaven forbid they have to shoot in that airplane. 
The damage can be total. And nevertheless, we feel a compulsion 
as a country to say that when people are flying on American 
airlines that we want to protect them to the fullest extent 
possible.
    And yet here, it seems that we kind of say, ``OK, listen, 
when available''--and I don't trivialize the Navy's 
obligations. They are severe and distant and very tough 
assignments. But part of their mission, I think, and I address 
this directly to Ms. Whelan--you are part of the policy team 
there--when does it suggest that for the mission that we are 
undertaking especially in this area, a humanitarian issue, that 
we have got American citizens who are doing their job under an 
American flag, at what point do we say it is our 
responsibility?
    We have to have cops on the beat there because we know that 
there is trouble on these streets. What is wrong with 
organizing ourselves to protect these ships, whether they are 
two-person squads or helicopters nearby or what have you?
    Ms. Whelan. Senator, there is actually very active 
discussion underway right now within the interagency involving 
the Department of Defense, Coast Guard, DOT, NSC, State 
Department on exactly the issue you just raised. What is the 
most appropriate way to ensure the security of U.S.-flag 
vessels?
    And there are a number of potential ways to address this 
problem. The U.S. Navy or the U.S. military certainly may have 
a role to play in this, but it is not necessarily the only 
solution to the problem.
    There are, of course, resource, time, distance, space 
issues with regard to the U.S. Navy's ability to cover the vast 
amount of territory that we are talking about, and that was 
really the issue with regard to the ALABAMA. The BAINBRIDGE, 
the time-distance ratio between the ALABAMA and the BAINBRIDGE 
was such that the BAINBRIDGE responded as quickly as it 
possibly could.
    And that is what I meant when I said the vessel is 
available. The BAINBRIDGE was one of several Navy vessels, U.S. 
Navy vessels and a number of international vessels patrolling 
in this area as part of the counterpiracy mission. But the 
location of the MAERSK ALABAMA when it was attacked versus the 
location of the BAINBRIDGE was just too far for the BAINBRIDGE 
to react to deter the attack.
    But there have been numerous occasions when the U.S. Navy 
and other navies have reacted in response to distress calls and 
have successfully deterred attacks. They have chased them away 
either by the destroyer or the frigate or whatever vessel is 
there showing up on the scene or oftentimes, more effectively, 
with a helicopter that has been dispatched from a vessel being 
able to chase the pirates away.
    This is one method of protection, but there are many 
others, as I think Captain Phillips----
    Senator Lautenberg. Well, I never criticize the bravery, 
the courage, the loyalty to duty that our service people have, 
our military people. We have seen it in the present war in Iraq 
and Afghanistan. Our people are subject to the most difficult 
conditions.
    And shouldn't we feel the responsibility to say those who 
are crewmembers, we are going to be looking out for you? Or do 
we say, listen, that is the risk of the business?
    I don't think that is the way we want to react. I would ask 
both the captain and the engineer what kinds of things do you 
recommend others who are operating in the high-risk area off 
the coast of Somalia?
    You know, this underlies the question of how valuable it is 
to America to be able to send ships out there, ships of mercy, 
military ships? To not be satisfied to stay within our borders, 
but rather to reach out and say to Americans across the globe, 
``You are an American citizen. We have obligations to tend to 
your needs, to protect your lives, to rescue you if you are 
taken advantage of no matter where that is.''
    Whether it is on the high seas or we know that the 
capability is there, the bravery is there of our troops. Is it 
easy to get crews today on your vessels, Captain?
    Mr. Shapiro. It has been easy. I think people are getting a 
little more nervous in the last 3 weeks, Senator.
    If I could just--I know you directed it at Captain 
Phillips, but I would just like to say I agree. This is a 
multifaceted approach, and we need to clean up along shore.
    I am reminded of the Marine Corps hymn. ``From the halls of 
Montezuma to the shores of Tripoli.'' That was the Barbary 
pirates, the Barbary Coast. And they were cleaned out by I 
believe it was Thomas Jefferson.
    There is an obligation of a sovereign to take care of their 
ships, and I think all I am asking for as a ship owner today 
flying the U.S. flag and employing wonderful American seafarers 
is to have the tools available that I can arrange for 
protection for them if our Government can't. And that is why we 
are asking for a change in the legislative framework to allow 
us to do that.
    Mr. Perry. Senator, if I may answer your question?
    Senator Lautenberg. Sure.
    Mr. Perry. I am the engineer, and to me, it is inevitable 
we are going to be boarded again. We can take all the action we 
want to prevent it and protect us, but they are going to come 
onboard the ship.
    Having said that, to all sailors, to all shippers, the 
houses must be fortified, strengthened. More locks. We need at 
least three layers of doors coming down to safe rooms. All 
ships do not have safe rooms. We did not have a safe room in 
our plan. That was something we improvised right then and 
there.
    Other ships have safe rooms. Everybody needs safe rooms. 
They need to know how to use them. They need at least three 
layers of armored doors to get there.
    To the point of arming people or putting--I may have to 
have, and I am glad to see the Navy around. I may have to have 
them onboard, and I was glad that they were there. I will 
never, ever want to see a rented cop onboard my ship. They 
don't have the vested interest that we have.
    Having said that, there are people that should never, ever 
have a weapon. There are people that will never, ever pick up a 
weapon. I have sailed for them and with them. They will not 
unlock that safe no matter what. They have told me so.
    There are people that are trained, people that are wired 
and know how to do these things that are willing to go through 
certification programs to continue to be certified to carry 
weapons. Let us say they must be within the officer corps of 
this merchant marine.
    Those people need to be identified not by position, but by 
character. They need to be trained. They need to be certified. 
They need to be allowed to have a weapon. That weapon needs to 
be under lock and key in their cabin or in the safe room 
because when that third door gets breached and those people are 
coming in the safe room, I don't want to have to meet them with 
a pocketknife.
    Senator Lautenberg. The ballgame is over at that point.
    Well, we thank each one of you for your appearance here and 
for your testimony. We will keep the record open for some time 
and submit questions in writing to you for which we would ask 
promptness in response.
    My hat is off to all of you. I once sailed on a troop ship. 
It was in 1944. And we were a large ship, about 800 feet, I 
think, 8,000 soldiers aboard, and we went fast. That was our 
protection, and we went through some pretty funny waters there.
    So speed, all kinds of things can be employed, but there is 
nothing--nothing, in my view--like making sure that someone who 
is trying to take your life stands a chance of losing theirs, 
and that goes beyond all the written codes and everything else.
    Senator Thune. Mr. Chairman, clarification, if I might? Am 
I right in what you are saying is that you don't have 
authority? We would need a change of the law to allow you to 
have firearms on the vessel?
    Mr. Shapiro. Can I clarify that, Senator?
    Senator Thune. Yes.
    Mr. Shapiro. There is an 1819 statute which permits vessels 
to defend themselves. The problem is twofold. There is a 
subsequent State Department arms regulation, which requires you 
to get a license in order to take a weapon out of the United 
States. And part of the requirements are that you get a 
certification from every port that you are going to that it is 
legal to import them.
    Out of curiosity, I called indirectly the embassy from 
Kenya and found out that in order to bring a weapon into 
Mombasa legally, one has to have the handwritten permission, 
the personal permission of the minister of the interior.
    So there are regulations which prevent us from going into 
certain ports, Captain, with weapons. Moreover, we can't go 
through certain canals and most canals with weapons unless they 
are declared. The crew is allowed to bring a single or I guess 
it is up to three weapons, correct? But it has got to be less 
than 50-caliber. It can't be an automatic weapon.
    So I think the line of defense that is being talked about 
for weapons for officers is a last line of defense. I don't 
think that is the first line of defense, at least it is not 
from my point of view.
    We need embarked security teams, armed escort security 
teams. I understand the issues that the captain and the chief 
have with surrendering command and control of their ship 
because the military embarked teams are not responsive to the 
captain. They respond to the military people that are onboard 
that they report to.
    And I think with private, well-vetted, well-trained 
security, we would be able to have the captain and the chief in 
charge of the ship, which I think would solve the problem. It 
is not going to solve the entire problem, but it will certainly 
save American lives.
    Senator Thune. But the captain and you and the engineer 
both said as a last resort, if you had a gun case--not 
everybody packing heat on the vessel. But if you had a gun 
case, is that something that is allowable today?
    Captain Phillips. I have been on ships where we have had it 
and gone to many countries. I have been to Mombasa with a 
weapon. I won't say what kind. You do have to declare it, and 
then you have to put it in bond or seal it.
    I haven't been to too many countries, including Japan, that 
caused a problem. It is basically you declare it. It goes in 
bond or in my safe usually, and it is locked up and sealed 
until you sail.
    Senator Lautenberg. We can't continue to go like this, but 
I have one more thing. If we have had successful missions in 
preventing or interrupting piracy attacks, how come the numbers 
continue to escalate so rapidly of these attacks taking place? 
There is obviously not a sufficient deterrent out there. Maybe 
there can't ever be, with hungry people or what have you.
    But certainly we are not offering deterrence in any way 
that would say to them, ``Hey, you could pay a heck of a price 
for this, maybe your life.'' We don't do that.
    We thank each and every one of you. You have contributed a 
lot to the debate, and we will follow on with this. Thank you 
very much for being here.
    With that, this hearing is over.
    [Whereupon, at 4:34 p.m., the hearing was adjourned.]

                            A P P E N D I X

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia

    I am excited about today's hearing and regret that I cannot be in 
attendance. I would like to thank Senator Lautenberg for calling this 
critical hearing to examine piracy on the high seas today. We both 
believe it is our duty to protect American mariners, vessels and right 
of access to the shipping lanes around the Horn of Africa. The Commerce 
Committee will use today's hearing to examine issues within its 
jurisdiction spanning the operations of the commercial maritime 
industry, the Coast Guard, and the safety and security of our merchant 
fleet and their crews.
    I would also like to thank all of our witnesses for agreeing to 
testify today. I appreciate each of you taking the time to be here, and 
I'm honored to have two American heroes among us today. Joining us are 
the Master of the M/V MAERSK ALABAMA, Captain Richard Phillips, and the 
vessel's Chief Engineer, Mr. Michael Perry. These men have dedicated 
their lives to service at sea in support of our national and economic 
security. I want to personally thank you and your families for being 
with us and for the selfless service and countless sacrifices you make 
for our country.
    As a maritime nation it is imperative that the United States and 
our trading partners maintain unimpeded access to the world's shipping 
lanes. It is this access that enables us to move commerce, provide 
humanitarian assistance and, when necessary, fight and win wars. It is 
unacceptable for our ships, crews, and passengers to be threatened and 
put at risk in international waters by various groups of 
unsophisticated pirates from unstable nations. I will not sit by as men 
in speed boats abuse the most powerful and advanced Navy in the world. 
We have the ability and responsibility to end all piracy; specifically 
around the Horn of Africa and along the Coast of Somalia.
    With the full force of the U.S. Navy alongside a coalition of 
nearly twenty other nations, we can take back these critical shipping 
lanes. It is of the upmost importance that we keep our U.S. mariners, 
passengers and vessels free from harm and free to move about 
international waters.
    Arming the crew is not an option. Instead the U.S. military should 
provide the support and protection of our men and women at sea. And let 
us not forget there are still roughly 18 vessels and another 300 people 
still being held hostage in Somalia.
    I realize the maritime industry has been facing this threat for 
several years now, especially as attacks began to escalate in the 
summer of 2008. Our maritime community took responsibility and worked 
together to share best practices for avoiding and disrupting pirate 
attacks.
    Yet this is not enough. U.S. officials and international experts 
believe that addressing the threat of piracy will require strengthening 
regional security capabilities, improving intelligence gathering and 
sharing, and enhanced multilateral coordination, both at sea and on 
land.
    The absence of a functioning government in Somalia and the ability 
to prosecute captured pirates are the greatest challenges to maritime 
security in the region. By all accounts, pirates will likely continue 
to find sanctuary in Somalia until basic governance and security 
conditions there change.
    The international community has responded with multinational naval 
patrols, diplomatic efforts, and enhanced private security by members 
of the commercial shipping industry. I believe we must do more. As a 
nation we have a responsibility to take action and protect our 
citizens. And as history shows, without a forceful response pirates 
reign supreme in the high seas.
    Today our witnesses will paint a fuller picture of what we've done 
so far and guide us on the road ahead. We will bear witness to the 
personal impact of piracy on our citizens at sea, and listen to their 
advice on what more needs to be done.
    I look forward to hearing from all the witnesses.
                                 ______
                                 
    Prepared Statement of Daniel K. Inouye, U.S. Senator from Hawaii

    I would like to thank Senator Lautenberg for calling this hearing 
today, and I would also like to thank all of our witnesses for agreeing 
to testify.
    The ability to access U.S.-flag Merchant Marine ships and seafarers 
is essential to our national and economic security interests, and 
provides an invaluable diplomatic and humanitarian assistance role for 
our Nation. In a time of national emergency or military conflict, the 
U.S. Merchant Marine becomes vital to our national security by 
projecting America's military power. U.S. ships transport more than 
ninety-five percent of all equipment and supplies supporting the 
deployment of armed forces. A strong, organic sealift capability that 
is available to the Defense Department on demand saves the tax payer 
over $8 billion in capital outlay, and millions more in annual 
operating and maintenance costs.
    The history of the twentieth century demonstrates our Nation's 
reliance on a strong U.S. Merchant Marine. In the Second World War, the 
U.S. Merchant Marine was crucial to getting our personnel, equipment 
and supplies to the various theaters around the globe.
    The need was so great that the Merchant Marine grew from 55,000 to 
215,000 trained mariners, in order to crew the surge of vessels that 
were being rapidly built to support the war effort. Likewise, in the 
first Gulf War, the U.S. Merchant Marine carried nearly 700,000 tons of 
equipment on 123 voyages. Today, the U.S. Merchant Marine has 
successfully supported simultaneous operations in Iraq and Afghanistan, 
moving nearly ninety-seven percent of all equipment and supplies. It is 
for these reasons that the U.S. Merchant Marine is considered the 
fourth arm of defense, as first characterized by President Franklin D. 
Roosevelt.
    Merchant Mariners, trained in ship operations and as logistics 
professionals, ensure the economic security of the largest trading 
nation in the world by guaranteeing our access to foreign and domestic 
sources of raw materials, and domestic and foreign markets for sale of 
U.S. manufactured goods. Annually, our mariners move more than 2.3 
billion tons of domestic and international cargo with $2 trillion, in 
addition to 3.3 billion barrels of oil to meet our energy demands.
    In addition, our U.S. Merchant Marines provide an effective 
humanitarian assistance. Domestically, merchant mariners provided 
critical support response following Hurricanes Katrina and Rita. 
Internationally, our U.S.-flag ships carry food aid and other supplies 
to countries in need. These types of diplomatic missions serve to 
support people in need, and projects our U.S. government's positive 
humanitarian presence overseas.
    The U.S. Merchant Marine is an essential part of who we are as 
Americans, and must be protected from the interference of pirates on 
the high seas in international waters.
    I look forward to hearing from all the witnesses here before this 
Committee today.
                                 ______
                                 
  Prepared Statement of the American Maritime Officers, International 
Organization of Masters, Mates and Pilots, Marine Engineers' Beneficial 

             Association and Seafarers International Union

    Mr. Chairman and Members of the Subcommittee:
    The American Maritime Officers (AMO), the International 
Organization of Masters, Mates & Pilots (MM&P), the Marine Engineers' 
Beneficial Association (MEBA) and the Seafarers International Union 
(SIU) appreciate the opportunity to submit this statement in 
conjunction with your Subcommittee's hearing on piracy. The licensed 
and unlicensed merchant mariners our labor organizations represent crew 
working aboard United States-flag vessels that must operate in waters 
where the threat of piracy is the greatest. Consequently, the officers 
and members of our unions deeply appreciate your leadership, Mr. 
Chairman, in scheduling this hearing. We look forward to working with 
you and your Subcommittee to formulate responses to the threats posed 
by piracy which offer the greatest measure of protection for U.S.-flag 
vessels and their U.S. citizen crews.
    In fact, American mariners working aboard U.S.-flag vessels 
operating in that region continue to face an immediate and ongoing 
threat from international pirates. As our American mariners simply 
attempt to do their jobs, their lives are in constant peril as these 
pirates decide when--not if--to take further aggressive action against 
commercial ships.
    Consequently, our unions recently asked the Administration to 
continue to treat this situation and the ongoing threat posed by 
pirates with the utmost urgency. In a letter to the President dated 
April 24, 2009, we stated that it is our position that ``the most 
effective step that must be taken to prevent further aggressive action 
against U.S.-flag commercial vessels and their crews is for our 
government to immediately provide U.S.-flag vessels with the force 
protection necessary to prevent any further acts of piracy against 
them.'' We strongly believe it is first and foremost the responsibility 
of the U.S. Government to provide the protection necessary to ensure 
the safety of life and property aboard United States-flag vessels. When 
a vessel flies the United States flag it becomes an extension of the 
United States itself, regardless of where in the world the vessel is 
operating.
    Clearly, the actions taken by the Administration and, most 
specifically, the Department of Defense in response to the recent 
attacks against the U.S.-flag vessels MAERSK ALABAMA and LIBERTY SUN 
demonstrate that the United States Navy and its personnel have the 
capability and expertise to respond quickly and effectively. In both 
instances, the pirates never took control of the U.S.-flag vessel and, 
as everyone is now aware, the Navy SEALS executed a dramatic rescue of 
Captain Richard Philips, master of the MAERSK ALABAMA, which has 
attracted the worldwide praise it deserves.
    This is important not only because no American ship, cargo or crew 
member was lost but because our country unequivocally demonstrated that 
we will protect our U.S.-flag fleet which contributes to the economic, 
political and military security of the United States. Our country 
cannot allow pirates to force the U.S.-flag off the high seas or to 
drive American citizens out of our industry. All too often the role 
that our organizations and the United States citizen merchant marine 
officers and crew we represent play in protecting the economic security 
of our Nation and supporting the Department of Defense and our troops 
overseas is overlooked. Without a United States-flag merchant fleet and 
without the American citizen licensed officers and crew who sail aboard 
these vessels, our armed forces overseas would be dependent on others 
for the supplies, equipment and other cargo they need to do their job 
to protect America's interests.
    In the case of the LIBERTY SUN and the MAERSK ALABAMA, the vessels 
and crews were on a mission of mercy, carrying U.S. food aid cargo to 
some of the world's neediest people. These vessels and other vessels 
carrying American aid proudly fly the United States flag in foreign 
ports to help demonstrate that Americans are a compassionate people. It 
shows that American ships and their crews will work to make sure that 
the less fortunate of the world who need our aid will in fact receive 
our aid--U.S. produced agricultural commodities. The American taxpayer 
must have the assurance that the aid they provide to those in need will 
in fact reach the intended recipients and will in fact work to achieve 
its stated purpose. U.S.-flag ships and their crews play a key role in 
the process which must continue.
    Notwithstanding the outcomes of the MAERSK ALABAMA and LIBERTY SUN 
incidents, it is important for all Americans to understand that the 
threat presented by piracy is a fact of life for American mariners and 
for seafarers around the world. It has recently been reported by the 
International Maritime Bureau (IMB) of the International Chamber of 
Commerce that compared to the first quarter of 2008, piracy incidents 
have almost doubled in the first quarter of 2009, from 53 to 102. 
According to the IMB, this increase is due almost entirely to increased 
pirate attacks off the Gulf of Aden and the east coast of Somalia, 
where 61 of the 102 attacks occurred.
    We agree that the increased level of piracy in this region of the 
world is due largely to the political and economic conditions within 
Somalia. There is, at best, tremendous political instability which is 
coupled with severely depressed economic conditions that do not offer 
the level or measure of opportunity necessary to discourage individuals 
from pursuing this life of crime.
    This is not, of course, a situation that can or will be solved 
quickly, or just by the United States. It will require a coordinated 
international effort to try to reverse the conditions within Somalia 
that have led to this increased level in piracy. But while the world 
works to confront the root causes of piracy, it is critical that the 
United States and the rest of the world act to address piracy itself--
to develop an international approach that entails uniform response 
procedures when pirates are discovered in waters near a vessel; that 
includes a uniform approach to protecting vessels and crews; and which 
covers the prosecution for piracy and penalties for those convicted. We 
also believe that all flag nations, including those which do not have 
military forces to contribute to this effort, must therefore 
participate in this effort financially. They should pay their fair 
share to help offset the cost of protecting their flag vessels that the 
United States and other countries will incur.
    It is also important to reach an international agreement that 
applies and enforces any new requirements equally to all vessels in 
order to ensure that U.S.-flag vessels are not economically 
disadvantaged. It is important to remember that shipping is a business; 
ship owners and operators, and cargo shippers are interested in moving 
their cargo from point to point safely and at the lowest possible cost. 
If the requirements necessary to respond to piracy are applicable only 
to U.S.-flag vessels, and these anti-piracy measures result in 
increased costs, it is logical to conclude that foreign flag vessels 
will achieve an unfair competitive advantage over their U.S.-flag 
counterparts. If the threat posed to merchant mariners by piracy is not 
given the same seriousness by all vessel owners and operators and flag 
states, and if these same vessel owners and operators and flag states 
choose to sacrifice the health and safety of their mariners for the 
bottom line, American vessel owners and operators will be disadvantaged 
as they try to do the right thing, and the number of U.S.-flag vessels 
will likely diminish, taking American maritime jobs with them. To the 
degree this happens, more and more of American cargo will be carried by 
foreign vessels that are more susceptible to pirate attacks, and more 
and more of American cargo will be at risk. Simply put, we believe that 
the response to piracy must be international, the steps taken and the 
requirements imposed must be applied to all vessels, and the costs of 
protecting vessels, cargo and crew must be borne equally and not 
disadvantage any one flag.
    Nevertheless, as we said previously, the immediate threat to 
vessels and crews posed by piracy is real, and action must be taken now 
to protect U.S.-flag vessels and American mariners. Until and unless 
the international maritime community acts, there is no effective 
alternative to U.S. Government involvement and action working in 
concert with our shipping industry and maritime labor organizations. We 
agree with the statements made by Secretary of State Hillary Clinton: 
``We have to act swiftly and decisively to combat this threat. These 
pirates are criminals. They are armed gangs on the sea. And those 
plotting attacks must be stopped, and those who have carried them out 
must be brought to justice. Defending against piracy must be the joint 
responsibility of governments and the shipping industry.''
    Consequently, it is our position that as an essential first step, 
the U.S. Government should immediately provide protection for the 
United States-flag vessels that are and will be operating on sealanes 
where piracy remains a serious threat. This protection should entail 
military escorts or military security detachments placed aboard the 
vessel.
    We further believe that the utilization of a private security 
detachment aboard a vessel may also provide necessary protection. In 
fact, a force protection detachment of a few highly qualified, 
experienced personnel, with armed forces background and training, to 
serve as first responders in the event pirates are detected can be 
effective in repelling the attack. These individuals can and should be 
equipped to take aggressive action when it is confirmed that pirates 
are approaching the vessel and an attack against the vessel may be 
imminent. However, it should be noted that there are serious concerns 
and risks associated with this approach throughout the maritime 
industry. The employment of private security detachments can, for 
example, raise command and liability issues which must be thoroughly 
considered before proceeding in this fashion.
    Finally, Mr. Chairman, we would like to address the proposal that 
the answer to the threat posed by pirates is to simply arm the crew. We 
categorically reject the notion that this should be considered the best 
or even a primary solution to the problem of piracy. Rather, we believe 
that to the degree this option is considered, it should be considered 
as only one part of an overall, comprehensive response. Even then, it 
should entail no more than a few highly trained individuals who have 
extensive training and expertise in the use of weapons.
    In conclusion, we again wish to express our appreciation for your 
efforts, Mr. Chairman, and the efforts of your Subcommittee to focus 
attention on this extremely serious problem and to bring shipping 
management, maritime labor and the U.S. Government together to begin 
discussing effective and appropriate responses to piracy. We stand 
ready to continue to work with you and your Subcommittee and ask that 
our statement be included in your hearing record.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                           Philip J. Shapiro

    Question 1. Do you have a position on the use of military armed 
guards verses the use of private security forces or arming the crew on 
your vessels to improve security while operating off Somalia? Can you 
please provide the Committee an assessment of the positives and 
negatives of each alternative?
    Answer. Yes, Liberty Maritime's position is that the U.S. 
Government should protect U.S.-flag vessels on high-risk transits 
through the region where pirate attacks have occurred. As an initial 
matter, it is the traditional responsibility of the sovereign, the 
United States of America, to protect U.S.-flag vessels from pirate 
attacks on the high seas. Indeed, the United States Navy traces its 
origins under the Constitution of the United States to battling the 
Barbary Pirates in the early years of the nineteenth century.
    Next, considering the seriousness of recent pirate attacks where 
multiple pirate vessels armed with automatic weapons, rocket-propelled 
grenades, and most recently high-explosives, have been used to attack 
merchant vessels, Liberty Maritime's position is that the armed forces 
of the United States are much better equipped and trained to meet this 
evolving threat than private security. Additionally, in the event of a 
further escalation in the use of force by pirates, the U.S. Government 
will surely back-up military personnel embarked on U.S.-flag vessels. 
By contrast, private security forces simply do not have that 
capability. Considering the fact that most U.S.-flag vessels transiting 
the region are carrying U.S. Government cargoes, it is particularly 
ironic that the Navy has declined to protect these ships with embarked 
security teams.
    Liberty Maritime's position is that private security represents a 
much less desirable alternative than the armed forces of the United 
States. Private security cannot provide personnel with the same 
training and weapons provided by the armed forces, nor do they provide 
the back-up in the event pirate forces threaten to overwhelm private 
security. Additionally, because of legal prohibitions of most of the 
countries in the region where Liberty Maritime vessels trade, it is 
practically impossible for Liberty Maritime to arrange for private 
armed security. For example, on a recent voyage of a Liberty Maritime 
vessel in the region we were unable to arrange for private armed 
security because of prohibitions by all of the relevant countries in 
the region. Therefore, as a matter of law and practice, the barriers 
Liberty Maritime has encountered have prevented the use of armed 
private security.
    Furthermore, because the United States Navy indicated that it will 
not provide embarked military security on U.S.-flag vessels because it 
does not have the resources, Liberty Maritime recommends that the U.S. 
Coast Guard provide embarked military security for the U.S.-flag 
vessels on high-risk transits through the region. The U.S. Coast Guard 
has the capability and only awaits the tasking. Additionally, the 
Congress has recently provided supplemental funding to the U.S. Coast 
Guard for counter-piracy operations overseas. These resources should be 
devoted to protecting the lives of American merchant seamen serving on 
U.S.-flag vessels. Failing to apply this ounce of prevention risks 
putting American lives at risk and will likely require the U.S. 
Government to expend far greater resources in response to another 
hostage-taking like that which occurred on the MAERSK ALABAMA.

    Question 2. During an era when it is routine to criminalize 
mariners, do you have any concerns about arming mariners for self 
protection, with respect to the inevitable response and treatment of 
mariners by the maritime law enforcement and military organization?
    Answer. Yes. Leaving merchant mariners to their own devices and 
suggesting that they should simply be armed for self-defense ignores 
the responsibility of the U.S. Government to protect its citizens and 
the U.S.-flag fleet against pirates. Moreover, it subjects merchant 
mariners to legal proceedings in foreign countries for actions in self-
defense they take against piratical acts. That is why we have proposed 
legislation that would immunize U.S. merchant mariners for actions 
taken in self-defense of piratical acts from legal actions in the 
United States.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                            Hon. Roy Kienitz

    Question 1. ere are approximately 200 U.S.-flag vessels with U.S. 
crews that sail through the Horn of Africa region on an annual basis, 
which is about one vessel every other day. What would you say is the 
best use of U.S. resources to assist in keeping the sea lanes open for 
trade and protecting our U.S. mariners and vessels?
    Answer. A risk-based matrix is the best way to ensure appropriate 
measures are being utilized to assist in keeping the sea lanes open for 
trade and protecting our U.S. mariners and vessels. Speed is the most 
important factor to avoid and prevent pirate boarding.
    There are very few U.S.-flag vessels which operate near the HOA 
that have a top speed of less than 20 knots. MARAD estimates eight (8) 
such vessels operate off the HOA. Of those eight, only one operates 
full time in the west Indian Ocean. The others typically enter the 
region on a quarterly basis. For this small number of vessels, they 
should work with the Maritime Security Centre-Horn of Africa (MSC-HOA), 
the U.S. Coast Guard and the Maritime Administration to make sure they 
have the latest guidance and are using the most appropriate counter 
measures.

    Question 2. Will you please outline for the Subcommittee your 
efforts to coordinate intelligence, capitalize on best management 
practices and disseminate mariner advisory messages? What else can be 
done to assist and protect U.S. mariners and the maritime industry?
    Answer. For U.S.-flag vessel owners and operators, the Maritime 
Administration sends Advisories concerning operational issues globally. 
Several advisories have been sent and updated based on input from the 
intelligence community. Our primary source is the National Maritime 
Intelligence Center (NMIC) in Suitland, MD for matters regarding 
piracy.
    MARAD Advisories are not classified and are broadcasted using the 
services of the National Geospatial-Intelligence Agency, and 
distributed by e-mail. We also forward applicable updates from the 
NMIC, Combined Maritime Force, MARLO Bahrain, and the Maritime Security 
Centre-Horn of Africa (MSC-HOA)
    The Maritime Administration communicates with the MSC-HOA Chief of 
Staff as needed via e-mail and telephone. The Maritime Security Centre-
Horn of Africa uses a password protected website as their primary means 
of communication with commercial shipping including the U.S.-flag 
vessels. U.S.-flag vessels are required by the USCG to register on the 
website.

    Question 3. The majority of our discussions have revolved around 
the immediate need for protecting our mariners, vessels and cargos. 
Please provide us with an explanation of the larger issue of piracy, as 
it relates to the specific impacts of the flow of commerce and 
associated costs.
    Answer. For all of 2008, out of over 20,000 transits through the 
Gulf of Aden and the East Coast of Africa, there were 111 attacks and 
42 successful hijackings. Although this risk may seem low with only 
about 0.6 percent of ships moving through the area coming under attack, 
the persistence and aggressiveness of the pirates demand active 
countermeasures by ship operators and governments to ensure freedom of 
the seas, which is essential to protect global commerce.
    If an operator transits through the high risk area, it may opt for 
qualified security guards or deterrent equipment (e.g., a sonic 
deterrent device or razor wire), and additional war risk and kidnap and 
ransom insurance. Rerouting around the Gulf of Aden area via the Cape 
of Good Hope could be another option for some carriers.
    Rerouting around the Gulf of Aden area via the Cape of Good Hope is 
the other way that piracy causes specific impacts to the cost of 
shipping goods. This routing could add 14 days or more to the voyage 
depending on the destination which increases the fuel and operating 
expenses of the vessel. These costs do not include the disruption in 
the logistics chains to the users of cargo or the cost of chartering 
additional ships to maintain regular schedules.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                     Rear Admiral Brian M. Salerno

    Question 1. Please explain the Coast Guard's role at the 
International Maritime Organization to prevent and respond to acts of 
piracy?
    Answer. The International Maritime Organization (IMO), a 
specialized technical body of the United Nations, has been a leading 
force in improving maritime safety internationally for decades. Most 
recently, it led numerous efforts aimed to suppress the piracy threat 
in the Horn of Africa. By delegation from the State Department, the 
Coast Guard provides the Head of the U.S. Delegation for IMO meetings 
and activities. The IMO works throughout the region to foster 
cooperation between stakeholder countries and to create the legal and 
operational framework for regional States to combat piracy. The IMO 
established a framework for international counter-piracy cooperation; 
updated counter-piracy guidance to industry and governments; and 
promoted judicial consequence delivery mechanisms so that pirates, once 
caught, face meaningful and just punishment under the rule of law.
Djibouti Code of Conduct
    During the week of 19 January 2009, the Coast Guard led the U.S. 
delegation to a meeting convened by the IMO in Djibouti on regional 
cooperation to combat piracy and armed robbery against ships off the 
coast of Somalia and in the Gulf of Aden. At the meeting, the 21 
regional nations adopted an agreement for cooperation in the 
interdiction, investigation and prosecution of pirates, as well as the 
establishment of information and training centers. The Djibouti Code of 
Conduct concerning the Repression of Piracy and Armed Robbery Against 
Ships in the Western Indian Ocean and the Gulf of Aden (the Djibouti 
Code) specifically endorses the Convention for the Suppression of 
Unlawful Acts against the Safety of Maritime Navigation (SUA) as the 
effective legal framework. The Djibouti Code also contains practical 
law enforcement measures, including a ship rider program to share 
scarce patrol resources and information sharing and operational 
coordination mechanisms. Although not eligible to be a party to this 
instrument, the U.S. delegation played an important supporting role in 
the effort.
    Nine of the twenty-one regional nations signed the agreement in 
Djibouti, allowing the Code of Conduct to immediately enter into force. 
Each signatory intends to review its national legislation with a view 
toward ensuring there are laws in place to criminalize piracy, and 
adequate guidelines for the exercise of jurisdiction, conduct of 
investigations, and prosecution of alleged offenders. Consistent with 
international law, signatories espouse an intent to fully cooperate in 
the arrest, investigation and prosecution of persons who have committed 
piracy or are reasonably suspected of having committed piracy; seize 
suspect ships and the property on board such ships; and rescue ships, 
persons, and property subject to acts of piracy.
Counter-piracy Guidance
    Through the IMO Maritime Safety Committee (MSC), the Coast Guard, 
in close cooperation with our interagency and international partners, 
is leading efforts to enhance and update counter-piracy guidance to 
industry, encouraging all vessels to address the piracy safety and 
security threat via the existing domestic and international law 
architecture. The IMO guidance to ship owners, ship operators, masters, 
and crews on preventing and suppressing acts of piracy and armed 
robbery against ships is contained within MSC Circular 623 (Rev.3). The 
Coast Guard is leading the U.S. delegation to the 86th session of the 
MSC, which is meeting in London from 27 May to 5 June 2009. The MSC is 
expected to complete its review and approve a fourth revision to the 
guidance.
    The 86th session of the MSC is also is expected to approve 
revisions to existing recommendations to Governments for preventing and 
suppressing piracy and armed robbery against ships (IMO MSC Circular 
622 (Rev. 1), as well as a Resolution updating guidance on evidence for 
prosecution of suspected pirates. The Coast Guard led development of 
the U.S. position on all documents and matters expected to be 
considered by the MSC (piracy is one of several items on the agenda), 
and will play a lead role during discussions and drafting conducted by 
the Committee.
ISPS Code
    Following the 9/11 terrorist attacks, at the urgent request of the 
U.S., the IMO rapidly developed the International Ship and Port 
Facility Security or ``ISPS'' Code to better safeguard international 
shipping from acts of terrorists and others who would threaten 
commercial shipping and the safety of innocent seafarers. The Coast 
Guard worked tirelessly to effectively develop and implement the ISPS 
Code. The purpose of the ISPS Code is to provide a standard, consistent 
framework for evaluating risk. It enables governments to flexibly 
accommodate changes in threats to shipping with changes to reduce 
vulnerability of ships and port facilities through determination of 
appropriate security levels and corresponding security measures. The 
ISPS Code provides a valuable and time-tested mechanism for industry, 
in cooperation with the IMO, to harden targets against pirate attacks. 
The Coast Guard uses a variety of authorities, including the Maritime 
Transportation Security Act of 2002, to ensure the security of vessels 
via regulations at 33 CFR Part 104. The ISPS Code and 33 CFR Part 104 
regimes provide the architecture necessary to implement security 
measures to address piracy threats.

    Question 2. What is the current status of negotiations on acts of 
piracy and revitalization of the SUA Convention to assist in the 
prosecution of pirates?
    Answer. The International Convention for the Suppression of 
Unlawful Acts Against the Safety of Maritime Navigation (SUA), 1988, 
has 152 Parties, including nearly every country bordering piracy High 
Risk Waters, with the notable exceptions of Somalia, Eritrea, and 
Ethiopia. The SUA Convention provides excellent tools for use in 
combating piracy and bringing suspected pirates to justice, including 
mechanisms for the criminalization of piratical acts and the delivery 
of suspected pirates to appropriate jurisdictions for prosecution. 
However, in order to fully implement SUA, State parties must enact 
domestic implementing legislation, particularly with regard to the 
criminalization of piratical acts. Thus, not every State party to SUA 
is able to fully exercise the benefits of the Convention to which they 
are a party.
    The U.S. has taken a lead role in advocating and supporting full 
implementation of the Convention through the creation of domestic 
criminal law frameworks by State parties. With U.S. support and 
intervention, the U.N. Security Council specifically recognized the 
value of SUA by express references in the relevant Security Council 
Resolutions (See UNSCR 1846 and 1851). Further, due to very strong U.S. 
leadership in the development of the Djibouti Code of Conduct, the 
signatories to that Code also recognized the value of SUA with similar 
language. Last, with U.S. support and intervention, the IMO has 
repeatedly encouraged ratification and effective implementation of SUA 
by its member States as a mechanism to suppress piratical acts.
    Certain States have found SUA to be an effective tool during 
prosecutions of pirates. These countries include Denmark, Kenya, and 
the U.S. For example, Denmark stated it found the SUA mechanism for 
delivery of suspects to be helpful when transferring five suspected 
pirates to the Netherlands for prosecution. The U.S. Attorney for the 
Southern District of New York in Manhattan charged the suspected 
pirate, arrested after the MAERSK ALABAMA incident, under our domestic 
implementing legislation for SUA, 18 U.S.C.  2280, (among other 
charges).
    The United States will continue to aggressively promote the full 
implementation of SUA in all appropriate international forums.

    Question 3. What was the reaction of our international partners 
when the Coast Guard suggested supplementing the crew with armed 
security forces?
    Answer. To date, there has been little international enthusiasm for 
the U.S. position that the use of armed private security, in certain 
appropriate circumstances, can be an effective deterrent. Generally 
speaking, neither foreign governments, nor industry organizations have 
been willing to support our views in their entirety. However, there is 
a growing recognition that some individual international ship owners 
have either employed, or expressed interest in employing, armed private 
security teams. This has begun to somewhat alter the discussions, as 
certain major open registries seek to accommodate the needs of their 
registered ship owners. Additionally, there is a much broader 
recognition that military or law enforcement armed security, provided 
by governments, can be useful.
    The present U.S. Government position on the issue, in relevant 
part, is:

        ``We recognize that in appropriate circumstances, on certain 
        vessels determined to be at high risk, properly screened and 
        certified third-party security providers with firearms, 
        operating in compliance with applicable coastal, port and flag 
        state laws can be an effective deterrent to pirate attacks off 
        the Horn of Africa.''

    Question 4. Is the Coast Guard concerned that the increased use of 
arms on board vessels will escalate the type of weaponry and the use of 
force by pirates?
    Answer. No. The 14 April 2009 attack on the M/V LIBERTY SUN (U.S.) 
demonstrated the Somali pirates' willingness and ability to employ 
Rocket-Propelled Grenades (RPGs) and automatic weapons fire against 
unarmed targets with U.S. citizens on board. This occurred before 
publication of MARSEC Directive 104-06 rev. 2, which called for armed 
or unarmed security. While there have been public reports of pirates 
threatening to retaliate against U.S. shipping post-MAERSK ALABAMA, 
there have been no changes seen in weaponry or use of force to date. 
The successful employment of defensive fire by an embarked private 
security team has not resulted in an escalation of the use of weapons 
by the pirates.

    Question 5. In light of the lessons learned from the pirate attacks 
on the MAERSK ALABAMA and LIBERTY SUN, do you recommend any changes to 
Maritime Security Directive 104-06? If so, what specifically do you 
intend to address and when will a revised directive be issued to better 
assist in the protection of our crews?
    Answer. MARSEC Directive 104-06 (Rev 2), was recently updated with 
input from the maritime industry. The Directive was published on May 
11, 2009 and came into effect on May 26, 2009. This revision was based 
on the lessons learned from the pirate attacks on the MAERSK ALABAMA 
and LIBERTY SUN and includes security requirements for U.S. flagged 
vessel operating in high-threat areas, including the Horn of Africa The 
Coast Guard will continue to monitor the issues related to piracy and 
if needed, update the MARSEC Directive.

    Question 6. There are a lot of overlapping interests and 
responsibilities regarding the piracy issue, within the United States 
and internationally. How are you working to provide the commercial 
maritime industry with one single point of contact when an incident 
takes place and who will that contact person be? Is the industry 
receiving a consistent message on what they should be doing and who 
they should be working with in a given circumstance? Please provide 
examples.
    Answer. The single point of contact for industry when an incident 
occurs is through the Ship's Security Alert System (SSAS). When any 
piracy incident occurs on a U.S. vessel worldwide, the Ship Security 
Alert System (SSAS) should be activated by the ship's crew and the 
regional liaison or anti-piracy organization for the region informed. 
The alert from the SSAS is received by the Coast Guard Regional Command 
Center in Alameda, CA, and authenticated with the Company Security 
Officer.
    U.S. vessels operating in the Horn of Africa (HOA) high risk 
waters, owners and operators shall register with and provide movement 
plans on the Maritime Security Center-Horn of Africa (MSCHOA) website. 
Additionally, they shall establish contact by e-mail or phone with U.K. 
Maritime Trade Operations (UKMTO) which maintains a 24/7 e-mail/phone 
watch and coordinates assistance in the event of an incident. If they 
are unable to contact UKMTO, the U.S. Maritime Liaison Officer (MARLO) 
should be contacted.
    For U.S. vessels operating in the Arabian Sea, the Gulf of Oman, 
and the Persian Gulf, the Maritime Liaison Office (MARLO) located in 
Bahrain, facilitates the exchange of information between the United 
States Navy, Combined Maritime Forces, and the commercial maritime 
community in the Middle East. For vessels in Asia, the Regional 
Cooperation Agreement on Combating Piracy against Ships in Asia 
(ReCAAP) facilitates the exchange of information and is able to 
facilitate appropriate responses to incidents. The Coast Guard is then 
able to assist in the coordination of a response and provide inter-
agency notifications.
    When U.S. vessels are operating in regions with no liaison, 
operators are encouraged to contact the nearest coastal state as 
advocated in the MSC/Circ.623/Rev.3, (Guidance to shipowners and ship 
operators, shipmasters and crews for preventing and suppressing acts of 
piracy and armed robbery against ships) or the National Geo-Spatial 
Agency (NGA) Pub 117.
    Industry is receiving a consistent message from the Coast Guard on 
who or what entity they should contact when an incident occurs. The 
procedures for notification of a piracy incident are provided in the 
MARSEC Directive 104-06. (Rev 2).

    Question 7. Considering the Coast Guard's current mission 
requirements and current resources, what role do you see the Coast 
Guard playing in future counter-piracy operations?
    Answer. The threats piracy poses to the United States, our 
international partners, and the industry and seafarers who make their 
living on the last global commons are multi-faceted. The response to 
these threats requires a broad array of legal authorities, operational 
capabilities, skills and competencies, and the support and expertise of 
numerous U.S. Government, international, and commercial entities. The 
Coast Guard has a unique role to play, and remains committed to working 
with our military, government, and industry partners to bring these 
criminals to justice and forge long-term solutions for regional 
maritime safety and security. Operating at all times as a military 
service and maritime law enforcement agency, the Coast Guard has 
authority to conduct counter-piracy operations against any vessel 
engaged in piratical acts, including conducting boardings, searches, 
seizures and arrests.
    The Coast Guard uses its statutory authorities to address the 
piracy threat. This involves a two pronged approach that relies on both 
domestic and international law. Domestically, the Maritime 
Transportation Security Act of 2002 provides the legal authority for 
the Coast Guard to regulate safety and security of cargo, ships, and 
most importantly seafarers. Under this authority, the Coast Guard 
developed regulations that require U.S. ship owners and operators to 
assess and plan for a wide range of security threats, including threats 
of piracy. This plan, known as a Vessel Security Plan, is received and 
approved by the Coast Guard. When additional security measures are 
necessary to deal with a specific threat, it can issue a Maritime 
Security, or MARSEC, Directive. MARSEC Directives can be global or 
regional in scope. In April 2008, the Coast Guard issued MARSEC 
Directive 104-6 Rev. 1. This Directive provides direction to Company 
Security Officers of U.S. vessels that engage in international voyages 
to, or through, areas at risk for terrorism, piracy and armed robbery 
against ships.
    The second structure through which the Coast Guard is involved off 
Africa is through Coast Guard Activities Europe, a 26-person unit 
located in Rotterdam, Netherlands. It is responsible for marine safety 
and security functions in Europe, the Middle East, and Africa. Marine 
Inspectors from this office conduct incident investigations and inspect 
U.S. flagged merchant ships. Marine inspectors are critical in the 
event a U.S. flagged and Coast Guard certificated vessel intends to 
implement hardening techniques that improve the vessels ability to 
mitigate pirate attacks. The Coast Guard must ensure the security 
techniques do not impede safety of life at sea, interfere with the use 
or deployment of safety equipment, or otherwise impose a detriment to 
maritime safety. Additionally, Coast Guard Activities Europe provides 
International Port Security Liaison Officers who work with the U.S. 
Embassy, foreign government officials, and port representatives to 
share information and enhance port security.
    Operationally, counter-piracy operations are primarily a maritime 
law enforcement activity for which the Coast Guard is trained and 
equipped to support. We are the competent authority for the U.S. 
Government on more than 30 bilateral agreements with foreign partners. 
The Coast Guard understands the domestic and international legal 
frameworks and the associated boarding and enforcement requirements 
necessary to ensure the successful negotiation and implementation of 
agreements to facilitate counter-piracy operations on the water and the 
delivery of legal consequences to the pirates ashore. The Coast Guard's 
international training teams and deployable law enforcement detachments 
offer tailored maritime law enforcement training that can be easily 
integrated in regional capacity building initiatives. Domestically the 
Coast Guard works with and regulates the U.S. merchant fleet to reduce 
its vulnerability to acts of piracy.
    Coast Guard forces are operating in support of U.S. Central Command 
(CENTCOM). CENTCOM has operational control of these forces and has 
directed they conduct operations with Combined Task Force 151 (CTF 
151). Coast Guard Law Enforcement Detachments (LEDETS) currently 
operate in support of CTF 151. LEDETS augment Navy Visit Board Search 
and Seizure (VBSS) teams near the Horn of Africa and provide training 
in maritime laws, boarding policies and procedures, evidence collection 
and preparation, and tactical procedures. Both the Coast Guard and Navy 
have independent authority to conduct counter-piracy operations against 
any vessel engaged in piratical acts, including conducting boardings, 
searches, and seizures. The integration of Coast Guard boarding team 
personnel with Navy VBSS teams takes advantage of the unique 
competencies, capabilities, and authorities of our two services in a 
manner that offers a comprehensive boarding capability that is ready to 
address a broad spectrum of threats in the maritime domain. Coast 
Guard/Navy cooperation in counter-piracy operations is an example of 
how our two services are working together to ensure interoperability 
and readiness to operate as an effective force to address the 
international issue of piracy.

    Question 8. What value has the Coast Guard contributed from the 
LEDETs participation in the counter-piracy operations around the Horn 
of Africa and the coast of Somalia?
    Answer. Coast Guard LEDETS current serve as part of CTF 151, a 
multinational task force that conducts counter-piracy operations in and 
around the Gulf of Aden, Arabian Sea, Indian Ocean and the Red Sea. The 
Task Force was established to create a lawful maritime order and 
develop security in the maritime environment.

  <bullet> Coast Guard LEDET are currently deployed to CENTCOM and are 
        available, as directed, to support CTF 151 efforts to deter and 
        disrupt acts of piracy. LEDETS are viewed as the subject matter 
        experts in the conduct of boarding's by U.S. and coalition 
        partners.

  <bullet> CG LEDETs are currently embarked in U.S. combatants serving 
        within CTF 151. Their role is to augment U.S. Navy and 
        coalition VBSS teams, and provide training on:

    <ctr-circle> Maritime Laws

    <ctr-circle> Boarding policies and procedures

    <ctr-circle> Evidence Collection and preparation

    <ctr-circle> Tactical procedures

  <bullet> CTF 151 describes counter-piracy activities as law 
        enforcement related operations in which all forces will be 
        expected to collect evidence, provide witness statements, and 
        respect the rights of the apprehended as they are duly 
        processed for trial.

  <bullet> CG forces possess the requisite capabilities and skill sets 
        to support the Combatant Commander's efforts to combat piracy 
        in the region.
Recent Counter Piracy Events with Coast Guard LEDET Participation
    February 2009--CG LEDET operating with USN VBSS teams from USS 
Vella Gulf apprehend 16 suspected pirates.

  <bullet> The team conducted a boarding of a suspected pirate skiff 
        and found several weapons. The seven suspected pirates were 
        brought aboard Vella Gulf, where they were processed and then 
        transferred to a temporary holding facility on board the supply 
        ship USNS Lewis and Clark.

  <bullet> Nine additional suspected pirates were apprehended after 
        VBSS teams from Vella Gulf and Mahan boarded a vessel that 
        contained assorted weapons and one rocket propelled grenade 
        launcher. Those suspected pirates were also transferred to a 
        temporary holding facility on board Lewis and Clark.

  <bullet> In both events, the VBSS teams were comprised of Coast 
        Guardsmen and Sailors and marks the first time CTF 151 has 
        apprehended suspected pirates.

    March 2009--CG LEDET operating with USN VBSS teams from USS 
Gettysburg apprehend six suspected pirates.

  <bullet> At approximately 4:30 a.m., the Philippines-flagged Motor 
        Vessel Bison Express sent a distress call to all ships in the 
        area reporting they were being pursued by a small skiff 
        containing six heavily-armed suspected pirates.

  <bullet> The six suspected pirates were apprehended and transferred 
        onto the amphibious assault ship USS Boxer.

    April 17, 2009--CG LEDET operating with USN VBSS team apprehend 
eight suspected pirates.

  <bullet> Danish-flagged dry cargo carrier M/V PUMA sent a distress 
        call indicating an ongoing attack by a pirate speedboat while 
        transiting the Gulf of Aden.

  <bullet> PUMA's crew of three Danes and four Filipinos zigzagged the 
        vessel and used flares to avoid the speedboat carrying five 
        armed pirates. The speedboat returned to the Mother Ship.

  <bullet> A Maritime Patrol Aircraft located the Mother Ship and 
        speedboat, and directed a USN asset with embarked LEDET to 
        intercept. Upon boarding, the LEDET discovered 80 people: 8 
        Somali Pirates and 72 people being smuggled into Yemen.

  <bullet> The LEDET detained the Pirates, and confiscated automatic 
        weapons, Rocket Propelled Grenades, and ammunition.

  <bullet> Disposition for detained people, evidence, and pirate 
        vessels are pending at this time. PUMA's crew was uninjured.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Tom Udall to 
                     Rear Admiral Brian M. Salerno

    Question. Our witnesses have focused this Committee's attention on 
the threat to merchant vessels from Somali pirates. I am concerned, 
however, about the vulnerability of cruise ships to pirate attacks, and 
not necessarily in the Horn of Africa region. What Federal and private 
sector efforts are being taken to ensure the safety of cruise ships and 
their passengers from pirate attacks?
    Answer. The U.S. Coast Guard examines security measures for cruise 
ships that visit U.S. ports to verify that security plan implementation 
on these vessels meet the requirements of 33 CFR Subchapter H (Maritime 
Security) and the International Ship and Port Facility Security (ISPS) 
Code. Very few of these vessels operate in areas subject to pirate 
attack. Typically, these vessels visit Caribbean ports, Pacific ports 
in Mexico, and ports in Canada and Alaska and never visit high risk 
areas.
    The Coast Guard works closely with the Cruise Line International 
Association (CLIA) on maritime security matters and meets regularly (at 
least once every 2 months) to discuss piracy, intelligence, and best 
practices. CLIA represents 24 major cruise lines which own or operate 
97 percent of the cruise capacity in North America. CLIA recommended 
its members reduce ship exposure to high risk areas. CLIA reports that 
the few member vessels that transit high risk areas will soon cease 
transits of the Gulf of Aden and the waters off the Horn of Africa. The 
Coast Guard also provides updated threat information cleared for 
industry use to CLIA so they may inform their members of piracy threats 
worldwide.
    Cruise ships possess a number of built-in features that deter 
piracy. These ships have very high freeboards, which create an obstacle 
for illegal boarding at sea by pirates. Additionally, cruise ships have 
top speeds in excess of 20 knots, and maneuvers at such speeds create 
an additional obstacle for pirates to overcome. Cruise ships have large 
crews that include dedicated full-time security personnel. Cruise ship 
security programs exceed the minimum requirements of the ISPS Code.\1\ 
In addition, cruise ship companies have put in place additional and 
closely-guarded security provisions that are considered proprietary 
information. These security provisions may include armed security 
personnel having strong military and anti-terrorist training, and new 
technologies such as the Long Range Acoustical Device that was used by 
the SEABOURN SPIRIT to ward off pirates on November 5, 2005.
---------------------------------------------------------------------------
    \1\ Following the ACHILLE LAURO incident in 1985, the cruise 
industry took pro-active steps to deter terrorism. In 1986, IMO, with 
cruise line cooperation, created the first security plan requirement 
for cruise ships. When the ISPS Code created enhanced security plan 
requirements for all ships, the cruise industry had well-established 
security programs and was poised to comply with the new standards.
---------------------------------------------------------------------------
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                     Rear Admiral Brian M. Salerno

    Question 1. Some have suggested that arming crews or placing 
military personnel or armed security teams on board would help protect 
our sailors, vessels, and cargo. Others have said that insurance costs 
would be prohibitive.
    Please specify the benefits, drawbacks, and any other complications 
affiliated with the following three options:

        Arming the crew;

        Shipping companies providing armed security personnel; and

        Posting U.S. military personnel on board U.S. flagged vessels 
        transiting dangerous waters?

    How would the Coast Guard deal with the complications of regulating 
the safety of life at sea complications affiliated with carrying 
additional personnel on board merchant vessels, for portions of a 
voyage?
    Answer. The issues associated with embarking armed security 
personnel or arming vessel crews on board U.S. flagged vessels 
transiting high risk waters are addressed at length in the Coast 
Guard's Port Security Advisory (4-09) and Maritime Security Directive 
104-6. Copies of these documents are available upon request, but in 
precis they maintain the U.S. position that vessel security is first 
and foremost the responsibility of vessel owners and operators. The 
largest challenge to such actions is actually two-fold: reluctance on 
the part of owners and operators to arm their crews, and difficulties 
with individual sovereign State laws respective of weapons.
    In certain instances, e.g., when shipping U.S. Government cargo, 
U.S. military personnel are already embarked on U.S.-flagged vessels in 
certain high risk waters, or vessel crews are trained and armed, under 
a claim of sovereign immunity.
    U.S. Coast Guard Certificates of Inspection (COIs) for U.S. Flagged 
Vessels allow persons to be carried ``in addition to the crew.'' As 
long as these limits are not exceeded, additional security personnel 
will be adequately covered by the International Convention of Safety of 
Life at Sea (SOLAS) required lifesaving equipment. If additional 
personnel are needed beyond these established limits, the ``persons in 
addition to the crew'' limit would need to be revisited, and possible 
additional equipment provided to be in compliance with SOLAS equipment 
requirements.

    Question 2. It is frequently reported that one of the clear root 
causes of the piracy epidemic in the Gulf of Aden and off Somalia's 
Indian Ocean coast is the inherent instability of the Somali 
government. What steps, if any, has the Coast Guard taken to assist the 
Somali government in the training and development of a Somali coast 
guard that could help combat piracy and carry out all safety and 
security missions as well? Is the Coast Guard considering any 
additional activities in this regard?
    Answer. The Coast Guard has not received a request from the 
Department of State or the Department of Defense to support this 
mission; therefore no assistance has been provided. Additionally, the 
Coast Guard can not unilaterally conduct operations in AFRICOM's area 
of responsibility (AOR) or in the country of Somalia without the 
permission of the President of the United States Representative. Since 
Somalia does not have a President of the U.S. Representative, AFRICOM 
is the cognizant authority to determine and request appropriate U.S. 
Forces.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                             Theresa Whelan

    Question 1. Recently, General Petraeus, Commander U.S. Central 
Command, testified that the shipping industry should consider hiring 
armed guards to increase the security of U.S. vessels operating off 
Somalia. What is the Department of Defense (DOD) position on the use of 
military forces versus armed private guards as a preferred security 
mechanism?
    Answer. In general, DOD does not support providing military forces 
as embarked security teams (ESTs) aboard commercial vessels. This 
course of action is tantamount to providing a service to the commercial 
shipping industry at no cost to the companies. The practical effect is 
that the U.S. taxpayer provides point security service to a private, 
for-profit entity, free of charge. Moreover, the logistics of 
transporting military members to a commercial vessel, transiting them 
through the high-risk area, and then transporting them back to the 
point of embarkation for the next vessel would both remove assets from 
service performing other critical missions and be highly inefficient.

    Question 2. Why is the DOD reluctant to supplement the crew of 
U.S.-flag vessels operating in High Risk Areas off the Horn of Africa 
when there is a similar and existing mechanism for DOD vessels under 
Military Sealift Command or DOD charter?
    Answer. Provision of point security for Military Sealift Command 
(MSC) or DOD-chartered vessels is qualitatively different than 
providing security for purely commercial enterprises. DOD provides 
military embarked security teams (ESTs) for MSC USNS government-owned 
ships and U.S. flag vessels chartered by MSC during certain transits. 
These ships are operated by the United States and used on exclusive 
government noncommercial service. We do so as a force protection 
measure, but it obviously also protects against piracy.
    We have examined the issue concerning whether to provide ESTs for 
other U.S. commercial vessels. After the MAERSK ALABAMA incident, U.S. 
Naval Forces Central Command developed a risk matrix to evaluate ships 
at risk and what actions might be appropriate regarding such ships.
    The conclusions reached were that DOD will not provide ESTs for 
other U.S. commercial vessels for several reasons. First, defense of 
the U.S. shipping industry is a shared responsibility. Industry has the 
ability to hire security teams; that is, the services are not uniquely 
military in nature and the threat that pirates create is one that 
private security forces can counter effectively. Second, the 
requirement to provide teams is better allocated to industry, as 
industry dictates which vessels enter the high-risk region (high/fast, 
which do not require security, or low/slow, which do require security), 
what cargo they carry, what destinations they sail to, what routes they 
take, etc. Industry controls the most important variables that make a 
vessel at risk. Third, our analysis indicates that DOD costs would be 
high, particularly in view of the staging and repositioning costs 
involved with the personnel and weapons.

    Question 3. The DOD is using embarked security teams of up to 12 
people to protect against pirate attacks on MSC chartered vessels, 
which sail through the Horn of Africa region. Please explain what 
specific training these forces receive to operate in the marine 
environment; what rules of engagement they operate under; and what 
their chain of command is while assigned to the ship.
    Answer. DOD uses embarked security teams (EST) in dangerous waters, 
including the Horn of Africa region, to protect against pirate attacks 
on Military Sealift Command (MSC) chartered vessels. The following 
outlines specific training these ESTs receive to operate in the marine 
environment; the rules of engagement they operate under; and their 
chain of command while assigned to the MSC ship.

    1. EST Training:

  <bullet> All personnel assigned to ESTs complete expeditionary combat 
        skills training. This prepares them for all facets of security 
        operations ranging from extensive weapons training including 
        small arms to crew-served weapons, convoy operations, and 
        combat medical training. They also receive training on 
        employment of warning shots and rules of engagement (ROE). 
        Training includes both live fire ranges and the use of 
        simulators.

  <bullet> EST personnel conduct 2 weeks of intense weapons training.

  <bullet> Other training involves mobile and fixed defensive 
        operations, visit-board-search and-seizure, and maritime 
        interception operations exploitation teams.

    2. Rules of Engagement: ESTs operate according to the Chairman of 
the Joint Chiefs of Staff standing ROE:

  <bullet> ESTs have the right and obligation to act in self-defense in 
        response to a hostile act or demonstrated hostile intent.

  <bullet> A hostile act is an attack or other use of force against the 
        United States, U.S. forces or other designated persons or 
        property.

  <bullet> Hostile intent is the threat of imminent use of force 
        against the United States, U.S. forces or other designated 
        persons or property.

    3. EST Chain of Command while embarked on the ship:

  <bullet> Ultimate responsibility for safety and security of the ship, 
        his or her crew, and the cargo rests with the ship's master.

  <bullet> The ship's master plays a key role in determining what 
        actions are necessary and appropriate for physical security of 
        his or her ship, but the EST mission commander has overall 
        responsibility for the EST and its security mission. All 
        actions are coordinated between the tactical supervisor and the 
        master. However, pre-planned responses can be executed 
        automatically in accordance with established ROE.

  <bullet> Weapons release authorization resides within the military 
        chain of command of the EST. If the master disagrees with the 
        military response, he or she would need to address it through 
        the EST mission commander's military chain of command.

    Question 4. The MSC owned vessels are sending specific members of 
their crews to the Naval Expeditionary Command for training in anti-
piracy measures and small arms handling. What specific training is 
given; who is certifying it; and how are the members of the crew 
selected to participate?
    Answer. Military Sealift Command (MSC) is not sending crew members 
to the Navy Expeditionary Combat Command (NECC) for training. The MSC 
has two small arms schools along with instructors in other locations, 
where the crewmembers are trained to Navy standards. Some of the unions 
have also set up small arms training to Navy standards. Each year they 
are required to train on the Navy small arms course. They also are 
required to do simulator training and to receive a quarterly use-of-
force brief. The instructors certify the crew members' training. The 
company operating the vessel selects the crew members to receive the 
training.

    Question 5. I understand from the Maritime Administration that 
there are only 15 U.S.-flag vessels in regular service and an 
additional five to eight tramp vessels servicing this region at any 
given time, for an estimated total of 200 to 225 transits per year. If 
the DOD were to supplement the crew with military forces, what would be 
the recommended number of service members per team, per vessel; how 
many teams would be required to fulfill this mission annually under the 
projected total transits listed above; and what would the estimated 
cost to the military be, to provide such teams to prevent piratical 
attacks on U.S.-flag vessels?
    Answer. We note that the Maritime Administration (MARAD) has 
provided us with different information on the number of transits (over 
350 transits by over 70 vessels). We have also seen at least nine U.S. 
vessels transiting the area at any one time, but we are always working 
to refine our numbers.
    Moreover, as stated in response to an earlier question, DOD does 
not provide embarked security teams (ESTs) for non-U.S. Government 
contracted, U.S. commercial vessels for several reasons. First, defense 
of the U.S. shipping industry is a shared responsibility. Industry has 
the ability to hire security teams, especially since the services 
required are not uniquely military in nature and the threat that 
pirates create is one that private security forces can counter 
effectively. Second, industry is better poised to undertake the 
requirement to provide teams since they dictate what vessels enter the 
high risk region (high/fast, which don't need security, or low/slow, 
which do need security), what cargo they carry, what destinations they 
sail to, what routes they take, etc. Industry controls the most 
important variables that make a ship an at-risk vessel. Third, our 
analysis indicates that DOD costs for providing such security teams 
would be high, particularly because of the staging and repositioning 
costs involved with the personnel and weapons. This analysis indicates 
that a single team costs approximately $1.7M per year and that with a 
two-to-one dwell, three teams are required to cover a 365 day 
commitment for a total of $5.1M per team year--and this provides 
coverage for only one vessel. As we are still working to refine the 
number of vessels transiting through the region, it is difficult to 
determine the total cost for this mission.
    In creating the ESTs for force protection, the manning was 
established at 12 per team to ensure proper 24-hour coverage in all 
expected threat conditions. At this point, there would be no change to 
this for anti-piracy operations because as stated above, we are still 
working to refine the numbers.

    Question 6. What was the total cost to the military in the rescue 
operation of Captain Phillips of the M/V ALABAMA? What was the total 
cost to the military in the response to the M/V LIBERTY SUN? How were 
these costs determined and what is the breakdown by expense?
    Answer. The combined incremental cost for the Navy's response to 
the M/V ALABAMA and M/V LIBERTY SUN piracy incidents is $3.114 million. 
The majority of the costs are attributable to the M/V ALABAMA. The M/V 
LIBERTY SUN situation was resolved before naval forces reached the 
vessel. The $3.114 million is composed of the below expenses.

        Incremental fuel costs: $1.191 million

        Flying hours: $1.6 million

        SCAN EAGLE units: $0.3 million

        Linguists support, communications, and temporary duty: $0.006 
        million

        Combined Enterprise Regional Information Exchanges System 
        support (CENTRIXS) to allow vital communication between 
        coalition partners to coordinate and deconflict operations: 
        $0.017 million

    These costs were derived from actual expenses incurred during the 
M/V ALABAMA and M/V LIBERTY SUN operational events. These costs do not 
include personnel salaries, benefits, etc., that would have been 
incurred in the ordinary course of operations.

    Question 7. Since its inception, the U.S. Navy has impressively met 
its responsibility to protect and defend the right of the United States 
and our allies to move freely on the oceans. What is the DOD doing to 
maintain the free flow of commerce around the Horn of Africa and ensure 
U.S. mariners and maritime interests are protected?
    Answer. In August 2008, when we saw an upsurge in piracy attacks, 
the Combined Maritime Forces initiated a maritime security patrol area 
and assigned warships to try to deter and prevent piracy incidents. In 
October 2008, U.S. Central Command emphasized the need to monitor U.S. 
vessels through the Gulf of Aden in an order to its naval forces. In 
addition, in January 2009 NAVCENT established a new Combined Task 
Force, designated CTF-151, with the exclusive mission of conducting 
counter-piracy operations in the Horn of Africa/Gulf of Aden region. 
The task force continues to disrupt pirate attacks, capture suspected 
pirates, and turn them over for prosecution. In addition, Combined 
Maritime Forces co-hosted a meeting in Bahrain with all the other 
navies operating off the coast of Somalia in order to de-conflict and 
coordinate operations. All of these initiatives are in support of 
protection of U.S. shipping and freedom of navigation off the coast of 
Somalia.

    Question 8. Even after the MAERSK ALABAMA attack generated 
worldwide attention on the threat of piracy, several pirates involved 
in subsequent attacks were released after being apprehended because of 
legal uncertainties surrounding potential prosecution. In addition to 
the recent agreements with Kenya that provide for some prosecutions in 
that country, how are the United States and other countries working to 
ensure that suspected pirates will not be released in the future?
    Answer. The challenges surrounding prosecution include transferring 
suspected pirates for prosecution where there are agreements with other 
nations to accept them for prosecution, the willingness of these states 
to accept them, and being able to provide evidence, i.e., catching them 
in the act or having witnesses to testify. Our primary effort in this 
matter is through the Contact Group on Piracy Off the Coast of Somalia, 
which includes 28 countries and six international organizations. The 
Contact Group's Working Group 2--chaired by Denmark--makes efforts to 
identify practical and legally sound solutions to ensure prosecution of 
persons suspected of piracy. DOD sends a legal representative to the 
group (the other members of the U.S. delegation are from State, 
Justice, and Homeland Security).
    The United States continues efforts to establish prosecution 
agreements with other relevant States, similar to the one we now have 
with Kenya. We also recognize, however, that in many cases, substantial 
legal and judicial capacity building is needed among states in the Horn 
of Africa region, and we are working with our international partners, 
in particular in the context of the Contact Group for Counter Piracy 
off the Horn of Africa, to build such capacities. This is a medium-to-
long term effort, however. We anticipate that in the interim, 
effectively prosecuting a high volume of suspected pirates will 
continue to be challenging. Therefore we also continue to press victim 
states (states whose vessels or citizens have been involved in a piracy 
incident) to accept responsibility for trying the perpetrators of the 
piracy in their own countries. A certain number of suspected pirates 
will continue to be released, even when suitable prosecution venues 
have been established, when evidence is lacking or due to an otherwise 
weak case for prosecution.
    At its next session, the Contact Group's Working Group 2 will: (1) 
draw up detailed terms of reference for an international trust fund to 
help defray the expenses associated with prosecution of suspected 
pirates; (2) develop a generic template for use by interdicting states 
in collecting evidence in a piracy incident (in order to assist states 
in fulfilling the relevant evidentiary standards); (3) share 
information about relevant bilateral arrangements and agreements 
between states with a view to assessing their functioning at a relevant 
point in time; (4) continue consideration of possible international or 
regional mechanisms for the prosecution of suspected pirates as an 
addition to options for national prosecution; and (5) continue 
gathering information on relevant national legal systems, including in 
coastal states, to ensure that nations have the ability to prosecute 
pirates.

    Question 9. The Navy's response to the MAERSK ALABAMA pirate attack 
and kidnapping was situationally appropriate and successful, but was 
reactive in nature. How can the Navy effectively provide preventative 
protection of U.S.-flag vessels and mariners, while keeping the sea 
lanes open?
    Answer. Commander, U.S. Naval Forces, Central Command (NAVCENT) 
established the maritime security patrol area in the Gulf of Aden in 
August 2008, marking the beginning of a major, enduring commitment by 
Department of Defense to provide for the safe passage of both U.S.-
flagged and other vessels passing through this region. In addition, in 
January 2009 NAVCENT established a new combined task force, designated 
CTF-151, with the exclusive mission of conducting counter-piracy 
operations in the Horn of Africa/Gulf of Aden region. NAVCENT has also 
established a shared awareness and deconfliction (SHADE) mechanism in 
order to coordinate and share information more effectively among the 
numerous entities (other States and international organizations) 
conducting counter-piracy operations in the same maritime region.
    We have made efforts to disrupt pirate attacks, capture suspected 
pirates, and turn them over for prosecution. However, the best 
preventive efforts can be done by industry--not military forces. For 
example, from February 25 to April 20, 2009, 78 percent of the 
unsuccessful piracy attempts were the result of merchant vessel self-
protection--only 22 percent were due to direct naval presence and/or 
intervention. While naval presence can be helpful, given the large 
ocean area in which the pirates operate, the Navy has and will continue 
to advocate that U.S. flag vessels and mariners follow best practices. 
The data on piracy incidents has made it clear that the most effective 
means of avoiding capture by pirates off Somalia is a robust program of 
self-protection by individual vessels.

    Question 10. If the merchant ships begin embarking contracted armed 
security forces, what concerns or reservations will the DOD have when 
considering whether or not to assist a U.S.-flag vessel being attacked 
by pirates?
    Answer. The presence or absence of embarked armed security forces 
aboard merchant vessels will have no bearing on DOD forces' decisions 
to assist U.S.-flagged vessels under attack. DOD does not view self-
protection measures taken by commercial shippers to be a substitute for 
a robust response by our naval forces to an ongoing act of piracy 
against a U.S. vessel. Rather, DOD views self-protection measures by 
shippers and an enduring, interdiction-capable naval force as 
complementary, mutually supporting measures that, together, can 
significantly diminish the threat of pirates successfully taking U.S. 
vessels.

    Question 11. Does the DOD classification of pirates as criminals 
affect how DOD responds to the actions of pirates?
    Answer. It is international and U.S. law, not DOD, that has 
classified acts of piracy as criminal acts. As a result, our response 
must comply with a law enforcement paradigm authorizing actions against 
those engaged in piracy while at sea. Nonetheless, there are sufficient 
authorities enabling DOD to use force against suspected pirates, 
including in self-defense, and this paradigm has not negatively 
affected our operations.

    Question 12. Does the DOD consider U.S.-flag vessels to be 
sovereign U.S. territory? Why or why not? When the cargo is government 
impelled or specifically military cargo does that make a difference?
    Answer. A flag state exercises jurisdiction and control over ships 
flying its flag as reflected in article 94 of the Law of the Sea 
Convention. Although this is not equivalent to considering U.S.-flag 
vessels as sovereign U.S. territory, there are immunities for U.S. 
Government vessels.
    DOD and the Department of State have taken the position, at least 
since 1985, that U.S. Navy Military Sealift Command (MSC) U.S.-flag 
chartered vessels are entitled to sovereign immunity. In practice 
(because of the administrative burden and advance notice required when 
filing diplomatic clearance requests), except in unusual circumstances 
the United States asserts full privileges of sovereign immunity only 
for MSC U.S.-flag time charters (this includes immunity from boarding 
and search of the vessel, jurisdictional control over persons on board, 
not flying the port state flag, and freedom from arrest and taxation), 
and only limited privileges of immunity for MSC U.S.-flag voyage 
charters (freedom from arrest and taxation). Though privately owned, 
MSC U.S.-flag chartered vessels are (1) operated by the Department of 
Defense (MSC), and (2) used for the time being exclusively for 
government noncommercial service.
    Depending on the terms of the charter party (the contract), and the 
degree of operational control granted to the government thereby, it may 
be reasonable to assert that U.S.-flag chartered vessels (under charter 
by U.S. Government Departments other than DOD) and carrying only 
government cargo for government noncommercial purposes are also 
entitled to sovereign immunity.
    U.S.-flag vessels that are chartered by private entities are NOT 
entitled to sovereign immunity as they are NOT operated by the U.S. 
Government and are being used in commercial service.
    U.S.-flag liner service vessels are not entitled to sovereign 
immunity because they are not, even for the time being, used 
exclusively for government noncommercial service. They generally 
solicit and carry commercial as well as government cargo and thus 
remain in commercial service. Further, even if they are carrying only 
government cargo at a particular time, it is more difficult to argue 
that they are operated by the U.S. Government as there is very little 
operational control by the U.S. Government over the vessel. As a 
result, ownership of the cargo is only one necessary factor--the other 
factor is government control of the vessel. Without both factors, we 
cannot exert sovereign immunity over the vessel or voyage.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                             Theresa Whelan

    Question 1. Given that merchant vessels carry supplies for our 
overseas military operations, how significant is the impact of piracy 
in the Horn of Africa region on U.S. military operations in the Middle 
East and South Asia?
    Answer. Some assets are needed to combat piracy in the Horn of 
Africa region, but the impact on U.S. military operations in the Middle 
East and South Asia is not significant at this time. The additional 
intelligence, surveillance and reconnaissance that might be needed to 
more effectively hunt pirates, as well as the additional Special Forces 
that might be required to conduct other piracy-related missions in the 
AOR, could potentially impact the campaigns in Iraq and Afghanistan.
    U.S.-flag vessels transiting the region carry Department of Defense 
cargo bound for operations Iraqi and Enduring Freedom and U.S.-flag 
vessels transiting the region carrying humanitarian cargoes destined 
for Somalia are also at risk.. This is a particular issue because the 
food aid cargoes themselves are in the low and slow variety in most 
instances so they're very vulnerable.
    Ultimately, there needs to be a balance of resources.

    Question 2. Are pirate operations in the Indian Ocean and Middle 
Eastern waters supported by terrorist groups?
    Answer. Even before the most recent spike in piracy off the Horn of 
Africa, relevant intelligence agencies were closely and persistently 
monitoring the piracy situation in Somalia to determine whether there 
is a link between piracy and terrorist organizations inside Somalia or 
elsewhere. The result of this ongoing analysis makes it clear that no 
such nexus exists. DOD recognizes the potential for the development for 
such links and will ensure that the intelligence community continues to 
closely monitor for their development. Similarly, we have no 
indications of the involvement of Somali warlords in the piracy 
equation.
    Although Somali piracy currently appears to be motivated solely by 
money, not ideology and we see no meaningful links between Somali 
pirates and violent extremists, we must ensure that piracy does not 
evolve into a future funding source for terrorism. To this end, we will 
continue to work with the international Contact Group on Piracy Off the 
Coast of Somalia to determine ways to deter piracy of the coast of 
Somalia.

    Question 3. Only a handful of those captured by Somali pirates have 
returned home safely. Captain Phillips was rescued by brave Navy Seals 
and sailors from the USS Bainbridge. Yet others were freed following 
ransom payments. Has the payment of ransoms for hostages and ships 
actually increased the risk of pirate attacks?
    Answer. It remains true that commercial shipping companies and 
their insurers continue to pay ransoms to have their vessels released, 
thus providing a powerful incentive and the financial wherewithal to 
perpetuate the pirates' activities. The United States has actively 
pressured flag and victim States to take action to prevent the payment 
of ransom, but it remains a critical and largely unresolved enabling 
mechanism. U.S. policy is not to pay ransom under any circumstances.
    We will coordinate with all stakeholders to deprive pirates and 
those supporting the pirates of any illicit revenue and the fruits of 
their crime, advocating the development of national capabilities to 
gather, assess, and share financial intelligence on pirate financial 
operations, with the goal of tracing payments to and apprehending the 
leaders of pirate organizations and their enablers. To this end, we 
will collaborate with governments and the shipping industry to develop 
a consistent response to the payment of ransom demands. There are 
substantial long term risks in surrendering to the ransom demands of 
pirates. Paying ransoms put other seafarers at increased risk, enable 
to pirates to apply the financial leverage to increasing capability and 
capacity, incentivizing piracy, and ultimately provides support to 
criminal organizations. Any strategic communications strategy must 
convey these concerns. We will improve our ability to collect and share 
intelligence on pirate financial operations, coordinating with other 
stakeholders to trace pirate revenue. We will consider taking action to 
apprehend, prosecute, and punish persons or entities that aid or abet 
or conspire with pirates in violation of national law.
    We will also press our partners in the international Contact Group 
on Piracy off the Coast of Somalia to play a more aggressive role in 
stopping the payment of ransoms and otherwise facilitating the flow of 
money to pirates, because that, in fact, is what is enabling the 
pirates to get more arms and undertake even greater levels of attack.

                                  <all>

</pre></body></html>
